<html>
<title> - EXAMINATION OF THE COSTS AND IMPACTS OF MANDATORY BIOTECHNOLOGY LABELING LAWS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                      EXAMINATION OF THE COSTS AND IMPACTS 
                            OF MANDATORY BIOTECHNOLOGY
                             LABELING LAWS

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                            Serial No. 114-6
                            
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                ___________
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
93-965 PDF                  WASHINGTON : 2015                        

___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  




                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
TOM EMMER, Minnesota
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
    Submitted article............................................    77
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     5
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     5
Kirkpatrick, Hon. Ann, a Representative in Congress from Arizona, 
  submitted letter...............................................    79
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, submitted articles..............................    71
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4

                               Witnesses

Schmidt, David B., President and Chief Executive Officer, 
  International Food Information Council and Foundation, 
  Washington, D.C................................................     6
    Prepared statement...........................................     8
Fedoroff, Ph.D., Nina V., Senior Science Advisor, Olsson Frank 
  Weeda Terman Matz PC (OFW Law), Washington, D.C................    17
    Prepared statement...........................................    19
    Supplementary material.......................................    85
    Submitted questions..........................................    88
Lidback, Joanna S., Owner, The Farm at Wheeler Mountain, 
  Westmore, VT; on behalf of Agri-Mark; National Council of 
  Farmer Cooperatives; National Milk Producers Federation........    26
    Prepared statement...........................................    27
    Submitted question...........................................    91
Clarkson, Lynn, President and Founder, Clarkson Grain Company, 
  Inc., Cerro Gordo, IL..........................................    31
    Prepared statement...........................................    33
    Submitted question...........................................    91
Dempsey, Jr., Thomas W., President and Chief Executive Officer, 
  Snack Food Association, Arlington, VA..........................    34
    Prepared statement...........................................    36
    Submitted question...........................................    92
Policinski, Chris, President and Chief Executive Officer, Land O' 
  Lakes, Inc., Arden Hills, MN...................................    39
    Prepared statement...........................................    41
    Submitted question...........................................    94

                           Submitted Material

McGinty, Scott, President, Aurora Organic Dairy, submitted letter    87


    EXAMINATION OF THE COSTS AND IMPACTS OF MANDATORY BIOTECHNOLOGY


                             LABELING LAWS

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Lucas, Gibbs, Austin Scott of Georgia, Crawford, Gibson, 
Hartzler, Benishek, Denham, LaMalfa, Davis, Yoho, Allen, Bost, 
Rouzer, Abraham, Emmer, Moolenaar, Newhouse, Peterson, David 
Scott of Georgia, Costa, Walz, McGovern, DelBene, Vela, Kuster, 
Nolan, Bustos, Kirkpatrick, Aguilar, Plaskett, Adams, Graham, 
and Ashford.
    Staff present: Haley Graves, Jackie Barber, Jessica Carter, 
John Goldberg, Mary Nowak, Mollie Wilken, Patricia Straughn, 
Scott C. Graves, Ted Monoson, Faisal Siddiqui, John Konya, 
Keith Jones, Liz Friedlander, and Nicole Scott.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. I want to thank each of you for 
being here today to discuss agricultural biotechnology.
    Mankind has used biological technologies for more than 
10,000 years to improve crops and livestock, to make useful 
food products, such as bread and cheese, and to preserve dairy 
products. When applied to plant breeding, these technologies 
have led to the evolution of nearly every food product we 
consume. These and other advances have enabled us to enjoy the 
safest, highest-quality, most abundant and affordable supply of 
food and fiber.
    As our knowledge has increased, so has the speed and 
precision in which we are able to harness natural capabilities 
to improve the plants we cultivate. These new applications of 
biotechnology have been available to American and international 
consumers for nearly 3 decades. The safety of the technology 
has been confirmed by the world's leading scientific and public 
health organizations including the World Health Organization, 
the National Academies of Science, the American Association for 
the Advancement of Science, the American Medical Association, 
and the Royal Society of Great Britain.
    Many scientists and farmers are optimistic and enthusiastic 
about the prospects of using scientific advances in 
biotechnology. The careful and precise addition of one or a few 
genes to a plant may make it more productive and nutritious, 
more tolerant to environmental stresses such as drought, and 
more resistant to disease and pests. These technologies can 
likewise improve the efficiency and therefore the productivity 
of agriculture, while at the same time reducing detrimental 
effects on the environment.
    This Committee has frequently reviewed these technologies. 
We have reviewed the regulatory mechanisms in place since the 
Reagan Administration and have been repeatedly assured by the 
absence of any valid concerns regarding the safety or quality 
of products derived from these production methodologies. 
Despite the facts that are universally on the side of this 
technology, we would have to search long and hard to find 
another issue matching the negative rhetoric and aggressive 
tactics of the detractors. In Washington and across the 
country, we are hearing a great deal of misinformation about 
so-called GMOs and the use of biotechnology in food and 
agricultural production. These unfounded attacks are not 
supported by the facts and mislead both consumers and 
policymakers. This misinformation would threaten our farmers' 
ability to feed an ever-growing population and result in higher 
food costs for consumers.
    Biotechnology is an essential tool for farmers to have in 
the toolbox if we plan to feed an estimated ten billion people 
by the year 2050 in an environmentally sound, sustainable, and 
affordable way. Unfortunately, threats exist to our ability to 
fully utilize this technology in the form of proposed Federal 
and state laws, as well as some state laws that will soon be 
implemented if we don't act.
    A recent report by the Cornell Business School examined the 
consumer cost impact of a proposed mandatory label for 
biotechnology food products sold in the State of New York. 
According to the study, implementing a mandatory biotech 
labeling system in the state would mean new costs for consumers 
in the checkout aisle. The report finds that a family of four 
in New York could pay on average an additional $500 in annual 
food costs if mandatory labeling becomes the law. The state 
would also incur an estimated $1.6 million in costs from the 
writing and enforcing of new regulations and litigating 
potential lawsuits related to mandatory labeling, which could 
run as high as $8 million and will also factor into the 
increased costs consumers see in their annual food bills. What 
this report does not reflect is the significant cost to food 
manufacturers associated with segregation and testing that 
would be passed back to producers, nor does it address 
liability costs borne by food processors and producers under 
the activist scheme.
    As of today 26 states have some form of biotech labeling 
legislation pending. These proposals are loaded with arbitrary 
and inconsistent policies which would create an unmanageable 
situation for food producers, processors, and distributors. 
Consumers would ultimately lose as a result both of higher food 
costs and the very real likelihood that the technological 
innovation that has filled our grocery stores with an abundance 
of high-quality products we enjoy would be stifled. As we 
examine the costs and impacts if states like Vermont move 
forward with mandatory labeling schemes, I think we will agree 
that Congressional action to preserve interstate commerce 
through national uniformity is necessary.
    Although I will introduce our panel in its entirety after 
opening statements, I do want to take a moment to discuss one 
of our witnesses. Ms. Joanna Lidback is a dairy farmer from the 
State of Vermont and the author of a well-read blog on farming, 
food, and rural issues. This is actually Ms. Lidback's second 
appearance before the Agriculture Committee to discuss 
biotechnology. I would be remiss if I didn't acknowledge 
Joanna's courage in returning since some of you may be aware 
that after her appearance last year, Joanna and her family were 
the subject of harassment, interfering with her young family's 
peace. I consider the tactics of anti-biotech activists who 
harassed you reprehensible, and I want to stress that this 
shameful behavior is not acceptable and should not be 
tolerated.
    Joanna, thank you for being here today and for your 
dedication to this important issue.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning. I want to thank each of you for being here today to 
discuss agricultural biotechnology.
    Mankind has used biological technologies for more than 10,000 years 
to improve crops and livestock, and to make useful food products, such 
as bread and cheese, and to preserve dairy products. When applied to 
plant breeding, these technologies have led to the evolution of nearly 
every food product we consume. These and other advances have enabled us 
to enjoy the safest, highest quality, most abundant and affordable 
supply of food and fiber.
    As our knowledge has increased, so has the speed and precision in 
which we are able to harness natural capabilities to improve the plants 
we cultivate.
    These new applications of biotechnology have been available to 
American and international consumers for nearly 3 decades. The safety 
of the technology has been confirmed by the world's leading scientific 
and public health organizations including the World Health 
Organization, the National Academies of Science, the American 
Association for the Advancement of Science, the American Medical 
Association, and the Royal Society of Great Britain.
    Many scientists and farmers are optimistic and enthusiastic about 
the prospects of using scientific advances in biotechnology. The 
careful and precise addition of one or a few genes to a plant may make 
it more productive and nutritious, more tolerant to environmental 
stresses such as drought, and more resistant to disease and pests. 
These technologies can likewise improve the efficiency and therefore 
the productivity of agriculture, while at the same time reducing 
detrimental effects on the environment.
    This Committee has frequently reviewed these technologies. We have 
reviewed the regulatory mechanism in place since the Reagan 
Administration and have been repeatedly assured by the absence of any 
valid concerns regarding the safety or quality of products derived from 
these production methodologies.
    Despite the facts that are universally on the side of this 
technology, we would have to search long and hard to find another issue 
matching the negative rhetoric and aggressive tactics of the 
detractors.
    In Washington and across the country, we are hearing a great deal 
of misinformation about so-called ``GMOs'' and the use of biotechnology 
in food and agricultural production. These unfounded attacks are not 
supported by the facts and mislead both consumers and policymakers. 
This misinformation could threaten our farmers' ability to feed an 
ever-growing population and result in higher food costs for consumers.
    Biotechnology is an essential tool for farmers to have in the 
toolbox if we plan to feed an estimated ten billion people by the year 
2050 in an environmentally sound, sustainable, and affordable way. 
Unfortunately, threats exist to our ability to fully utilize this 
technology in the form of proposed Federal and state laws, as well as 
some state laws that will soon be implemented if we don't act.
    A recent report by the Cornell Business School examined the 
consumer cost impact of a proposed mandatory label for biotech food 
products sold in the State of New York. According to the study, 
implementing a mandatory biotech labeling system in the state would 
mean new costs for consumers in the checkout aisle. The report finds 
that a family of four in New York State could pay, on average, an 
additional $500 in annual food costs if mandatory labeling becomes law.
    The state would also incur an estimated $1.6 million in costs from 
writing and enforcing new regulations and litigating potential lawsuits 
related to mandatory labeling, which could run as high as $8 million 
and will also factor into the increased costs consumers see in their 
annual food bills. What this report does not reflect is the significant 
cost to food manufacturers associated with segregation and testing that 
will be passed back to producers; nor does it address liability costs 
borne by food producers and processors under the activist scheme.
    As of today 26 states have some form of biotech labeling 
legislation pending. These proposals are loaded with arbitrary and 
inconsistent policies which would create an unmanageable situation for 
food producers, processors and distributors. Consumers would ultimately 
lose as a result both of higher food costs and the very real likelihood 
that the technological innovation that has filled our grocery stores 
with an abundance of high quality products we enjoy would be stifled.
    As we examine the costs and impacts if states like Vermont move 
forward with mandatory labeling schemes, I think we will all agree that 
Congressional action to preserve interstate commerce through national 
uniformity is necessary.
    Although I will introduce our panel in its entirety after opening 
statements, I do want to take a moment to discuss one of our witnesses 

    Ms. Joanna Lidback is a dairy farmer from the State of Vermont and 
the author of a well-read blog on farming, food and rural issues. This 
is actually Ms. Lidback's second appearance before the Agriculture 
Committee to discuss biotechnology. I would be remiss if I didn't 
acknowledge Joanna's courage in returning since some of you may be 
aware that after her appearance last year, Joanna and her family were 
the subject harassment, interfering with her young family's peace.
    I consider the tactics of the anti-biotech activists who harassed 
you reprehensible, and I want to stress that this shameful behavior is 
not acceptable and should not be tolerated. Joanna, thank you for being 
here today and for your dedication to this important issue.

    The Chairman. And with that, I recognize the Ranking Member 
for his statement.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and thanks for 
holding this hearing. This is an issue that I hope that we can 
find a way to address because if we don't, we are going to have 
50 states with 50 different labeling programs, and that is just 
not going to work. If we don't do something to stop this, we 
could end up with something similar to what is going on right 
now in California with their egg standards.
    Consumers have expressed their interest in knowing more 
about where their food comes from, and that is a good thing. 
But when it comes to labeling, we need to be able to find a 
smart way to balance this consumer demand, what we know about 
the safety of the foods that our farmers produce. Done 
correctly, I think we can find a workable solution.
    The Energy and Commerce Committee has most of the 
jurisdiction here, so at this point our hands are a little bit 
tied. But I do think it is important for us to move forward and 
learn more about the impacts some of these state attempts at 
labeling genetically engineered food and food ingredients are 
going to have.
    So I look forward to hearing from our witnesses and thank 
you for holding the hearing.
    The Chairman. I thank the Ranking Member. I appreciate 
that. I recognize Subcommittee Chairman Rodney Davis for his 
statement.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    Mr. Davis. Thank you, Mr. Chairman, and thank you to all 
the witnesses that are here today. And Mr. Chairman, thank you 
for holding this hearing on the costs and impacts of the 
mandatory biotech labeling laws. And I would like to welcome 
one of my constituents who is on the panel, Mr. Lynn Clarkson. 
I am very glad you are here representing the small town of 
Cerro Gordo very, very well.
    Clarkson Grain, your company, turned 40 just last year, 
supplies grain to food manufacturing, animal feed industries. 
His products include corn, whole grains, and non-GMO grains and 
oilseeds. I appreciate your testimony about respecting all 
viewpoints and lowering the temperature in this very heated 
debate.
    I have two distinct memories from the Subcommittee hearing 
that I shared last year that Ms. Lidback was a part of. First 
of all, we discussed the needs of biotechnology, and it helps 
us feed a growing population, reduces negative impacts on our 
environment, and also helps combat plant and pest diseases. But 
the rhetoric, as Chairman Conaway said, became pretty charged 
after the hearing. I was disappointed by this rhetoric and 
misinformation and the personal attacks leveled not only at you 
but to those who were part of the hearing, including me.
    Thanks for coming back. I know you did receive some rude 
comments and some bullying on social media, and I really 
appreciate hearing your perspective as a dairy farmer, and as a 
father of three children myself, I appreciate hearing your 
perspective as a mother.
    Last, on the right-to-know argument, consumers can already 
find out information when they are at the grocery store. Food 
that is labeled as USDA certified organic does not contained 
genetically modified ingredients. I want to read something from 
The New York Times editorial just a couple of years ago. 
``Consumers can already find products free of GMO ingredients 
with labels voluntarily placed by the manufacturers. For those 
who want to avoid such ingredients, the surest way is to buy 
products certified as organic under Federal standards.'' Now, 
this is The New York Times, not necessarily a hotbed of 
conservative rhetoric on their editorial board.
    So with that, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back. Thank you. I now 
recognize the Ranking Member on the Subcommittee, Ms. DelBene, 
for her statement.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, and I want to thank all of the witnesses 
for being here today.
    As the Ranking Member on the Subcommittee, this is an issue 
I hear about very often, not only here, but also in my district 
back home in Washington State. In fact, Washington State was 
among the states which recently voted on a GMO labeling 
initiative, and one of the biggest takeaways for many of us 
from that initiative, as well as this debate generally, is that 
there needs to be more of a dialogue and more education done on 
all sides.
    I certainly agree that consumers have a right to know what 
they are eating, and I also believe that we need to be clear 
and take a science-based approach when we are discussing GMOs. 
Just as many of us implore folks to look at the science behind 
climate change, for example, we can't pick and choose. We need 
to understand the science and its findings, including in this 
case.
    Genetically modified doesn't mean just one thing or just 
one company, and as someone who started their career in 
biomedical research, I understand that this technology has the 
potential to provide benefits to consumers. However, we also 
need to ensure that we are having an open conversation about 
its impacts and its challenges. This is often an emotional 
argument, and it is my hope that moving forward we can have it 
be more of a fact-based open discussion on all sides.
    I am looking forward to the testimony of our panel today 
and am hopeful that we can move closer to a workable solution 
as a result for everyone. So thank you again, Mr. Chairman, for 
this hearing, and I yield back.
    The Chairman. I thank the gentlewoman. The chair would 
request that other Members submit their opening statements for 
the record so that witnesses may begin their testimony and to 
ensure there is ample time for questions.
    I would now like to welcome to our witness table the 
following witnesses: We have here Mr. David Schmidt, President 
and CEO of the International Food Information Council here in 
D.C. We have Dr. Nina Federoff, the Senior Science Advisor, OFW 
Law Firm here in D.C. We have Ms. Joanna Lidback, owner of The 
Farm at Wheeler Mountain, on behalf of Agri-Mark Dairy 
Cooperative, the National Council of Farmer Cooperatives, and 
the National Milk Producers Federation from Westmore, Vermont. 
We have Mr. Lynn Clarkson, President, Clarkson Grain Company at 
Cerro Gordo--is that close enough--Illinois. Mr. Thomas 
Dempsey, CEO, Snack Food Association in Arlington, Virginia, 
and Mr. Chris Policinski. I butchered that, Chris. Sorry about 
that. President and CEO, Land O' Lakes in Arden Hills, 
Minnesota.
    Mr. Schmidt, begin when you are ready, please.

 STATEMENT OF DAVID B. SCHMIDT, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, INTERNATIONAL FOOD INFORMATION COUNCIL AND FOUNDATION, 
                        WASHINGTON, D.C.

    Mr. Schmidt. Thank you, Chairman Conway, distinguished 
Members. I am David Schmidt, President and CEO of the 
International Food Information Council and Foundation. We 
effectively communicate science-based information on food 
safety and nutrition issues to health professionals, 
journalists, educators, government officials and consumers. We 
are fortunate to receive support for our programs from leading 
food, beverage, and agricultural companies, but I must clarify 
that we don't represent those industries.
    Last year, IFIC conducted the 2014 Consumer Perceptions of 
Food Technology Survey. It was our 16th such survey since 1997. 
The survey polled 1,000 adults who are reflective of the U.S. 
population, according to the U.S. Census Bureau. Our survey 
begins with open-ended questions, which are more reliable when 
it comes to taking the real pulse of consumers than surveys 
with a small number of carefully worded questions designed to 
provoke concerns.
    When it comes to food labels, the results show that 
biotechnology, or even the phrase GMOs, is not a top-of-mind 
concern for the vast majority of consumers. Following the open-
ended questions, we get more specific about biotechnology and 
genetic engineering, but please note that we do not use the 
term GMO for two major reasons. Number one, The U.S. FDA has 
provided labeling guidance to industry, reaffirmed as recently 
as April 2013, that the scientifically accurate terms are 
bioengineered, genetically engineered, or foods produced using 
biotechnology. Their analysis considers the term genetically 
modified organism, or GMO, as potentially misleading to 
consumers because it is a distinction without a difference. And 
as you said, Mr. Chairman, humans have been genetically 
modifying crops and animals for tens of thousands of years.
    Number two, our own consumer research since the early 1990s 
has found GMO, as a phrase, to be off-putting at best or even 
frightening to many consumers. And unfortunately in today's 
marketplace, it is used as something to avoid and a pejorative, 
rather than a way to inform consumers.
    When we first asked if people were avoiding any particular 
foods or ingredients in their diet, only two percent of total 
respondents mentioned biotech food or even similar terms like 
GMOs. Then we asked them if they could think of any information 
that currently is not on food labels but should be. Three-
quarters of them, 75 percent, said no. Just four percent said 
that labels should carry information about genetic engineering 
or related terms. Two-thirds of Americans said they were 
confident in the safety of the food supply. When we asked 
people about their specific food safety concerns, biotech or 
any related term was far down the list at seven percent. When 
we asked the respondents to offer their impressions of food 
biotechnology before mentioning any benefits, there was an 
almost-even split between 28 percent who were favorable and 29 
percent unfavorable with more than four in ten either neutral 
or didn't know.
    The survey then asked about which sources of information on 
food biotechnology consumers trust most. Health organizations, 
cited by 50 percent of consumers ranked first, followed by 
Federal Government agencies and health professionals at 45 
percent each. We then focused on attitudes toward particular 
benefits of food biotechnology.
    Referring back to my point on language above, it is not 
surprising that consumers may shy away when provoked to be 
concerned about ``genetically modified organisms in your 
food.'' But notice the difference in support when we use more 
informative language to explain some of the benefits of the 
technology. Seventy-two percent said they were likely to 
purchase products made with oils modified by biotechnology to 
provide more healthful fats. Sixty-nine percent were likely to 
buy such products if they were modified to reduce the potential 
for carcinogens, and 69 percent also said they would buy bread, 
crackers, cookies, cereals, or pasta made with flour modified 
to use less land, water, and/or pesticides.
    Next, we returned to labeling issues and tried to get at 
consumers' attitudes another way, by asking whether people 
favored the current FDA policy regarding foods produced using 
biotechnology. We told them the policy requires special 
labeling only when biotechnology's use substantially changes 
the food's nutritional content or when a potential safety issue 
such as a food allergen is identified. Otherwise, special 
labeling is not required. Sixty-three percent of respondents 
supported the current FDA policy, while 19 percent opposed it. 
In fact, every survey we have conducted since 1997 has found a 
strong majority of Americans support this FDA labeling policy.
    When we looked more generally at the most favored uses of 
food biotechnology, reducing pesticide applications topped the 
list, followed by keeping food prices stable and helping feed 
undernourished people around the world.
    Mr. Chairman, in closing, let me emphasize that in our 
nearly 2 decades of consumer research, we have learned that 
consumers are supportive of the many benefits of food and 
agricultural biotechnology when clearly articulated. The food 
label is not a playground for every bit of information someone 
might want to know. We rely on the FDA to ensure that the 
precious real estate available on a food label is reserved for 
important health, ingredient, and nutrition information, and it 
is clear that a strong majority of Americans have confidence in 
the FDA's labeling policy for foods produced using 
biotechnology. Thank you for this opportunity to share 
consumers' perspectives.
    [The prepared statement of Mr. Schmidt follows:]

 Prepared Statement of David B. Schmidt, President and Chief Executive
    Officer, International Food Information Council and Foundation,
                            Washington, D.C.
    Chairman Conaway, distinguished Members, my name is David Schmidt, 
and I'm President and CEO of the International Food Information 
Council, or IFIC.
    Our mission is to communicate science-based information on food 
safety and nutrition issues to health professionals, journalists, 
educators and government officials. We are fortunate to receive support 
for our programs from leading food, beverage and agricultural 
companies, but I must clarify that we don't represent those industries.
    Thank you for inviting me to speak today regarding U.S. consumer 
attitudes toward food biotechnology and related aspects, such as 
labeling.
    Last year, IFIC conducted the 2014 Consumer Perceptions of Food 
Technology Survey (http://www.foodinsight.org/2014-foodtechsurvey). It 
was our 16th such survey since 1997, and it has offered trended U.S. 
consumer insights on plant and animal biotechnology and labeling longer 
than any publicly available data.
Survey Methodology
    Let me begin with the methodology, which can be found in the slides 
that are included after my written remarks. The public can access the 
full text of the survey's questions and answers, along with many other 
educational resources, at foodinsight.org/biotech.
    The 2014 IFIC Food Technology Survey polled 1,000 adults who are 
reflective of the U.S. population, according to the U.S. Census Bureau, 
and had just a three percent margin of error.
    Our survey begins with open-ended questions, which are more 
reliable when it comes to taking the real pulse of consumers than 
surveys with a small number of carefully worded questions designed to 
provoke concerns.
    We believe this technique yields a more accurate view of what is 
most important to Americans. Throughout 18 years of conducting this 
research, we have not seen consumer perceptions about food 
biotechnology change dramatically. When it comes to food labels, the 
results show that biotechnology, or even ``GMOs,'' is not a top-of-mind 
concern for the vast majority of consumers.
    Following the open-ended questions, we get more specific about 
biotechnology and genetic engineering, but please note that we do not 
use the term ``GMO'' for two major reasons:

  (1)  The U.S. Food and Drug Administration (FDA) has provided 
            labeling guidance to industry, reaffirmed as recently as 
            April 2013, that the scientifically accurate terms are 
            ``bioengineered,'' ``genetically engineered,'' or ``foods 
            produced using biotechnology.'' Their analysis considers 
            the term ``genetically modified organism'' or ``GMO'' as 
            potentially misleading to consumers, because it is a 
            distinction without a difference. Humans have been 
            genetically modifying crops and animals for tens of 
            thousands of years, but through far less precise or 
            efficient methods than we enjoy today.

  (2)  Our own consumer research since the early 1990s has found 
            ``GMO'' to be off-putting at best or even frightening to 
            many consumers. And unfortunately in today's marketplace, 
            it is used as something to avoid and a pejorative, rather 
            than a way to inform consumers.

    And now to the survey itself, and I would note that this is the 
precise order in which the questions were posed.
Foods Avoided and Food Label Information
    We first asked if people were avoiding any particular foods or 
ingredients in their diet. Only 2 percent of total respondents 
mentioned biotech food--or even similar terms like the aforementioned 
``GMOs.''
    Then we asked them if they could think of any information that 
currently isn't on food labels but should be. Three-quarters said 
``no.'' Out of the total sample, just four percent said that labels 
should carry information about genetic engineering or related terms. 
This is a number that has barely budged over the history of our survey.
Food Safety
    Next was the topic of food safety. Two-thirds of Americans said 
they were confident in the safety of the food supply. This number has 
remained consistently high since 2008, which might come as a surprise 
to some, given the tone and tenor of the rhetoric that surrounds us. 
Only 13 percent said they're not confident, while 20 percent were 
neutral.
    When we asked people about their specific food safety concerns, 
``biotech'' or any related term was far down the list at seven percent. 
Remember, these questions are designed to reveal top-of-mind insights, 
not to guide people to a desired outcome. That number, while small, has 
indeed risen a few percentage points since 2008, which is undoubtedly a 
reflection of the heated communications environment.
    Conversely, the food safety threats that most concern consumers, 
both today and in past surveys, revolve around diseases and 
contamination, along with food handling and preparation--both of which 
were mentioned by 18 percent of respondents. That was followed by 12 
percent who cited preservatives and chemicals, and ten percent who 
mentioned agriculture production issues.
General Impressions of Food Biotechnology
    When we asked the respondents to offer their impressions of food 
biotechnology (before mentioning any benefits), there was an almost 
even split between 28 percent who were favorable to the technology and 
29 percent who were unfavorable. More than four in ten were either 
neutral or didn't know enough to offer a response.
Consumer Trust
    As with much of our other consumer research, the 2014 IFIC Food 
Technology Survey then asked about which sources of information on food 
biotechnology consumers trust most.
    Health organizations, cited by 50 percent of respondents ranked 
first, followed by Federal Government agencies and health 
professionals, at 45 percent each.
    Farmers rated highly for 39 percent of respondents, while 
scientists were among the most trusted sources of 33 percent.
    At the other end of the spectrum, journalists, bloggers, and 
celebrities were trusted by consumers only in the single digits.
Benefits of Food Biotechnology
    At this point, we focused on attitudes toward particular benefits 
of food biotechnology. When consumers became aware that some products 
on the market or in the pipeline offered nutrition and health-related 
benefits, they were overwhelmingly positive.
    Referring back to my point on language above, it is not surprising 
that consumers may shy away when provoked to be concerned about 
``genetically modified organisms in your food.'' But notice the 
difference in support when we use more informative language to explain 
some of the benefits of the technology:

  <bullet> 72 percent said they were likely to purchase products made 
        with oils modified by biotechnology to provide more healthful 
        fats.

  <bullet> 69 percent were likely to buy such products if they were 
        modified to reduce the potential for carcinogens--the same 
        number who would buy products if they were modified to be 
        protected from insect damage and to require fewer pesticide 
        applications.

  <bullet> 69 percent also said they would buy bread, crackers, 
        cookies, cereals, or pasta made with flour modified to use less 
        land, water, and/or pesticides.

    The list goes on, with positive perceptions of foods modified to 
provide enhanced nutritional benefits, eliminate trans fat content, 
improve vitamin content, or taste better or fresher.
Current FDA Labeling Policy
    Next, we returned to labeling issues and tried to get at consumers' 
attitudes another way, by asking whether people favored the current FDA 
policy regarding foods produced using biotechnology. We told them the 
policy requires special labeling ``only when biotechnology's use 
substantially changes the food's nutritional content, or when a 
potential safety issue such as a food allergen is identified. 
Otherwise, special labeling is not required.''
    Sixty-three percent of respondents supported the current FDA 
policy, while 19 percent opposed it. The number of those who are 
opposed to the policy has risen a few points in recent years, while 
support has remained mostly steady. In fact, every survey we have 
conducted since 1997 has found a strong majority of Americans support 
this FDA labeling policy.
Consumers' Favored Uses
    When we looked more generally at the most favored uses of food 
biotechnology, reducing pesticide applications topped the list, 
followed by keeping food prices stable, and helping feed undernourished 
people around the world.
    Close behind those favored uses were food crops that can survive in 
extreme climates, and the reduced use of nonrenewable resources in food 
production.
Conclusion
    Mr. Chairman, in closing, let me emphasize that in our nearly 2 
decades of consumer research, we've learned that consumers are 
supportive of the many benefits of food and agricultural biotechnology 
when clearly articulated.
    The food label is not a playground for every bit of information 
someone might want to know. We rely on the FDA to ensure that the 
precious real estate available on a food label is reserved for 
important health, ingredient, and nutrition information, and it is 
clear that a strong majority of Americans have confidence in the FDA's 
labeling policy for foods produced using biotechnology.
    The International Food Information Council would be pleased to 
offer you or your staff any additional resources in support of my 
testimony, as well as the work we do on food biotechnology and other 
issues. Thank you once again for this opportunity.
                                 Slides
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Mr. Schmidt. Dr. Federoff?

 STATEMENT OF NINA V. FEDOROFF, Ph.D., SENIOR SCIENCE ADVISOR, 
 OLSSON FRANK WEEDA TERMAN MATZ PC (OFW LAW), WASHINGTON, D.C.

    Dr. Fedoroff. Chairman Conway, Representative Peterson, 
Members of the Committee, thank you for the opportunity to 
testify before you today. I am Nina Federoff. I am a Professor 
of Plant Molecular Biology and Genetics. I have had 35 years of 
experience with GM techniques. I am a member of the U.S. 
National Academy of Sciences and a National Medal of Science 
Laureate. I served as Science and Technology Adviser to 
Secretaries of State Condoleeza Rice and Hillary Clinton. I 
authored a book titled Mendel in the Kitchen: A Scientist's 
View of Genetically Modified Foods.
    I am here to tell you why mandatory labeling of foods 
containing GM ingredients will not help Americans make 
healthful food choices. More than that, I will tell you why 
such labels could well undermine humanity's efforts to achieve 
food security.
    Now a recent poll, Pew poll, of scientists and the public 
gave startling results: Only 37 percent of the public believes 
GMOs are safe as compared with almost 90 percent of scientists.
    So why are scientists convinced? GM crops have been in 
commercial production for almost 20 years. They have an 
impeccable safety record and multiple environmental benefits. 
They have boosted farmers' incomes and reduced consumer prices. 
These are the facts, and they have been documented in 
independent studies referenced in my written testimony.
    Scientific academies around the world concur that modern 
methods of genetic modification are as safe as those used by 
previous generations of plant and animal breeders.
    Now, until the development of modern GM techniques, 
breeders had to depend on either rare natural or more recently 
induced mutations--that is just another term for genetic 
modifications--to develop better crops. Today we know enough 
about genes to introduce a desired trait into an already highly 
productive plant or animal without the undesirable downsides of 
older methods.
    Now it is worth pointing out as the Chairman did that the 
history of plant and animal genetic modification extends back 
more than 10,000 years. We created corn, not Mother Nature. We 
created big, luscious heirloom tomatoes. Mother Nature's are 
tiny and can be deadly.
    Now the FDA just approved Simplot's GM potato that won't 
turn brown after you cut it, and more importantly, it contains 
less of a natural amino acid that turns into the toxic compound 
acrylamide when the potatoes are French fried in hot oil. These 
potatoes will be more healthful and less wasteful. But today, 
more than 60 percent of Americans believe that GMOs are unsafe 
and probably wouldn't choose to buy them.
    Now why is that? The reasons lie in the increasingly 
strident efforts of determined anti-GMO activists to convince 
the public that GMOs are bad. Some of these folks are--most 
prominent among these are the NGOs, such as Greenpeace, and 
marketers of organic foods. A recent, meticulously researched 
organic marketing report documents how organic marketers have 
progressively demonized GMOs while advancing organically grown 
foods as more healthful than conventionally grown food.
    Now some of these folks and many other kinds of anti-GMO 
activists have openly stated that labeling will help them drive 
GMOs out of the market. Now, the facts are these: Organic 
produce is no more nutritious than conventionally grown 
produce. It is more expensive because organic farming is land-
inefficient and labor-intensive. The organic industry's false 
and misleading marketing is a primary reason why consumers 
believe GMOs are bad and organic food is good. Attaching a GM 
label provides no consumer benefit since GM foods are as safe 
and nutritious as their non-GM counterparts. But attaching a 
label will send the false message that there is something to 
worry about because the FDA's labels are there to alert 
consumers to food ingredients with health implications.
    Now my final point is that there are serious humanitarian 
implications should the current GMO vilification efforts 
succeed in driving GM technology out of agriculture. Global 
agricultural productivity increases are even now lagging behind 
population growth, and that is without figuring in the 
increasingly negative impacts of climate warming.
    Now the future lies in agricultural intensification. We 
will need to produce more crop per drop of water and square 
meter of land. Genetic modification of plants, in which the 
United States currently leads, will be the key to feeding the 
nine or ten billion people we expect for dinner in just a few 
decades. We cannot afford to discard the best methods we have 
ever invented to continue growing the food supply and doing it 
more sustainably.
    Thank you very much.
    [The prepared statement of Dr. Federoff follows:]

Prepared Statement of Nina V. Fedoroff, Ph.D., Senior Science Advisor, 
     Olsson Frank Weeda Terman Matz PC (OFW Law), Washington, D.C.
    Chairman Conway, Representative Peterson, Members of the Committee, 
thank you very much for the opportunity to testify before you today. My 
name in Nina Fedoroff and I am a professor of plant molecular biology 
and genetics. My laboratory pioneered in the adaptation of genetic 
modification of GM techniques to plants more than 35 years ago. I am a 
member of the U.S. National Academy of Sciences and a National Medal of 
Science laureate. I served as the Science and Technology Adviser to 
Secretaries of State Condoleeza Rice and Hillary Clinton. I co-authored 
a book titled Mendel in the Kitchen: A Scientist's View of Genetically 
Modified Foods.\1\
    I am here to tell you why mandatory labeling of foods containing GM 
ingredients is counterproductive to Americans' ability to make 
healthful food choices. More than that, I will tell you why such labels 
could well undermine humanity's efforts to achieve food security.
    A recent poll of scientists and the public on GMOs gave startling 
results: only 37% of the public believes GMOs are safe, compared with 
almost 90% of scientists.\2\
    So what's the evidence? GM crops have been in commercial production 
for almost 20 years.\3\ They have an impeccable safety record and 
multiple environmental benefits.\4\ Despite anecdotal reports, often 
never published or subsequently retracted, no allergies, illnesses or 
deaths have been reproducibly linked to the consumption of GM food or 
feed.\5\<SUP>,</SUP> \6\<SUP>, </SUP>\7\
    GM crops have boosted yields and farmers' 
incomes.\4\<SUP>, </SUP>\8\ The figure [below] illustrates these 
impacts graphically (from the cited Klumper and Qaim reference). 
Environmental impacts for the period 1996-2012 include the application 
of 503,000 tons less pesticide (active ingredient), greenhouse gas 
reductions of 16 million tons CO<INF>2</INF> and increased soil carbon 
sequestration from no till farming estimated at more than 200 million 
tons CO<INF>2</INF>.\4\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Consumers have benefited not only through continuing low food 
prices, but also directly from decreased mycotoxin contamination of 
corn.\9\ GM Bt corn contains a bacterial gene that encodes a protein 
that is toxic to certain boring insect pests, but not to animals or 
people. Such insects bore holes in developing corn plants, allowing 
fungi to enter and grow, as illustrated [below]. The fungi, in turn, 
produce mycotoxins, which are compounds that are toxic and can be 
carcinogens for people and farm animals. Bt corn is protected from 
insect attack, so no insect holes, no fungi, no mycotoxins.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Scientific academies and scientific societies around the world 
concur that modern methods of genetic modification are as safe as those 
used by previous generations of plant and animal breeders, arguably 
safer.\6\ Appendix I shows quotations from the GM statements of 
scientific organizations. Decades of research on GMO biosafety have 
simply failed to identify hazards unique to the use of GM technology 
for crop improvement. Quoting from a recent EU report on GMO research: 
\10\

          ``The main conclusion to be drawn from the efforts of more 
        than 130 research projects, covering a period of more than 25 
        years of research, and involving more than 500 independent 
        research groups, is that biotechnology, and in particular GMOs, 
        are not per se more risky than e.g., conventional plant 
        breeding technologies.''

    Until the development of modern GM techniques, breeders had to 
depend on either rare natural--or more recently--induced mutations 
(another name for genetic modifications)--to develop better crops. 
Today we know enough about genes to introduce a desired trait into an 
already highly productive plant or animal without the undesirable 
downsides of older methods.\11\
    It's worth pointing out that the history of plant and animal 
genetic modification extends back some 10,000 years. We created corn, 
not Mother Nature; \12\ we created big, luscious heirloom tomatoes--
Mother Nature's are tiny and can be deadly.\13\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The FDA just approved Simplot's Innate potato that won't turn brown 
after it's peeled and--more importantly--contains less asparagine, a 
natural amino acid that turns into the toxic compound acrylamide when 
the potatoes are French fried in hot oil. These genetically modified 
potatoes will be more healthful and less wasteful. But today, more than 
60% of Americans believe that GMOs are unsafe--and probably wouldn't 
choose to buy them.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Why? The reasons lie in the increasingly strident efforts of 
determined anti-GMO activists to convince the public that GMOs are bad. 
Most prominent among these are NGOs, such as Greenpeace, and the 
organic food industry. A recent, meticulously researched ``Organic 
Marketing Report'' documents how the organic food industry has 
progressively demonized GMOs, while advancing organically grown food as 
more healthful than conventionally grown food.\14\
    The facts are these. Organic produce is no more nutritious than 
conventionally grown produce.\15\ Quoting the conclusion of the cited 
2009 analysis of more than 50,000 publications spanning a 50 year 
period:

          ``On the basis of a systematic review of studies of 
        satisfactory quality, there is no evidence of a difference in 
        nutrient quality between organically and conventionally 
        produced food-stuffs. The small differences in nutrient content 
        detected are biologically plausible and mostly relate to 
        differences in production methods.''

    Organic produce is more expensive because organic farming is land-
inefficient and labor-intensive. Organic marketers--and many other 
kinds of anti-GMO activists--have openly stated that GMO labeling will 
help them drive GMOs out of the market. Appendix II shows 
representative quotations from both anti-GMO activists and organic food 
proponents. The anti-GMO activities of vocal NGOs, particularly 
Greenpeace, and the organic industry's false and misleading marketing 
are the primary reasons that consumers believe GMOs are bad and organic 
food is good.
    It is often claimed that consumers have a ``right to know'' what 
they are eating. However, adding a ``GM'' label to food containing an 
ingredient from a GMO will not help the consumer make meaningful 
distinctions about either the food's safety or its health benefits. The 
GM foods on the market today are as safe as and nutritionally 
equivalent to their non-GM counterparts. So the fact that they are GM 
is irrelevant information to the consumer. Research on consumer-
decision making reveals paradoxically that more information, 
particularly irrelevant information, actually decreases the accuracy of 
a consumer's choice, even though it increases the consumer's confidence 
in the choice.\16\<SUP>,</SUP> \17\
    Labeling would drive up the cost of food \18\ while sending the 
false message that there's something to worry about, because current 
FDA policy requires that labels contain information on food ingredients 
that have health (or environmental) implications (http://www.fda.gov/
Food/GuidanceRegulation/GuidanceDocuments
RegulatoryInformation/Biotechnology/ucm096095.htm).
    My final point is that there are serious humanitarian implications 
should the GMO vilification efforts succeed in driving GM technology 
out of agriculture. Global agricultural productivity increases are even 
now lagging behind population growth \19\--and that's without figuring 
in the growing impact of climate warming.\20\
    The future lies in ``agricultural intensification''.\21\ We will 
need to produce more crop per drop of water and square meter of land. 
The next big breakthrough will be in the efficiency of photosynthesis, 
the almost magical process by which crops turn thin air and water into 
food powered by sunlight.\22\ Genetic modification of plants, in which 
the U.S. currently leads, will be the key to feeding the nine or ten 
billion people we expect for dinner in coming decades. Neither 
Americans nor the rest of the world can afford to lose the best methods 
we've ever invented to keep growing the food supply sustainably.
Endnotes
    \1\ Nina V. Fedoroff and Nancy Marie Brown, Mendel in the Kitchen: 
A Scientist's View of Genetically Modified Food. (Joseph Henry Press, 
2004).
    \2\ Pew Research Center, Public and scientists' views on science 
and society, (http://www.pewinternet.org/2015/01/29/public-and-
scientists-views-on-science-and-society/), 2015.
    \3\ C. James, Global status of commercialized biotech/GM crops: 
2014, (http://www.isaaa.org/resources/publications/briefs/49/
executivesummary/default.asp), 2015.
    \4\ G. Brookes and P. Barfoot, GM crops: global socio-economic and 
environmental impacts 1996-2012, (www.pgeconomics.co.uk/pdf/
2014globalimpactstudyfinal
report.pdf), 2014.
    \5\ H.A. Kuiper, G.A. Kleter, H.P.J.M. Noteborn, and W.J. Kok, 
Assessment of the food safety issues related to genetically modified 
foods, The Plant J. 27 (6), 503-28 (2001).
    \6\ A.E. Richroch, Assessment of GE food safety using `-omics' 
techniques and long-term animal feeding studies, New Biotechnol. 30, 
351-54 (2013).
    \7\ A.L. Van Eenennaam and A.E. Young, Prevalence and impacts of 
genetically engineered feedstuffs on livestock populations, J. Animal. 
Sci. 92 (10), 4255-78 (2014).
    \8\ Wilhelm Klumper and Matin Qaim, A meta-analysis of the impacts 
of genetically modified crops, PloS one 9 (11), e111629 (2014).
    \9\ Erin Bowers, Richard Hellmich, and Gary Munkvold, Vip3Aa and 
Cry1Ab proteins in maize reduce Fusarium ear rot and fumonisins by 
deterring kernel injury from multiple Lepidopteran pests, World 
Mycotoxin Journal 6 (2), 127-35 (2013).
    \10\ European Commission, A decade of EU-funded GMO research, 2010.
    \11\ Peggy G. Lemaux, Genetically engineered plants and foods: a 
scientist's analysis of the issues (Part I), Annu. Rev. Plant Biol. 59 
(1), 771 (2008).
    \12\ Nina V. Fedoroff, Prehistoric GM corn, Science 302 (5648), 
1158-9 (2003).
    \13\ Veronique Bergougnoux, The history of tomato: From 
domestication to biopharming, Biotechnology Advances 32 (1), 170-89 
(2014).
    \14\ Joanna Schroeder, Organic Marketing Report, (http://
academicsreview.org/wpcontent/uploads/2014/04/Academics-Review_Organic-
Marketing-Report1.pdf), 2014.
    \15\ Alan D. Dangour, Sakhi K. Dodhia, Arabella Hayter, Elizabeth 
Allen, Karen Lock, and Ricardo Uauy, Nutritional quality of organic 
foods: a systematic review, American J. Clinical Nutrition 90 (3), 680-
5 (2009).
    \16\ Anthony Bastardi and Eldar Shafir, On the pursuit and misuse 
of useless information, Journal of Personality and Social Psychology 75 
(1), 19 (1998).
    \17\ Crystal C. Hall, Lynn Ariss, and Alexander Todorov, The 
illusion of knowledge: When more information reduces accuracy and 
increases confidence, Organizational Behavior and Human Decision 
Processes 103 (2), 277-90 (2007).
    \18\ A. Van Eenennaam, B.M. Chassy, N. Kalaitzandonakes, and T.P. 
Reddick, The potential impacts of mandatory labeling for genetically 
engineered food in the United States, CAST report (http://
www.castscience.org/file.cfm/media/products/digitalproducts/
CAST_Issue_Paper_54_web_optimized_29B2AB16AD687.pdf), 2014.
    \19\ Deepak K. Ray, Nathaniel D. Mueller, Paul C. West, and 
Jonathan A. Foley, Yield trends are insufficient to double global crop 
production by 2050, PloS one 8 (6), e66428 (2013).
    \20\ A.J. Challinor, J. Watson, D.B. Lobell, S.M. Howden, D.R. 
Smith, and N. Chhetri, A metaanalysis of crop yield under climate 
change and adaptation, Nature Climate Change 4 (4), 287-91 (2014).
    \21\ David Tilman, Christian Balzer, Jason Hill, and Belinda L. 
Befort, Global food demand and the sustainable intensification of 
agriculture, Proc. Natl. Acad. Sci. USA 108 (50), 20260-4 (2011).
    \22\ Veronica G. Maurino and Andreas P.M. Weber, Engineering 
photosynthesis in plants and synthetic microorganisms, Journal of 
Experimental Botany 64 (3), 743-51 (2013).
            Appendix I: Safety of GM Techniques and GM Foods
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          ``The scientific consensus around the safety of genetically 
        modified foods is as strong as the scientific consensus around 
        climate change. These foods are subjected to more testing than 
        any other and everything tells us that they're safe.''
          http://www.axismundionline.com/blog/the-new-is-gm-food-safe-
        meme/.
   Appendix II: Anti-GMO Activists and Proponents of Organic Food on 
                                Labeling
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Dr. Federoff. Ms. Lidback, thanks 
again for coming, and let me reiterate my earlier comments. It 
is reprehensible. We can have differences of opinion, but to 
attack people----
    Voice. Yes, our own facts.
    The Chairman. Yes, ma'am. And even whether or not based on 
facts, you can still--but to resort to name-calling and 
threatening and other less genteel kinds of ways is 
reprehensible. So thank you for saddling up for a second round. 
You are recognized for 5 minutes.

  STATEMENT OF JOANNA S. LIDBACK, OWNER, THE FARM AT WHEELER 
   MOUNTAIN, WESTMORE, VT; ON BEHALF OF AGRI-MARK; NATIONAL 
                COUNCIL OF FARMER COOPERATIVES;
               NATIONAL MILK PRODUCERS FEDERATION

    Ms. Lidback. Thank you. Chairman Conaway, Ranking Member 
Peterson, and other Members of the Committee. Thank you for 
inviting me here today. I am here on behalf of Agri-Mark Dairy 
Cooperative, the National Council of Farmer Co-ops, and the 
National Milk Producers Federation.
    My husband and I have a small 50 cow dairy located in 
northeast Vermont. We also make extra hay to sell. We raise 
Jersey steers to process and sell beef locally, and we market a 
small amount of composted manure. We have two young boys, ages 
3 and 2.
    My husband and I are both proud to be first-generation 
dairy farmers. We believe in the science and capability of 
biotechnology and its role in protecting the sustainability of 
our farm. Biotech crops are essential to treating our cows and 
calves. We feed both GMO corn and soy products year round along 
with pasturing, a grass-based silage, and hay.
    I believe that biotech varieties improve efficiency and 
productivity of farming. In my written testimony, I mentioned 
that I could not find a non-GMO option available to me, but I 
have since found it. The non-GMO feed would cost $589 per ton. 
The same conventional feed we currently feed is $333 per ton. 
On our small farm, we purchase about 16 tons of grain per 
month, and if you do the math, that is a difference of about 
$4,100 a month or $49,000 a year. If there are any dairy 
economists here, this is the equivalent of $1,000 per cow on 
our farm. I don't see how we could profitably farm with those 
increased feed costs.
    As a small farm just starting out, we are constantly 
exploring new opportunities to grow our business. One of the 
things we have been looking at recently is growing our own corn 
and alfalfa. In our short growing season, genetically 
engineered seeds offer the best options for us. Incidentally, 
over 97 percent of the corn grown for silage in Vermont is 
biotech crop.
    I personally believe that there is room for many different 
styles of farming. I also believe that biotechnology will play 
a major role in our ability to feed a growing world and to make 
improvements on our own individual farms. Certainly, as a dairy 
farmer, increasing feed costs would have a devastating impact 
on my business. But beyond our farm gate, we know that the 
impact would be just as brutal. In my area of rural northeast 
Vermont, 80 percent of the children in elementary school 
receive free reduced-price school lunches. It is their families 
who would suffer the most from price increased caused by 
mandatory biotech labeling.
    As a mother and a consumer, I do not to purchase organic or 
non-GMO food in the store since I would be paying more with no 
added nutritional, health, or environmental benefits. I firmly 
believe the food I feed my two growing boys is safe.
    You must be aware that recently my State of Vermont passed 
a mandatory GMO labeling law. In New England, it is very easy 
to cross borders for various reasons, such as grocery shopping. 
If the Vermont labeling law is activated, there will likely be 
one label on food in Vermont and another on the exact same food 
in New Hampshire, raising questions about whether or not the 
product is actually the same.
    Furthermore, the Vermont law exempts meat and dairy from 
being labeled. Other states may not exempt those products as 
they consider their own GMO labeling bills. Doing so will 
affect my ability to market my USDA certified Jersey beef 
across state lines. This serves no one's interests, not 
consumers, not farmers, not food producers.
    I am happy to speak up for our right to farm in whatever 
way we choose, which in our case, includes biotechnology and 
the use of GMOs. It is important to continue the conversation 
about the opportunities and challenges we face as modern-day 
farmers and parents. When I have one person or ten people reach 
out to me for a question or appreciating my practical 
perspective from the farm, then I have succeeded.
    Sometimes this isn't an easy task. As the Chairman 
mentioned, I testified at a Subcommittee hearing on this very 
topic last summer and received some very rude comments from 
total strangers on social media and phone calls from them in 
the middle of the night.
    It was not always the most pleasant experience, but being a 
dairy farmer, I am used to having to do unpleasant jobs from 
time to time. Even with those negative encounters, or maybe 
because of them, I was eager to come back and share my 
experiences today. I am proud of how far the American farmer 
has come, just as I am proud of how far we have come on our own 
farm. If my sons choose to continue in farming, I want to know 
that my husband and I have provided them with a firm foundation 
to build on.
    Thanks again for the opportunity to be here with you today.
    [The prepared statement of Ms. Lidback follows:]

  Prepared Statement of Joanna S. Lidback, Owner, The Farm at Wheeler 
  Mountain, Westmore, VT; on Behalf of Agri-Mark; National Council of 
        Farmer Cooperatives; National Milk Producers Federation
    Chairman Conaway, Ranking Member Peterson, and other Members of the 
Committee, thank you for inviting me here today to talk about the costs 
and impacts of mandatory biotech labeling laws. Today I am here on 
behalf of Agri-Mark Dairy Cooperative, the National Council of Farmer 
Cooperatives and the National Milk Producers Federation.
    My husband and I have a small 50 cow dairy located in northeast 
Vermont. We also grow extra hay to sell, raise Jersey steers to process 
and sell beef locally, and market a small amount of composted manure. 
We rent the farm started by my husband's grandfather, from his aunt and 
uncle, and it consists of over 200 acres of tillable land, including 
roughly 50 acres of pasture where we graze our herd in temperate 
months. We also raise all of our own young stock or replacement 
heifers. We have two young boys, ages 3 and 2.
    Along with being an active partner on the farm, I have a full-time 
job with a Farm Credit Association as a business consultant, serve as 
First Vice President of our county Farm Bureau and as a dairy cattle 
judge for various youth and 4-H dairy shows across New England. I did 
not grow up on a farm but got involved in agriculture through a 4-H 
dairy project as a young girl in 1989. Since then, I have not let go of 
my Jersey cows. I boarded my animals on neighboring farms and as fate 
would have it met a dairy farmer who I would eventually settle down 
with, bringing my Jerseys along. I have a bachelor's degree from 
Cornell University where I focused on agribusiness management and a 
master's in business administration from the F.W. Olin School of 
Business at Babson College.
    My husband and I are both proud to be first-generation dairy 
farmers. Starting out on our own in building our farm has required a 
lot of hard work and at times has been tremendously challenging. Being 
able to raise our young sons in a farming lifestyle, and living out our 
dreams of caring for his family's land and our animals while producing 
food for our neighbors and community, though, has been hugely 
rewarding.
    As we have started out, our overall focus is building a farm that 
is sustainable--one that is not just productive and profitable today 
but one that we can pass on to our sons 25 years down the road. They 
are a daily reminder of the importance of sustainability. That is why 
we have diversified and started our direct farm sales; and that also is 
why we fully embrace using technology to farm better and with less 
impact on our surroundings.
    Farming with a backdrop of rolling green pastures edged with woods 
and wedged between a mountain and a lake in a small New England town 
sometimes comes with preconceived notions. Often it seems people think 
that our farm is like something out of a Norman Rockwell painting. And 
indeed, passers-by have mistaken us for an organic dairy farm. Yet, we 
are a conventional operation and we believe that using tools such as 
biotech crops helps us to farm sustainably.
    Biotechnology crops are essential to feeding our cows and calves. 
When we can, we pasture feed our livestock. But as the past 2 months 
have shown, harsh New England weather can make this impossible in 
winter and early spring. So during those months, we feed cows and 
calves grass that we have processed into hay or grass silage. 
Additionally, throughout the year we rely on both corn and soy based 
feeds to complete a total mixed ration that makes the best use of our 
grass by balancing the needs of our cattle with the nutrients our 
forages provide and filling in what is missing.
    This gives us a unique perspective on the importance of 
biotechnology. I believe that biotech varieties improve efficiency and 
productivity of farming. I also believe that biotechnology enables us 
to lessen the environmental impact that growing can have because less 
fertilizer and pesticides are used to grow an abundant crop.
    The use of biotechnology on our farm is also important to the 
economic sustainability of our small business. In speaking with our 
dairy nutritionist, he pointed out that the only non-GMO feed he could 
get us right now was organic. There simply is no non-GMO grain 
available to us, or the freight cost would be so prohibitive it's not a 
real option. Thus, an organic basic 20 percent protein complete feed 
would cost $750 per ton; the same conventional feed is currently $333 
per ton. On our small farm, we purchase about 16 tons of grain per 
month. So, using 16 tons, that would more than double our grain bill, 
or in hard numbers we would spend $5,328 per month for regular feed or 
$12,000 per month on organic feed--a difference of $6,672 a month or 
$80,064 per year. I do not see how we could profitably farm in the long 
term with those increased feed costs. It is important to note that we 
choose to not be organic for several reasons and thus would not receive 
an organic premium for our milk even if we used the organic grain mix 
simply to feed a non-GMO feed.
    As a small farm just starting out, we are constantly exploring new 
opportunities to grow our business. One of the things we have been 
looking at recently is growing our own corn and alfalfa. Given our 
location, we will need shorter-day corn varieties, meaning it would 
grow in less time than average. Here again, we would want the choice of 
the best seed regardless of breeding technology; genetic engineering 
offers the best options. Economically it makes the best sense. 
Incidentally, over 97 percent of the corn grown for silage in Vermont 
is biotech crop.
    We face a challenge brought on by what many in agriculture see as 
the spread of misinformation about modern agricultural practices, 
creating the potential for limiting our ability to use biotechnology in 
order to best utilize the resources we have in sustainable ways. In 
many cases, this has already happened as we saw with the controversy 
over the use of recombinant Bovine Somatotropin (rBST), a technology 
that has no adverse effects on human health but was rejected by some 
consumers for no sound scientific reason. While many said that rBST was 
an example of the evils of ``big agriculture,'' the truth is that many 
small dairy farms used rBST as a way to improve and grow their 
businesses, better utilizing existing resources including land base and 
without needing more capital expenditures. Now, driven by the 
marketplace, our cooperative generally must restrict its members from 
using rBST. Thus, that option has effectively been taken away from us.
    Now the agriculture industry is facing increased scrutiny for its 
use of biotechnology--a technology that has enabled farmers to increase 
yields while reducing the use of land, pesticides, fertilizers, water, 
and even fuel. Despite the fact that there is no credible study of 
biotech crops that has found them unsafe for human and animal 
consumption, some special interest groups are still choosing to spread 
misinformation, reject the technology and demand it be labeled on food 
products.
    I welcome consumers who want to know more about how their food is 
produced--they have a right to know that the meals they serve at the 
family dining table every night is safe and nutritious. But a very 
small percentage of the population should not be able to impose their 
personal, non-science-based food preferences on the rest of us--
prompting food prices to increase and driving farms like mine out of 
business.
    Certainly, as a dairy farmer, increasing food and feed costs would 
have a devastating impact on my business. Beyond our farm gate, though, 
we know the impact would be just as brutal. Rural northeast Vermont, 
like many rural areas around the country, has a lot of good people who 
put in a hard day's work but are just barely getting by as best they 
can. This means that, for instance, 80 percent of the children in our 
elementary school receive free or reduced school lunches. It is their 
families who would suffer the most from price increases caused by 
mandatory biotech labeling--those who can least afford it.
    As a mother and a consumer, I choose not to purchase organic or 
non-GMO food at the store. I will support my local community, however, 
and may purchase organic or non-GMO food at a farmers' market or 
directly at a farm stand. I generally do not believe in paying the 
higher premium for these foods because they provide no added 
nutritional or health benefits. With a growing family and a growing 
farm business, we have a lot of other places to spend our hard-earned 
money. Furthermore, I feel secure in the regulatory steps that have 
been taken to the food produced and available for sale in the grocery 
store to ensure it is safe to feed my family.
    The fact is that American farmers offer consumers more food 
choices, while providing the safest food supply than any other time in 
our nation's history. Of course, living and working on a farm and being 
exposed to farm publications and reports, my view on how food is grown 
is different than that of a typical mom. There is information out there 
for those who are interested. It's just a matter of getting it from 
reliable sources. Some food companies are voluntarily labeling their 
products, some participate in the transparent USDA Certified Organic 
program and still some use third-party verification and a ``Non-GMO'' 
label.
    Moreover, I feel even better knowing that food produced with 
biotechnology or biotech ingredients has been done so with some sort of 
advantage in mind--whether it's environmental, health or otherwise. I 
certainly do not believe a mandatory biotech label is necessary; in 
fact there are more responsible ways to spend [my] taxpayer monies. Be 
that as it is, if consumers are to drive some sort of label requirement 
I believe it should be done in a cohesive way at the Federal level.
    You must be aware that recently my state, the State of Vermont, 
passed a mandatory GMO-labeling law. As you can guess, there has been a 
fair amount of chatter about it. I am frustrated with it. I believe 
that there are better uses of the state's time, and taxpayer resources, 
than imposing regulations on a technology that has been used and proven 
safe for over 2 decades. I am also concerned about the impact this law 
will have on the cost and availability of food in Vermont's grocery 
stores.
    I might also add that in New England, states are very close and it 
is very easy and often more convenient at times to cross borders for 
various reasons. Our farm, for example, is not too far from the border 
with New Hampshire; we can get there in an hour. If the Vermont 
labeling law is activated, there will likely be one label on food in 
Vermont, and another on the exact same products in New Hampshire and 
the rest of the country raising questions about whether or not the 
product is actually the same. This serves no one's interests--not 
consumers, not farmers, not food producers.
    Further, our close-knit surrounding states are considering their 
own GMO-labeling bills. Currently, the Vermont law exempts meat and 
dairy from being labeled. Others may not exempt those products. As I 
sell my Jersey beef, processed at a USDA certified facility, to people 
in other states, this may directly affect my product and my ability to 
market it.
    In all of this, I think that it is so important for there to be an 
ongoing conversation with consumers about this topic. Too many times, 
farmers feel like they just need to tell their stories better and to 
``educate''; while this is part of it, I think that we also need to do 
a better job of listening to consumers, to their questions and concerns 
and addressing them.
    I volunteer for an online effort called Ask the Farmers. It is a 
collaborative resource made up of farmers from all across the country 
and Canada; and from all different aspects of farming--animal ag, 
biotech crops, organic, conventional, small, large, etc., I'm very 
excited to help in an effort to put more good information out there--be 
it for genetic engineering, dairy farming, animal welfare, balancing 
life with work, farm or family. I am happy to continue to speak up for 
our right to farm in the best way we know possible; which in our case 
includes biotechnology.
    I will continue to pursue an active presence on Facebook, Twitter 
and Instagram as well as more traditional communication routes via 
newspapers, church meetings or everyday conversation, sharing articles 
and ideas along with my knowledge about the opportunities and 
challenges we face as modern-day farmers and parents. If I have one 
person or ten people reach out to me for a question or appreciating my 
hands-on and practical perspective from the farm, then I have 
succeeded. And I have.
    I may add that I testified at a Subcommittee hearing on this very 
topic last summer and received some rude comments from total strangers 
on social media. I tried to start a conversation with those folks who 
were interested in having one and ignored those who were more 
interested in making personal comments and being bullies. It was not 
always the most pleasant experience, but being a dairy farmer I'm used 
to having to do dirty jobs from time to time. But even with those 
negative encounters, or maybe because of them, I was eager to come back 
to share my experiences with all of the Members of the Committee.
    I personally believe that there is room for many different styles 
of responsible farming--the freedom to operate your business or 
organize your life as you see fit is one of the things that makes 
America great and our economy strong. I also believe that biotechnology 
plays a major role in our collective ability to not only feed a growing 
global population, but to also make individual improvements on our own 
farms be it 50 cows or 5,000 cows; a cash crop operation or an apple 
orchard; a multiple-generation farm or a beginning farmer. Even though 
less than two percent of the U.S. population now lives on farms or is 
actively involved in farming, agriculture comes in all different sizes 
and shapes and we need every one of them. Just as importantly, we give 
consumers options when they go to the grocery store.
    We know more now than we have ever have about growing food, or 
caring for animals, and this helps us to achieve a level of 
productivity that previous generations of farmers would envy. I am 
proud of how far the American farmer has come, just as I am proud of 
how far we have come on our own farm.
    Thank you again for the opportunity to be here today and to share 
my experience with biotechnology.
About Agri-Mark
    Agri-Mark, with more than a billion dollars in 2014 sales, markets 
more than 300 million gallons of farm fresh milk each year for about 
1,200 dairy farm families in New England and New York. The cooperative 
is headquartered in Methuen, Mass., has been marketing milk for dairy 
farmers since 1913, and actively represents their legislative interests 
in the Northeast and in Washington, D.C.
About the National Council of Farmer Cooperatives
    Since 1929, NCFC has been the voice of America's farmer 
cooperatives. NCFC values farmer ownership and control in the 
production and distribution chain; the economic viability of farmers 
and the businesses they own; and vibrant rural communities. We have an 
extremely diverse membership, which we view as one of our sources of 
strength--our members span the country, supply nearly every 
agricultural input imaginable, provide credit and related financial 
services (including export financing), and market a wide range of 
commodities and value-added products.
    American agriculture is a modern-day success story. America's 
farmers produce the world's safest, most abundant food supply for 
consumers at prices far lower than the world average. Farmer 
cooperatives are an important part of the success of American 
agriculture. Cooperatives differ from other businesses because they are 
member-owned and are operated for the shared benefit of their members.
    Farmer cooperatives enhance competition in the agricultural 
marketplace by acting as bargaining agents for their member' products; 
providing market intelligence and pricing information; providing 
competitively priced farming supplies; and vertically integrating their 
members' production and processing. There are over 3,000 farmer 
cooperatives across the U.S., and earnings from their activities (known 
as patronage) are returned to their farmer members, helping improve 
their members' income from the marketplace.
About the National Milk Producers Federation
    The National Milk Producers Federation (NMPF), based in Arlington, 
Va., develops and carries out policies that advance the well-being of 
U.S. dairy producers and the cooperatives they collectively own. The 
members of NMPF's cooperatives produce the majority of the U.S., milk 
supply, making NMPF the voice of nearly 32,000 dairy producers on 
Capitol Hill and with government agencies. For more on NMPF's 
activities, visit www.nmpf.org.

    The Chairman. Thank you. I appreciate that. Mr. Clarkson?

  STATEMENT OF LYNN CLARKSON, PRESIDENT AND FOUNDER, CLARKSON 
              GRAIN COMPANY, INC., CERRO GORDO, IL

    Mr. Clarkson. Chairman Conaway, Ranking Member Peterson, 
and other Members of the Committee, thank you for inviting me 
here today. I am the President of Clarkson Grain Company 
located in Cerro Gordo, Illinois. Clarkson Grain was founded in 
1974 by the Clarkson family, pioneering direct delivery 
marketing to link farmers directly to end-users. From that 
beginning, we have grown into a grain, oilseed, and ingredient 
supplier to manufacturing companies making food and animal feed 
with clients around the world. The company procures its raw 
materials, primarily corn and soybeans, from farmers in the 
United States and Canada. We operate our own commercial 
storage, cleaning, and handling facilities, a barge station, 
rail sidings. Our products include corn and soy flours, masa, 
lechitin, whole grains, organic, non-GMO and GMO.
    United States farmers excel in delivering the lowest cost 
agricultural products with a grade standard acceptable to 
clients. Since our inception, we have segregated corn and soy 
by variety and market distinction to realize greater value for 
producers and end-users. Buyers of these identity preserved 
grains are now asking for features that guarantee their access 
to particular markets such as GMO specific, non-GMO, and 
organic. Such buyers range from small family companies to the 
largest food manufacturers. Shipments range from a small bag to 
55,000 ton vessels.
    These market preferences are increasingly defining both our 
domestic and international markets. To secure corn and soy 
sought by these buyers, we contract with farmers before 
planting to get particular varieties raised in accord with 
buyers' wishes. We secure grower cooperation by paying 
premiums.
    Our goal is simple: a happy client. We are not in the 
business to win a scientific or political argument. We are in 
business to please clients seeking legitimate product 
distinctions. We don't tell clients what they should want. We 
ask them what they want and try to get it for them.
    As an identity preserved (IP) merchant, Clarkson Grain is 
not at all opposed to the development and commercialization of 
GMO crops. Producers and their supply chain partners however 
need to recognize that production and handling of any crop has 
to be conducted in such a way that preferred market access is 
recognized and honored. Neighboring farmers must have the 
ability to serve their preferred markets, whether GMO, non-GMO, 
or organic. Market access and choice are critical to this. 
Wherever you fall on the GMO spectrum, it is clear to me as an 
ingredient supplier that an increasingly significant percentage 
of consumers want additional transparency in labeling. These 
consumers, the GMO sensitive, have certainly proved themselves 
to be a significant and vocal voice for transparency in 
labeling.
    The cost of disregarding this voice is increased social 
conflict, expensive political battles, and uncertainty provided 
by prolonged court cases. For farmers who use GMOs, this 
process prolongs the difficulty for the biotech industry to 
bring traits responsibly into the market. Everyone would win if 
we could lower the temperature and manage the conflict over GMO 
technology.
    One critical way to lower the temperature is through a 
rational uniform national standard for the labeling of food 
that is not produced using GMO traits. Such an action is in the 
fundamental interests of both consumers and farmers. Consumers 
have a right to exercise their choice and avoid. Farmers have a 
right to take advantage of this new market. The creation of a 
standard could be accomplished through a mandatory labeling 
scheme, but it is my belief that a more appropriate approach is 
through a voluntary labeling program. I believe that such 
approach would be less contentious, less adversarial, and less 
expensive.
    I believe we are in a similar place to where we were with 
emerging organic market in the early 1990s. At that time 
differing state standards for organic products were emerging. 
The result was consumer confusion. Independent companies jumped 
in. More confusion. Each one was saying their standard was 
better than the next. So it was a negative for the entire 
sector.
    Once the organic sector settled on a uniform national 
definition responsibly overseen by the USDA, consumer 
confidence returned and served as the fundamental rationale for 
explosive growth.
    It is my belief the non-GMO market would also grow if it 
had a uniform national standard overseen by the USDA. The USDA 
has a world-class reputation of managing process-verified 
programs. It seems to me to be straightforward. Let Congress 
establish a uniform standard, let USDA oversee it, step back, 
and let the marketplace work as it does.
    To sum up, I want to offer one more rationale for 
establishing a uniform standard. Labeling drives other 
activities along the supply chain such as seed production. Many 
producers struggle with a lack of appropriate non-GMO seed. For 
all these pieces to work together within a reasonable time 
frame, farmers must have access to an adequate supply.
    So in closing I ask for several things. First, Congress to 
support a farmer's freedom to produce for his preferred markets 
without being dominated by his neighbor's market decisions. I 
ask Congress to support through adequate funding, research in 
non-GMO corn and soy varieties. I ask Congress to support a 
farmers' choice of hybrids or quality attributes, GMO presence 
or absence, or organic or non-organic. I ask Congress to help 
those of us in the countryside to always balance and respect a 
producer's production decisions as they provide a safe and 
abundant food supply for the world's needs.
    Thank you. I would be happy to answer any questions later
    [The prepared statement of Mr. Clarkson follows:]

 Prepared Statement of Lynn Clarkson, President and Founder, Clarkson 
                  Grain Company, Inc., Cerro Gordo, IL
    Chairman Conaway, Ranking Member Peterson, and other Members of the 
Committee, thank you for inviting me here today to talk about the costs 
and impacts of mandatory biotech labeling laws. My name is Lynn 
Clarkson. I am the President of Clarkson Grain Company, Inc., located 
in Cerro Gordo, Illinois, a small rural community about 3 hours south 
of Chicago.
    Clarkson Grain was founded in 1974 by the Clarkson family, which 
pioneered ``Direct Delivery Marketing'' to link farmers directly to 
end-users. From that modest beginning, we have grown and evolved into a 
grain, oilseed, and ingredient supplier to the food manufacturing and 
animal-feed industries serving clients around the world. The company 
procures its raw materials--particularly corn and soy from farmers in 
the United States and Canada.
    We operate our own commercial storage, cleaning and handling 
facilities as well as organic soy processing facilities, a barge 
station and rail sidings. Our products include corn and soy flours, 
masa, meal, refined soy oil, lechitin, whole grains, and organic and 
non-GMO grains and oilseeds.
    United States farmers and its supply chain partners like us excel 
in delivering the lowest cost agricultural products within a grade 
standard acceptable to clients around the world. Since our inception, 
we have segregated corn and soy by variety and market distinction to 
realize greater value for our producers and end-users. Buyers of these 
Identity Preserved (IP) grains are now asking for features that 
guarantee their access to particular markets such as GMO specific, non-
GMO and organic.
    Such buyers range from small family companies to the largest food 
manufacturers, starch and oil processors and feeders. Shipments range 
from small bags to 55,000 ton ocean vessels.
    These market preferences are increasingly defining both our 
domestic and international markets. To secure corn and soy sought by 
these buyers, we contract with farmers before planting to secure 
particular varieties raised in accord with buyers' wishes. We secure 
grower cooperation by paying premiums that justify continuing 
participation in IP programs year after year.
    Our goal is simple; a happy client. We are not in business to win 
scientific or political arguments. We are in business to please clients 
seeking legitimate product distinctions. We don't tell clients what 
they should want. We ask them what they want and help them find it.
    In the early days of our business, our major challenge was to keep 
corn and soy types segregated by variety. Buyer, seller, and grower 
could visibly see the distinctions. That changed with the commercial 
introduction of GMO traits. Within a few years, GMO sensitive markets 
brought new distinctions into play. For example, in those early days, 
Japanese buyers for the soyfood industry worked with the Association of 
Official Seed Certifying Agencies to develop testing and segregation 
protocols.
    As an IP merchant, Clarkson Grain is not at all opposed to the 
development and commercialization of GMO crops. Producers and their 
supply chain partners however must recognize that production and 
handling of any of any crop has to be conducted in a way so that 
preferred market access is recognized and honored. Neighboring farmers 
must have the ability to serve their preferred markets--whether GMO, 
non-GMO or organic. Market access and choice must be preserved. I 
believe that this respect and recognition can occur.
    Wherever you fall on the pro- or anti-GMO spectrum, it is clear to 
me as an ingredient supplier that an increasingly significant 
percentage of consumers want additional transparency in labeling so 
that they may purchase the food types they and their families desire. 
These consumers what one might call, GMO sensitive, have certainly 
proved themselves to be a significant and vocal voice for increased 
transparency in food labeling.
    The cost of disregarding this voice is increased social conflict, 
expensive political battles, and uncertainty provided by prolonged 
court cases. For my farmers in Illinois who use GMO's this process 
simply prolongs the difficulty for the biotech industry to bring traits 
responsibly into the market. Those concerned about GMOs however deserve 
to be respected even while the biotech industry continues its efforts 
to market its traits at the consumer level. Everyone would win if we 
could lower the temperature and manage the conflict over GMO 
technology.
    I am convinced that one critical way to lower the temperature is 
through a rational uniform national standard for the labeling of food 
that is not produced using GMO traits. Such an action is in the 
fundamental interests of both consumers and farmers. Consumers have a 
right to exercise their choice to avoid GMOs. Farmers have a right to 
take advantage of this new market. The creation of a standard could be 
accomplished through a mandatory labeling scheme but it is my belief 
that a more appropriate approach is through a voluntary labeling 
program. I believe that such an approach would be less contentious, 
less adversarial and less expensive.
    Here's why I have reached my conclusion. I believe we are at a 
similar place in the labeling of non-GMO products to that of the 
emerging organic market in the early 1990's
    At that time differing state standards for organic products were 
beginning to emerge. The result was consumer confusion. With no uniform 
national organic standard, states were free to tout their differences. 
The private-sector also got into the act. There were numerous private 
certifiers each claiming to be better than the other. Consumers didn't 
understand these differences but more importantly they became put off 
by the sniping in the marketplace. As a result, the entire sector 
suffered.
    Once the organic sector settled on a uniform national definition, 
responsibly overseen by the U.S. Department of Agriculture, consumer 
confidence returned and served as the fundamental rationale for the 
explosive growth we currently see within the sector. U.S. sales of 
organic products in 2013 were $35.1 billion. This remarkable growth 
rests on one thing; a uniform national standard, responsibly, overseen 
by a Federal agency.
    It is my belief the non-GMO market would also grow if there were a 
uniform national standard, overseen, by USDA. USDA has world class 
expertise in managing process verified programs. It seems to me to be 
straightforward. Let Congress establish a uniform standard, let USDA 
oversee it, step back and let the marketplace work.
    As I begin to sum up, I want to offer one more rationale for 
establishing a uniform standard or definition of a non-GMO label. 
Labeling drives other activities along the supply chain such as seed 
production. Many producers struggle with a lack of appropriate non-GMO 
corn and soy varieties to meet specific market needs.
    I am convinced a national non-GMO labeling program would send a 
clear single to input suppliers such as seed breeders that the non-GMO 
marketplace is here to stay. I do not believe that would be the case is 
we had a proliferation of state labeling programs. I believe non-GMO is 
a legitimate and growing market and that consumers deserve to know what 
that is in their food so can make their choices with their hard-earned 
dollars.
    For that to occur within a reasonable time frame, farmers must have 
access to an adequate supply of high yielding non-GMO corn and soy 
varieties.
    In closing I offer the following thoughts as you consider an 
appropriate role for Congress to take in this emerging marketplace:

  1.  I ask Congress to support a farmer's freedom to produce for his 
            preferred markets without being dominated by his neighbor's 
            production choices. As you can see this sword cuts both 
            ways.

  2.  I ask Congress to support through adequate funding, research in 
            non-GMO corn and soy varieties so that farmers might 
            rapidly access this new market.

  3.  I ask Congress to support a farmers' choice of hybrids or quality 
            attributes, GMO presence or absence, or organic or non-
            organic production methods.

  4.  And I ask Congress to help us in the countryside to always 
            balance and respect a producer's production decisions as 
            they provide a safe and abundant food supply for the 
            world's needs.

    Thank you for this opportunity. I am happy to answer any questions 
you might have.

    The Chairman. Thank you, Mr. Clarkson. Mr. Dempsey?

   STATEMENT OF THOMAS W. DEMPSEY, Jr., PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, SNACK FOOD ASSOCIATION, ARLINGTON, VA

    Mr. Dempsey. I want to thank the Committee, Chairman 
Conaway, and Ranking Member Peterson for holding this hearing 
to provide a balanced review of one of the most critical issues 
facing the food industry today, the labeling of genetically 
modified organisms, or GMOs.
    My name is Tom Dempsey. I have served as the President and 
Chief Executive Officer of the Snack Food Association since 
2013. Prior to joining SFA, I was the President of one of the 
largest privately owned snack brands in the United States. We 
represent over 400 companies in the snack industry. My members 
include both billion-dollar multi-category companies and small 
family-owned businesses in the second and third generation of 
management. More than \1/2\ of SFA members have sales of less 
than $100 million a year, and many are the primary employers in 
their communities.
    Mandatory GMO labeling would impact nearly every aspect of 
my members' businesses, upping costs by requiring increased 
product inventory, added complexity for packaging and 
distribution processes, and extensive new regulatory and 
training requirements. Absent a Federal solution, manufacturers 
will have essentially three options to comply with a state GMO 
labeling law: redesign their packaging, reformulate products so 
that no labeling is required, or halt sales to that state. Each 
option is difficult, costly, time-intensive, and at worst, 
could eliminate jobs and consumer choice in the marketplace. 
Smaller companies may not have these options at all.
    A patchwork of mandatory GMO labeling laws would pose 
significant burdens on the manufacturing process itself. They 
would require separate storage for GMO and non-GMO products 
throughout the entire supply chain beginning with the farmer 
and extending through the various stages of production and 
distribution. Aside from new administrative and recordkeeping 
burdens, snack makers would be forced to clean and boil the 
sheeting, baking, frying, and seasoning lines between GMO and 
non-GMO production runs with extensive time costly delays.
    Duplicative film labeling for the same stock keeping unit 
or SKU assigned to each product line is also a problem. Film, 
the industry's term for snack bag packaging, would need to be 
changed mid-production and two separate inventories of the same 
finished product must be kept. If one, ten, or 25 states enact 
different GMO labeling laws, this process would become even 
more burdensome and difficult to comply with, particularly from 
an interstate commerce perspective.
    Significant lead times and costs would also go into bag 
changes. The cost in plate charges, new film, and 
administrative oversight could be more than $750,000 for 800 
SKUs, and the process could take 20 to 26 weeks.
    GMO and non-GMO producers must continue to be segregated by 
state, from the factory to the grocery store, resulting in 
increased distribution costs and heightened opportunity for 
mistakes.
    To be clear, the hardest hit by this will be one-plant 
operators with a single line of production. These costs could 
put family-owned businesses out of business and increase 
consolidation in the industry.
    While it is sometimes assumed that companies could remove 
GMO ingredients from their products, this is unrealistic 
because the availability of non-GMO crops, as you have heard, 
is limited. Over 80 percent of the corn, cotton, and soybean 
crops in the United States are produced with biotechnology, all 
of these products, which are staple items in the snack food 
production.
    Our members will not have the opportunity to increase their 
contracts with farmers or mills for non-GMO corn, for instance, 
for over 2 years. Transitioning to GMO-free production will not 
happen overnight from genetically engineered plants.
    Some manufacturers may choose to end distribution in states 
that require GMO labeling resulting in fewer product options 
for consumers and causing a ripple effect in the grocery 
industry. Even if manufacturers notify grocers of their intent 
to stop selling in a state, manufacturers could run the risk of 
being fined if retailers do not comply or if mistakes happen in 
the distribution process.
    Fewer players in the aisle could mean less incentive to 
keep quality high and prices low. Fewer products could 
disproportionately cause job losses for some in the 
distribution chain.
    Ultimately, a patchwork of state GMO laws will hit 
consumers the hardest in result in either increased cost at the 
grocery store or less availability of products on store 
shelves. Current Federal law mandates food labels for safety 
and nutritional purposes, and because GMOs as you have heard 
have proven to have no material difference than non-GMOs, there 
is no food safety or nutritional difference that requires an 
additional label. Going down a path which calls for mandatory 
GMO labels sets a bad precedent for future calls for mandatory 
labels for issues that are not related to food safety or 
nutrition.
    Consumers already have the option to purchase non-GMO 
foods, and these options continue to expand. For over a decade, 
both the USDA's National Organic Program and the independent 
Non-GMO Project have certified that foods are organic and GMO-
free respectively.
    Many SFA members have already made the significant 
investment in marketing decisions to display these voluntary 
labels. Forcing companies to re-label more than 80 percent of 
their products does nothing but add cost, confusion, and may 
limit the choices.
    SFA does not have a single member company that 
manufactures, distributes, and sells in just one state which 
makes a state labeling law incredibly complex. Multiply these 
challenges by five, ten, or 25 states and an insurmountable 
burden is placed on the supply chain. SFA supports a voluntary 
labeling standard which eliminates the proposed patchwork of 
state laws and allows the market forces that are already in 
place to continue to inform the consumer. As more and more 
states continue to pursue different mandatory GMO labeling 
laws, manufacturers and consumers alike need the consistency of 
a Federal standard, and we need it urgently.
    Thank you for your time and consideration.
    [The prepared statement of Mr. Dempsey follows:]

   Prepared Statement of Thomas W. Dempsey, Jr., President and Chief 
        Executive Officer, Snack Food Association, Arlington, VA
Introduction
    First, I would like to thank the House Agriculture Committee, 
Chairman Conaway, and Ranking Member Peterson for holding this hearing 
to review of one of the most critical issues facing the food industry 
today, the labeling of genetically modified organisms, better known as 
GMOs. I appreciate the opportunity to be here.
    My name is Tom Dempsey. I have served as the President and Chief 
Executive Officer of the Snack Food Association (SFA) since 2013. Prior 
to joining SFA, I was the President of one of the largest privately 
owned snack brands in the United States (U.S.) where I spent 24 years 
in total, 5 of which I served as the President overseeing all areas of 
sales, marketing, finance, human resources, manufacturing, 
distribution, research and development, and purchasing. Today at SFA, I 
represent more than 400 companies who produce a wide variety of snacks 
ranging from potato, tortilla, and pita chips to pork rinds and meat 
snacks, to crackers, popcorn, granola bars, and trail mix, as well as 
dried fruit and nut mixtures. SFA members range from billion-dollar 
multi-category companies to small family owned and operated businesses, 
some of which are in the second and third generation of management. 
More than half of SFA members do less than $100M/year in sales and many 
are the primary employer in their community.
GMO Labeling Debate
    Over the last several years there have been a number of state 
ballot initiatives calling for mandatory GMO labeling. While voters 
have rejected ballot initiatives calling for mandatory GMO labeling in 
four states: California, Washington, Colorado, and Oregon, the Vermont 
State Legislature approved the nation's first mandatory GMO labeling 
law, Act 120, in April 2014. Two other states, Connecticut and Maine 
have mandatory GMO labeling laws on the books, but don't become 
effective until certain population or surrounding state triggers are 
met. In addition, since January 2015, 28 states and Puerto Rico have 
introduced over 70 different pieces of legislation calling for some 
type of mandatory GMO labeling of foods.
    Mandatory GMO labeling at the state level would impact nearly every 
aspect of SFA members' business, upping costs by requiring increased 
product inventory, added complexity for packaging and distribution 
processes, and extensive new regulatory and training requirements.
    Absent a Federal GMO solution, manufacturers will have essentially 
three options in order to comply with a state labeling law such as 
Vermont's Act 120: order new packaging for products, reformulate 
products so that no labeling is required, or halt sales to that state. 
Each option is difficult, costly, time-intensive, and at worst, could 
eliminate jobs and consumer choice in the marketplace which I will 
further discuss. I will also outline why some food manufacturers, most 
likely small and midsize family businesses, do not have all of these 
options available and could be impacted the most.
Production Processes
    One of the biggest barriers that prevents a company from complying 
with state by state GMO labeling laws is the manufacturing process 
itself.
    First, it would require separate storage for GMO and non-GMO 
products throughout the entire supply chain. Farmers will need to 
separate their crops in planting and when transporting to grain 
elevators or manufacturers. Once a grain elevator or manufacturer 
receives the raw materials from farmers they too will need to store and 
produce GMO and non-GMO materials separately. Aside from new 
administrative and recordkeeping burdens, manufactures will need to add 
separate storage areas to their facilities in order to segregate these 
products. Tortilla processing provides an excellent example. The story 
begins with the corn. There are two ways to begin the process: one, by 
cooking the corn into a mash and the other by purchasing corn masa 
(flour), adding water to it, and then sheeting it for cutting into the 
triangle shapes we all know as tortilla chips. A mandatory labeling 
scheme would require two different silos to hold GMO and non-GMO bulk 
corn and masa (flour).
    Given the expense of manufacturing machinery, snack makers may be 
forced to use the same equipment and conduct thorough cleaning of the 
sheeting, baking, frying, and seasoning lines between GMO and non-GMO 
production runs to ensure no contamination occurs. Such a process could 
take nearly 2 hours and would lead to a loss in valuable production 
time. It is not likely a manufacturer would have the financial means or 
the floor space to invest in separate equipment for GMO and non-GMO 
production.
    Another complicating factor is the need for duplicative labeling 
film for the same stock keeping unit or SKU assigned to each product 
line. In order to comply with a state labeling law, our members will 
need to change film in mid-production and then keep two separate 
inventories of the same finished product: one with GMO identification 
specifically for sale in a state that enacts mandatory GMO labeling, 
and the other for the rest of the distribution area. Companies would 
not be able to use a single state-required label for all of its 
products if a patchwork of varying state rules were enacted. Separating 
finished products for not only one, but five, ten, or even twenty 
states with various labeling requirements would be incredibly 
challenging and nearly impossible for a manufacturer to carry out. Such 
a labeling scheme impedes on interstate commerce.
    Significant lead times and costs also go into a bag design change. 
One SFA member estimated they would need to change over 800 SKUs to 
continue to sell in Vermont alone. The cost in plate charges, new film, 
and administrative oversight in this instance could be more than 
$750,000. The actual cost of the run after converting the film would be 
approximately 25 percent higher due to the shorter production runs of 
non-GMO product that would be required to fulfill orders in Vermont, 
for example. The actual process of designing, compliance review, plate 
making, and lead-time for film would be 20-26 weeks. This would become 
even more complicated if additional states pass their own onerous 
regulations with different specific requirements.
    After production, the distribution of most snack foods comes off, 
in most cases, a route truck with direct service to the grocery store. 
A state law such as Vermont's Act 120 will mandate a dual inventory for 
each SKU for every step along the distribution channel. The end result 
will be increased distribution costs and heightened opportunity for 
mistakes.
    To be clear, the hardest hit by this will be the small, family-
owned companies with just one plant or just a single line of 
production. Quite frankly, these costs could put some companies out of 
business and thereby increase consolidation in the industry by reducing 
the players to a few multi-category, multi-national players that can 
better take on the added cost of sourcing and segregating GMO and non-
GMO crops. All of these changes will add final product costs to the 
consumer. The precise amount of added cost depends on each company's 
cost structure.
Sourcing Challenges
    In order to avoid the need for duplicate labels in a state like 
Vermont, it is sometimes assumed that companies could simply remove the 
GMO ingredients from their products altogether. This is unrealistic 
because the availability of non-GMO crops is very limited. My 
understanding is that over 80 percent of the corn, cotton, and soybean 
crops in the U.S. are harvested from genetically engineered plants.\1\ 
Snack food companies purchase a large majority of their ingredients 
derived from these plants.
---------------------------------------------------------------------------
    \1\ United States Department of Agriculture Economic Research 
Service. ``Recent Trends in GE Adoption''. July 14, 2014. Retrieved 
from: http://www.ers.usda.gov/data-products/adoption-of-genetically-
engineered-crops-in-the-us/recent-trends-in-ge-adoption.aspx.
---------------------------------------------------------------------------
    For instance, the process for producing potato chips begins with 
developing a large network of growers for potatoes, contracting 
quantities in advance of plantings and harvests, and purchasing cooking 
oils such as cottonseed or soybean in advance to secure quantities and 
pricing. The same goes for other crops. One tortilla chip manufacturer 
told me that they would not have the opportunity to increase their 
contracts for non-GMO corn for a minimum of 2 years. Transitioning to 
GMO-free production could not happen overnight, or even by 2016, as is 
specified in Vermont's Act 120, for example.
Impact on Consumers and the Economy
    On the other hand, manufacturers could also choose to end the 
distribution of their lines specifically in states that require 
mandatory GMO labeling. However, ceasing distribution isn't simple. 
Aside from limiting product options to consumers, there would be a 
ripple effect in the grocery industry. Retailers would need to be 
notified of the decision to stop selling in a state and manufacturers 
could run the risk of being fined if retailers do not comply.
    Fewer players in the aisle could mean less incentive to keep 
quality high and prices low. Decreased promotion and distribution means 
fewer route sales people needed to deliver the product and job losses 
for some in the distribution chain, such as drivers, warehouse 
personnel, account executives, and field management. Fewer jobs could 
also lead to a decrease in tax revenue in a particular state.
    Ultimately, a patchwork of state and local GMO labeling laws will 
hit consumers the hardest resulting in either increased costs at the 
grocery store or less availability of products on store shelves.
    A recent study performed by economists at Cornell University 
concluded that mandatory GMO labeling laws would increase the cost of 
food by about $500 per family per year on average with some families 
bearing an increased cost of up to $1,500 per year.\2\ These amounts 
don't include the regulatory costs the government will incur to 
actually implement the law that would likely be passed onto consumers 
in the form of taxes.
---------------------------------------------------------------------------
    \2\ Dyson School of Applied Economics and Management, Cornell 
University. ``Costs of Labeling Genetically Modified Food Products in 
N.Y. State''. May 2014. Retrieved from: http://dyson.cornell.edu/
people/profiles/docs/LabelingNY.pdf.
---------------------------------------------------------------------------
Role of Labels
    Current Federal law mandates food labels for safety and nutritional 
purposes. And because GMO's have proven to have no material difference 
than non-GMOs, there is no food safety or nutritional difference that 
requires an additional label. Going down a path in which calls for 
mandatory GMO labels sets a bad precedent for future calls for 
mandatory labels for issues that are not related to food safety or 
nutrition.
GMO-Free Options Already Exist
    While we firmly believe the science shows that our GMO products are 
safe, SFA members support providing consumers with options in the 
marketplace. It is important to note that consumers can already choose 
to purchase non-GMO items and these options continue to expand. For 
over a decade both the United States Department of Agriculture's (USDA) 
National Organic Program and a nonprofit organization, the Non-GMO 
Project have certified foods which are organic and non-GMO, 
respectively. A company cannot display a USDA Organic Seal or a Non-GMO 
Project Verified Seal without going through an intensive and costly 
certification process. The Non-GMO Project alone has certified over 
20,000 non-GMO products and this number continues to grow.
    Many SFA members have already made the large investment required to 
gain these voluntary certifications that give our customers the freedom 
to choose between products that are produced, distributed, and marketed 
as Organic and non-GMO and labeled as such. Forcing companies to re-
label more than 80 percent of their current products does nothing but 
add cost, confusion, and, ultimately, may limit the choices available 
to consumers.
Conclusion
    SFA is concerned both about the burden state-level GMO labeling 
would put on interstate commerce, as well as the increased costs that 
could drive food companies out of business or increase food prices for 
consumers while potentially limiting their options in the marketplace.
    SFA does not have a single member company that manufactures, 
distributes, and sells in just one state making a state labeling law 
incredibly complex to deal with. Multiply the challenges I've presented 
here for compliance in Vermont's Act 120 times five, or ten, or even 25 
states and you place an insurmountable burden on our food supply chain 
and add significant increased cost to our consumers.
    For this reason, SFA supports Federal legislation which eliminates 
the current proposed patchwork of state GMO labeling laws by creating 
one voluntary GMO standard which eliminates confusion, advances food 
safety, and provides much-needed consistency for manufacturers and our 
consumers.
    Again, thank you for your time and consideration of our views. I 
look forward to answering your questions.

    The Chairman. Thank you, Mr. Dempsey. Mr. Policinski? 
Chris, go ahead, 5 minutes. I am sorry about that.

 STATEMENT OF CHRIS POLICINSKI, PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, LAND O' LAKES, INC., ARDEN HILLS, MN

    Mr. Policinski. Thank you. Thank you, Chairman Conaway, 
Ranking Member Peterson, and Members of the Committee. Thank 
you for holding today's hearing on the costs and impacts of 
mandatory biotechnology labeling laws.
    I appreciate the opportunity to testify on this important 
issue. I am Chris Policinski, President and CEO of Land O' 
Lakes. I also serve as Chairman of the National Council of 
Farmer Cooperatives and am a Board Member of the Grocery 
Manufacturers Association.
    Land O' Lakes, based in Arden Hills Minnesota, is a farmer-
owned cooperative, meaning it is owned, governed, and 
controlled by farmers and local agricultural cooperatives. Land 
O' Lakes touches more than 300,000 farmers across the country 
making us well-positioned to understand the benefits of 
biotechnology and the impact of measures designed to mandate 
the labeling of GMO products.
    Biotech crops have been around for 2 decades and provide 
extraordinary benefits to farmers and consumers: higher crop 
yields per acre, less tilling of the land, decreased use of 
natural resources such as water and land, reduced use of 
insecticide, better soil quality, and lower consumer prices are 
just some of the benefits GM crops provide.
    Despite these benefits and the proven safety of GMOs, some 
are pushing for states to pass laws that would mandate the 
labeling of GMO foods. We are told this is about consumer 
choice. The consumers already have these choices and many 
others. Some choose to pay a premium for food that is produced 
by certain methods, such as organic or does not contain certain 
ingredients, such as those that are gluten-free. Others 
prioritize affordability, accessibility, convenience, or taste. 
Voluntary labeling currently presents all of these choices in 
the marketplace, and that is the model that should exist for 
GMO labeling as well.
    Mandating GMO labeling runs contrary to the essential 
purpose of government-mandated labeling, which is to provide 
consumers with accurate and relevant information regarding the 
safety of the foods they eat. Every major health and regulatory 
organization has found that GMOs are as safe as any other food 
and as such do not require any special labeling.
    Mandated GMO labeling is an effort to stigmatize a form of 
technology in an attempt to drive it out of the marketplace. 
You don't have to take my word for it. Two months ago an 
activist association published an article admitting that the 
push to enact state-wide GMO labeling is part of a larger 
effort to drive GMOs off the market. In addition to 
stigmatizing biotechnology, a state-by-state patchwork of 
mandated food labeling laws would be a logistical nightmare 
creating dozens of different standards, different definitions, 
and different exemptions.
    Fortunately, Congress has the authority and the 
responsibility to protect the free flow of goods across state 
lines. Uniformity in our nation's food labeling ensures 
consumers have consistent, accurate information on dairy, 
poultry, meat, and other foods. Under Federal preemption, 
Congress can create a voluntary uniform national solution to 
the labeling of food products derived from ingredients using 
biotechnology. The value of this approach is that it not only 
respects a consumer's right to choose but it also respects a 
farmer's right to choose to use a safe, proven technology.
    Stigmatizing GMO foods through a patchwork of state 
labeling mandates or even mandatory Federal labeling 
jeopardizes innovation and threatens the future of development 
and use of technology in agriculture. As a result, farmers will 
have fewer choices of what to plant. We will see higher costs 
due to crop segregation, lower yields, a decline in 
productivity, and an increased environmental footprint. That is 
dangerous for everyone.
    And this threat is real and imminent. There is currently 
some form of GMO labeling legislation pending in over \1/2\ of 
our state legislatures, and Vermont's GMO labeling mandate is 
scheduled to take effect next year. That is why I strongly urge 
Congress to enact a common-sense law that will provide farmers 
and consumers with the clarity and certainty needed for 
meaningful, voluntary food labeling.
    Last year our company supported the Safe and Accurate Food 
Labeling Act, and we understand that similar legislation will 
be introduced soon. Updates to the bill from last year may 
include the creation of a voluntary, non-GMO verification 
program run by the U.S. Department of Agriculture. We would 
support such a provision which would ensure that consumers get 
accurate information while preserving choices available to 
shoppers and farmers.
    Thank you again for the opportunity to testify before this 
Committee. I look forward to working with each of you this year 
to pass a common-sense solution that meets the demands and 
expectations of the American people.
    [The prepared statement of Mr. Policinski follows:]

 Prepared Statement of Chris Policinski, President and Chief Executive 
             Officer, Land O' Lakes, Inc., Arden Hills, MN
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, thank you for holding today's hearing on the costs and 
impacts of mandatory biotechnology labeling laws. I appreciate the 
opportunity to testify on this important issue. I am Chris Policinski, 
President and CEO of Land O' Lakes, Inc. I also serve as Chairman of 
the National Council of Farmer Cooperatives, am on the Board of the 
Grocery Manufacturers Association, and have over 30 years of experience 
in the food and agriculture industry.
Background on Land O' Lakes, Inc
    Land O' Lakes, Inc., based in Arden Hills, Minnesota, is a farmer 
cooperative, meaning it is owned, governed and controlled by farmers 
and local agricultural cooperatives. Land O' Lakes, Inc. touches more 
than 300,000 farmers across the country.
    While Land O' Lakes is best known for our dairy business, we are 
also comprised of two other important business units: Winfield, one of 
the country's leading distributors of agricultural seed and crop 
protection products; and Purina Animal Nutrition LLC, which provides a 
valued portfolio of complete feeds, supplements and ingredients for 
animals and livestock.
    Our company touches nearly every aspect of the food supply chain--
from farmers, to seeds, to production, to handling, to food processing 
and distribution, to consumer foods sales and marketing. Within those 
sectors, we also represent a cross-section of preferences and products. 
For example, we sell biotech, conventional and organic products. This 
broad and diverse business model makes Land O' Lakes well positioned to 
understand the benefits of biotechnology, and the impact of measures 
designed to mandate the labeling of GMO products.
Benefits of Biotechnology
    Biotech crops have been around for 2 decades, and provide 
extraordinary benefits to farmers and consumers. Higher crop yields per 
acre; less tilling of land; decreased use of natural resources such as 
water and land; reduced use of insecticide, better soil quality, and 
lower consumer prices are just some of the benefits GM crops provide.
    As the head of a broad agricultural and food company and speaking 
on behalf of our farmer-owners, providing consumers with safe, 
nutritious, affordable food is our number one priority each and every 
day. That is why we have embraced biotechnology.
    Our farmers and cooperatives don't just use biotechnology, they 
have adopted this technology very quickly. That's because the benefits 
that biotechnology provides across the board--for producers, the 
environment and to consumers--are substantial and have been well-
established over decades.
    Our farmers have also adopted this technology because they have 
confidence in the safety of biotechnology. Time and again, 
biotechnology and genetically modified ingredients have been proven 
safe by organizations such as the American Association for the 
Advancement of Science, the World Health Organization, the U.S. Food & 
Drug Administration, the American Medical Association, and more. Today, 
70-80% of the foods we eat in the United States contain ingredients 
that have been genetically modified.
Options in the Market for Consumers
    We know that customers want accurate and consistent information 
about the food they are buying because we talk with them constantly. We 
also know that different customers prioritize information differently. 
Our cooperative's branded lines voluntarily offer many products to meet 
specific consumer preferences, such as organic, cage-free and low fat. 
The U.S. Department of Agriculture's Certified Organic program is a 
prime example of an effective system that informs consumers and 
certifies products which are available in most grocery stores across 
the U.S.
    Consumers should, and do, have choices in the marketplace. Some 
choose to pay a premium for food that is produced by certain methods, 
such as organic, or that does not contain certain ingredients, such as 
those that are gluten-free. Others prioritize affordability, 
accessibility, convenience or taste. Voluntary labeling currently 
presents all of these choices in the marketplace, and that is the model 
that should exist for GMO labeling as well.
Mandatory, Varying Standards Creates Chaos
    Instead, some are pushing for a different approach. They are 
working in states to pass laws that would mandate the labeling of GMO 
foods.
    Mandating GMO labeling runs contrary to the essential purpose of 
government-mandated labeling--which is to provide consumers with 
accurate and relevant information regarding the safety of the food they 
eat.
    Every major health and regulatory organization has found that GMOs 
are as safe as any other food and as such do not require any special 
labeling. This is what our own FDA has concluded and is further 
supported by a 2011 summary report from the European Commission 
covering a decade of publicly funded research, 130 research projects 
and 500 research groups, which concluded there is no scientific 
evidence of higher risks from GE crops.
    Mandated GMO labeling is an effort to stigmatize a form of 
technology and attempt to drive it out of the marketplace. You don't 
have to take my word for it, 2 months ago, the Organic Consumers 
Association published an article admitting that the push to enact 
statewide GMO labeling laws is part of a larger effort to ``drive GMOs 
. . . off the market.''
    In addition to stigmatizing biotechnology, a state-by-state 
patchwork of mandated food labeling laws would be a logistical 
nightmare, creating dozens of different standards, different 
definitions, and different exemptions.
    Some say this approach is about a ``consumer right to know,'' but 
knowledge depends on consistent, accurate information, and their 
approach fails this basic test. Under their patchwork approach, a 
product may require a GMO label in one state but not another.
    Even within states an attempt to mandate GMO labeling will create 
confusion. For example, in the State of Vermont, which has enacted a 
mandatory GMO labeling law, a can of vegetable soup might be labeled as 
GMO, but a can of vegetable beef soup with roughly the same ingredients 
will not because meat is exempt from the GMO label. This approach 
doesn't inform consumers; it creates confusion.
    Inequitable attempts to mandate GMO labeling have been defeated in 
a number of states. However, some groups continue to ignore the science 
and push a state-based agenda that could put our nation's efficient 
food supply system at risk. This year alone, there is some form of GMO 
labeling legislation pending in over \1/2\ of our state legislatures. 
Vermont's GMO labeling mandate is scheduled to take effect next year.
    While it's a small state in terms of population, Vermont's law will 
have a significant impact in the region and the nation. This law alone 
would require dozens if not hundreds of manufacturing, transportation 
and logistics changes not to mention thousands of labeling changes. A 
single food company may be forced to change its sourcing, its storage, 
its manufacturing, its labeling and its transportation. The companies 
least capable of making these adjustments are going to be the small, 
independent businesses that many customers want to support.
A National, Voluntary Non-GMO Label is the Solution
    Fortunately, Congress has the authority and the responsibility to 
protect the free flow of goods across state lines. Uniformity in our 
nation's food labeling ensures consumers have consistent, accurate 
information on dairy, poultry, meat and other foods. As a result, 
Americans can go into a grocery store anywhere in the country and be 
confident that their food is subject to the same standards, 
certifications and labels.
    Under Federal preemption, Congress can create a voluntary, uniform 
national solution to the labeling of food products derived from 
ingredients using biotechnology. This approach supports efforts already 
underway in the marketplace, such as the USDA certified organic 
program. More importantly, it appropriately places trust in the 
intelligence of consumers to make choices best suited to their 
preferences.
    The value to this approach is that it not only respects a 
consumer's right to choose, but also farmers' right to choose to use a 
safe, proven technology. As the Members of this Committee know, our 
nation's farmers are tasked with an awesome responsibility. Not only do 
they provide sustenance to our nation but to countries all over the 
world. At the same time, they face extraordinary challenges such as 
fluctuating commodity prices, uncertain weather patterns, and global 
competition.
    Given the importance of agriculture, our government has been and is 
focused on ways to help farmers. I know this Committee agrees with that 
sentiment, and is committed to doing just that. But a patchwork 
approach of state labeling mandates will make a farmer's job more 
difficult, with problems that will extend to every part of our nation's 
food production and distribution system.
    For farmers, a GMO labeling mandate will stigmatize GMO products 
driving down demand for GMO crops. As a result, our farmers will have 
fewer choices of what to plant, will see higher costs due to crop 
segregation, lower yields, a decline in productivity, and an increased 
environmental footprint.
    For suppliers, mandates mean building new supply chains--one for GM 
crops and a separate for non-GM crops. New supply chains mean new 
warehouse and storage space.
    For manufacturers, mandates will require separate production runs 
for individual states. New labels will need to be designed to comply 
with each state's unique laws. Production runs will then be interrupted 
for labels to be changed, creating idle equipment and idle workers.
    For distributors, mandates will require new delivery routes. These 
new routes won't be based on efficiency as they are now, but will be 
based on borders.
    And for consumers, each of these impacts imposes new costs. In 
October 2013, the Washington State Academy of Sciences published a 
report on the cost of mandatory labeling. This unbiased, scientific 
analysis concluded that mandatory labeling is likely to affect trade 
and will impose higher costs on production. Ultimately, this cost will 
be passed onto consumers of GM and non-GM products alike. Further, a 
recent study by Cornell University found that state-based GMO labeling 
mandates could increase a family's annual grocery costs by up to $500.
    Ensuring that farmers have a freedom of choice is not about 
convenience, it's about necessity.
    The world's population is estimated to grow from 7.2 billion to 9.6 
billion by 2050. We will need to feed more people in the next 40 years 
than the last 10,000 years, combined. Already, we are falling short 
with one in eight people on Earth not getting enough to eat.
    If farmers are expected to meet the growing demand, then they must 
be able to utilize every tool available to them, especially 
biotechnology. This technology will allow us to grow more food using 
less land and fewer natural resources.
    Stigmatizing safe, proven biotechnology through patchwork state 
labeling mandates or even mandatory Federal labeling jeopardizes 
innovation and threatens future development and use of technology in 
agriculture. That's dangerous for everyone.
    In conclusion, I strongly urge Congress to enact a common-sense law 
that will provide farmers and consumers with the clarity and certainty 
needed for meaningful, voluntary food labeling.
    Last year, our company supported the Safe and Accurate Food 
Labeling Act, and we understand that similar legislation will be 
introduced soon. Updates to the bill from last year may include the 
creation of a voluntary, non-GMO certification program run by the U.S. 
Department of Agriculture. We would support such a provision which 
would ensure that consumers get accurate information while preserving 
the choices available to shoppers and farmers.
    Thank you again for the opportunity to testify before this 
Committee. I look forward to working with each of you this year to pass 
a common-sense solution that meets the demands and expectations of the 
American people.
    I am pleased to answer any questions.

    The Chairman. Thanks, Chris. I appreciate that. The chair 
would remind Members that they will be recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that Members will be recognized 
in order of arrival, and I appreciate Member's understanding.
    With that, I would like to yield my 5 minutes to the 
Subcommittee Chairman Rodney Davis. Rodney?
    Mr. Davis. Thank you, Mr. Chairman. Obviously with a 
constituent in the room, I would like to start my questioning 
with Mr. Clarkson. Again, thank you for being here. Thank you 
for your testimony. In your testimony you touch on this, but do 
you prefer the producers be able to voluntarily market their 
products as biotech, non-biotech, or both? And should either of 
these marketing claims be mandated?
    Mr. Clarkson. I prefer that the farmer have the choice to 
pick his market. I wouldn't mandate. I would do what I could to 
protect the integrity of his product. It gets into the issues 
of cross-pollination and seed purity and other issues, but it 
should be an entirely voluntary process.
    Mr. Davis. Well, thank you very much for your response. In 
your testimony you also say everyone would win if we could 
lower the temperature on biotechnology. And this is a very 
important point that many touched on in their opening 
statements.
    Can you expand on this, Mr. Clarkson, and as the labeling 
debate continues, what advice do you have in communicating with 
the many stakeholders that could help bridge the gap between 
those who support biotech and those who don't?
    Mr. Clarkson. Well, the emotion of this issue carries a lot 
of people away to unfortunate behaviors which my colleague on 
the panel was subjected to last year. The fundamental interest 
here is the consumer making the choice. Consumers don't choose 
their food entirely on safety at all. They make consumer 
choices on all sorts of values. I think that should be honored. 
It has created a market for the farmer that currently is paying 
him about a 15 percent premium, ten to 15 percent premium to 
offer non-GMO and three times as much as conventional to offer 
organic products in the marketplace.
    If we can respect the fundamentals, the interest that seems 
to be driving the emotion around the marketplace is to be able 
to detect GMOs in at the grocery store. If we can set up a 
voluntary labeling program, we define it and make it standard 
around the United States, that gets everybody paddling the 
canoe in the same direction----
    Mr. Davis. Well, thank----
    Mr. Clarkson.--while people make their choices.
    Mr. Davis. Thank you very much for that response. Ms. 
Lidback, I have three school-aged children at home. There is 
obviously a lot of false information about the health and 
safety of biotech crops that is driving this debate, and we 
both saw that after the Subcommittee hearing last year. Can you 
expand on why these products are safe for your children and 
also mine?
    Ms. Lidback. Thank you. Yes, food made with genetically 
engineered crops happen to be the most rigorously tested 
portion of the food that is available out there. People can 
rest assured, I can rest assured, you can rest assured, that 
they are safe. They are no more risky than other conventional 
non-GMO or organic counterparts.
    Mr. Davis. Okay. Thank you. Mr. Policinski? Did I pronounce 
that semi-correctly?
    Mr. Policinski. Yes.
    Mr. Davis. Thank you. Thank you. You run one of the largest 
farmer-owned companies in the country. Why has your company 
made investments in biotech and what does labeling mean for 
food and agricultural companies like yours?
    Mr. Policinski. Our farmers have embraced biotechnology 
faster than any technology in history, and they have done that 
because the benefits to their economics on farm, the 
environment, less land and water use, less crop protection 
products use, and the consumers are so readily apparent. So 
this technology is central to the way our farmers, our farmer-
owners, operate their businesses. So we have embraced that in 
terms of the way we manage our business. We have a business 
unit called Winfield Solutions that sells seed and crop 
protection products to farmers. We sell all types of seed and 
crop protection products to farmers. We sell biotechnology, 
biotech plants. We sell conventional seeds. So we believe in 
farmer choice, and it has been a good business for our farmers. 
It has been a good business for us, and it is good for the 
consumer in terms of the benefits of lower costs and a lower 
environmental footprint.
    Mr. Davis. Well, thank you very much. Thank you all for 
your testimony. And Mr. Chairman, I have one question for the 
panel, but I will wait until my turn. So I will yield back.
    The Chairman. The gentleman yields back. The Ranking Member 
is recognized for 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman. Mr. Clarkson, 
critics of the voluntary labeling say that it will not address 
the consumer demand for labeling and will create additional 
consumer confusion. And I frankly can't understand that. The 
USDA's organic program has been out there and it seems to me it 
has met consumer expectations. If it hasn't, how can we have a 
$35 billion organic market in the United States? What am I 
missing here?
    Mr. Clarkson. Congressman, I don't think you are missing a 
thing. I think you are right on the money on that. I think the 
organic program is certainly getting support because consumers 
believe in it. It is a voluntary label. I think a voluntary 
label would take care of the underlying consumer interest in 
knowing and not punish the industry and others that don't want 
to be involved with the cost. I don't think there would be any 
additional cost because the people that want that market are 
already labeling for that market. It is already taken into 
account.
    Mr. Peterson. Thank you. Mr. Policinski and Mr. Dempsey, if 
states like Vermont, are going off and doing their things like 
the mandatory labeling there, and we hope that that gets 
overturned in the courts, which some people are optimistic 
about, but if it doesn't, what is going to happen with 
companies such as yours that have labeling for the whole 
country? Are you going to create a separate label for Vermont 
where, if they end up with their law being upheld, are you 
going to run a separate run in your companies just for Vermont? 
Or are you going to basically say we are not going to sell in 
Vermont, which is what I would hope you would do.
    Mr. Policinski. Congressman Peterson, we haven't yet 
decided. I think Mr. Dempsey outlined the three choices very 
well. First is to stop selling to any individual state, second 
is to relabel our products at considerable expense, and third 
is to re-engineer our supply chain and reformulate our products 
at even greater expense. None of those are good choices. All of 
those choices would result in either denying consumers access 
to products which we wouldn't support, but they would also 
yield the other two choices short of not selling in any one 
individual state are much higher costs passed along to 
consumers. So I would agree with Mr. Dempsey's outline of the 
three basic choices. As a company, we haven't yet decided. 
There are no good choices in any of those.
    Let me outline as well that the idea of not selling a 
product in Vermont is also a very difficult choice because we 
would be liable for any of our products that might find their 
way into Vermont, and the cost of that liability is 
extraordinary. I think the penalty is $1,000 per item. So even 
if you said you wanted to pursue that first option, it is 
really not a viable option, which is why we so strongly support 
a Federal voluntary labeling law here.
    Mr. Dempsey. I would agree. Obviously we have, as I said, 
companies that are multi-category, multi-billion dollar 
companies and small family-owned businesses. This is going to 
be much harder for that small family-owned business with one 
plant to do anything to adhere to the Vermont law as well as 
sell their product across other states. So those options are 
much more limited for the small manufacturer family-owned 
businesses than they would be for a multi-plant, multi-billion 
dollar business. So I would be repeating what we just already 
said to go further, but it would be a difficult decision for 
every company to decide what to do in Vermont.
    Mr. Peterson. I thank both of you. Dr. Federoff, am I 
saying that right? If a voluntary non-GMO labeling program were 
to move forward, can we define what a GMO is so that the 
consumers would understand the label?
    Dr. Fedoroff. I would hope we could do a better job because 
the label, genetically modified is, as several people have 
pointed out, misleading. We have been genetically modifying 
crops and animals for many thousands of years.
    I think that Mr. Schmidt's suggestions are very good ones. 
Biotechnology is a little bit less of a negative buzzword.
    Mr. Peterson. Well, I don't know where the GMO came from. I 
guess it was Europe, and there was obviously a purpose behind 
it. So thank you, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back. Mr. Gibbs, for 5 
minutes?
    Mr. Gibbs. Thank you, Mr. Chairman. It is a great panel, 
and I want to commend Ms. Lidback for your work and also a 
young couple starting in the agriculture industry, that is 
commendable, and you say you have two kids, 2 and 3. Really, if 
more kids could grow up on the farm, it would be great for our 
country I believe.
    I want to kind of look back for a little perspective. Back 
in 1950, my understanding is the national corn yield was 50 
bushels to the acre. In 1975, 40 years ago when I started 
farming, my goal was to have 100 bushels an acre. And now we 
are pushing 200 bushels an acre here nationally. Anything under 
150 bushel would be considered a disaster. I know Land O' Lakes 
is shaking his head there.
    And it was pointed out, this change from 1950 to 1975 where 
we doubled the production, I always contend it is from figuring 
out soil nutrient fertility, also hybrid selection, natural 
hybrid selection, and then I would contend from this period 
forward now where we have pretty much doubled the yield again, 
it is because we have been able to select the genetics in a 
faster way like Dr. Federoff says. We have been doing it for 
thousands of years or at least from our perspective, 100 years 
or so. So we have been able to identify those genes and do it 
exponentially in the lab. So it is really no different. So that 
is one of the reasons why the scientists say it is safe, 
because we know what those genes are. We can identify them. But 
the benefits, we are growing--we are having 14 billion bushels 
of corn crops a year now annually on less acres. Every year it 
is less acres. So it is really a food security issue. The 
American farmers have provided the food for this country, and 
we also export \1/3\ of it. It is a food security yield but it 
is about yields. And if we didn't have what has happened in the 
last 25 years of this yield, we would be having food shortages. 
Do you agree with that, Mr. Policinski?
    Mr. Policinski. Yes, I do. I think there is a tremendous 
productivity story here. In fact versus 2-2\1/2\ generations 
ago, we are growing 6\1/2\ times more corn on 13 percent fewer 
acres.
    We often talk about that in terms of per-bushel yield, but 
I will tell you, there is a tremendous sustainability story 
there in terms of less water and land use, less protection and 
crop----
    Mr. Gibbs. Yes, you say that. In my 40 years now--I just 
figured it out. It has been 40 years since I have been farming. 
The crop protection, the herbicides we used back then, had 
residuals. They didn't break down. They weren't biodegradable. 
The crop protection we are using now is virtually--a lot of 
them don't have any residuals. I tell people that come to my 
farm, it is interesting. You see my neutral soybeans out there, 
and we have to--we do a burn-down application before we plant, 
and then sometime in June, we come through and we apply a 
herbicide again, but we have to time it in such a way that it 
is done right before, to kill those weeds that came up, and 
then when the soybeans, you get this canopy to provide the 
shade so that new weeds won't come because there is no 
protection if we miss that timing.
    And so we are using safer herbicides, and we are increasing 
the yield and also protecting the environment that way.
    I would also go on to say that I agree with all of the 
panelists of the voluntary aspect because better than 80 
percent of the grain grown in this country--was mentioned--is 
genetically modified in the lab. Even though it is natural 
selection, it was just done in a lab in my opinion. You would 
have to label everything if it is mandatory, genetically 
modified, which just scares consumers and it puts this country 
at a risk of food security. And it hurts the environment in the 
long run because we go backwards.
    So I support voluntary labeling. If a producer out there 
can find a niche market--I am sure there is a market out there. 
We see it in organics, and they can demonstrate that it hasn't 
been modified in the lab, that they can have that market. But 
they can put on there that it is not--I would say artificially 
modified--I don't know what the term is--versus naturally 
hybrid selection like we did back in the 1960s and 1970s and 
the 1980s.
    So I want to commend you all for your testimony. Dr. 
Federoff, go ahead.
    Dr. Fedoroff. What people don't realize that it is in the 
20th century we used chemical mutagens and radiation to hasten 
the mutation process. So there isn't back then just breeding 
and now this artificial method. That is one point. The second 
point is that people have looked at the amount of genetic 
change that accompanies using these different techniques, and 
the evidence supports the conclusion that these are the safest 
and least-disturbing techniques, whether you are looking at the 
genetics or the epigenetics. That is the kind of control level 
of genetic expression.
    So these really are the best techniques, the least 
disturbing, having the lowest probability of causing a problem 
that we have ever developed.
    Mr. Gibbs. Well, I thank you and the panelists and your 
good work. Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman yields back. Mr. 
McGovern, for 5 minutes.
    Mr. McGovern. Thank you, and thank you all for your 
testimony. Let me begin by saying everybody is reading from the 
same sheet of music here, but nobody here is in favor of 
mandatory GMO labeling, am I correct? If we are going to have a 
thoughtful discussion on this, we ought to have more of a 
diversity of opinion at a hearing like this because it is 
important to hear all sides of the subject.
    But let me begin by saying that I am a believer in science. 
I rely on the scientists to give me informed information. That 
is why I believe in climate change as well. That is a subject 
for another hearing. But the point of the matter is that there 
is great value in our sciences. So I am not here to demonize 
GMOs or the technology behind them. I don't think anybody 
should be fear-mongering about GMOs. I don't think anybody 
should be threatening anybody who wants to produce GMO crops or 
whatever. We ought to be able to have a more kind of a measured 
conversation on this.
    But I do believe in transparency, and I do believe people 
ought to have a right to know what they want to know. The 
consumers ought to have the right to know what they are eating 
and what they are feeding their kids, and how they use that 
information in their food choices is up to them, not up to us, 
but up to them. There is great confusion with the labeling 
system now. I mean, I saw a poll from Consumer Union that found 
60 percent of consumers believe that products that say natural 
means non-GMO when in fact that is not the case. More consumers 
think natural means non-GMO than think organic means non-GMO.
    The current system, and even kind of a voluntary system is 
lacking. We were told that changing labels will cost food 
companies. Food companies change their labels all the time. It 
is a false argument to say that labeling requirements will 
drive up the cost of food. I do believe there ought to be a 
national standard because I do understand the patchwork of 
various state initiatives is not in anybody's interest.
    In response to the idea that if a product said, ``contains 
GMOs'' or whatever the label would be, that somehow that would 
discourage people from buying those products, you have 64 
country around the world already require labeling of GMO foods. 
Brazil, a country whose consumption patterns are similar to 
those in the United States, has required GMO labeling since 
2001. And from what I can tell, there has been no significant 
change in consumption patterns.
    But let me just raise one point here. I am deeply troubled 
by Friday's announcement from the World Health Organization's 
International Agency for Research on Cancer, that glyphosate, 
the herbicide most commonly used on GMO crops, is a probable 
human carcinogen. Now, IARC is made up of some of the most 
renowned scientists in the world, and if they are saying that 
glyphosate is a likely cause of cancer, I mean, that may be 
something that people want to know.
    So I guess my question is, because GMO corn and soybeans, 
for example, are designed to withstand glyphosate, the use of 
that herbicide has grown dramatically in recent decades, and 
given Friday's announcement, I mean, don't you think people 
should have the right to know how their food is grown and make 
their own decisions? Anybody wants to----
    Mr. Policinski. Well, let me just respond because there are 
a few things that I would agree with. First, I agree there is 
great confusion in the marketplace right now, and state level 
labeling laws would increase that. I agree, and the Pompeo bill 
that was offered last year said we need to define natural, and 
that would be important to do. I think that a voluntary 
national standard would provide consumers with that choice and 
the information they need to make a decision. I think to do it 
the other way around and to mandate the label does stigmatize 
the ingredient and infers there is something that must be wrong 
with it versus how we have done organic in a certified USDA 
organic program. We didn't ask all food to be certified non-
organic to be able to communicate to consumers the value of the 
choice to make an organic food.
    There is some agreement that we do have tremendous 
confusion, and that is why we support very firmly a national 
labeling legislation that has voluntary options. I do agree 
that we do need to define natural, and that is in the proposed 
legislation. But I don't agree that it should be mandatory 
because that does stigmatize----
    Mr. McGovern. Does anyone want to talk about the glyphosate 
finding? I mean that is a legitimate scientific organization.
    Dr. Fedoroff. I am glad to address that. That is not based 
on any new data, and it is not the case that there have been 
many, many studies on glyphosate. We do have an Environmental 
Protection Agency, and they require considerable testing. So 
the organization has labeled it as----
    Mr. McGovern. Probable.
    Dr. Fedoroff. Possible carcinogen doesn't mean anything has 
changed or any new data has been produced.
    Mr. McGovern. But I guess the point is, shouldn't consumers 
have a right to be able to know that? I mean, that is the----
    Dr. Fedoroff. If there is evidence that it is a carcinogen, 
yes. I think that is correct. But there have been so many 
studies over the years on this particular compound that have 
failed to identify any carcinogenic potential that for one 
group to say, ``Oh, well, it just might be, then do we put that 
on a label?'' I mean, this doesn't make any sense.
    The Chairman. The gentleman's time has expired. Mr. Gibson, 
for 5 minutes.
    Mr. Gibson. Well, thank you, Mr. Chairman. I appreciate the 
hearing, and thank you to the panelists, too, for being here 
today.
    I believe that people have a right to know what it is that 
they are consuming, and I also feel very strongly about science 
and recognize the fact that we have avoided famine, because as 
was mentioned, we have modified over the years. So I recognize 
that as well.
    I represent 11 counties in Upstate New York. I am a fervent 
and a strident advocate for my farmers. Ensuring the viability 
of our family farms is critical, a principle that we can't drop 
as we move forward reconciling right-to-know and science. And 
so I thank Ms. Lidback for being here today, and thank you for 
your testimony.
    I also have tremendous faith in the American people that 
empowered with information--I guess I don't agree with some of 
the assessments that they would change their consumption 
habits. I think that they will make good choices. And so I just 
want to put that on the record, too. As it relates to right-to-
know, if we thought about it more broadly, we get fixated on 
labels immediately. I would be interested in the panel's 
response to the possibility of right-to-know with an approach 
that provided details on modification on a website where 
individuals could go to get information. I would be curious to 
know what their reaction would be to that technique.
    Mr. Policinski. Congressman, I would like to respond to 
your question because there is a desire in the industry to 
engage with consumers around this great dialogue where their 
food comes from. But we want to do it in a science- and fact-
based way. This actually is part of that, having an orderly 
Federal law that is voluntary around labeling GMO products, 
would create an environment that we can engage with consumers 
in a constructive way. There are a number of things that are 
going on in a variety of industry association, two that I am 
part of, the National Council of Farmer Cooperatives and the 
Grocery Manufacturers Association. Everything from facts up, 
from to a discussion of how we can do exactly what you have 
described, to engage consumers in a dialogue, which is bigger 
than a package panel, regarding where their food comes from and 
help them understand that there are a lot of modern business 
practices that give us the safest, lowest-cost, most-abundant 
food supply in our history.
    So that is under way, and this is part of that process, to 
create an orderly environment to engage consumers in that 
discussion.
    Mr. Clarkson. Congressman, when we receive an order from a 
Japanese food company, it often comes with a list of 100+ 
chemical residues that we are supposed to test for. 
Realistically, it would cost about $16,000 to $20,000 to test 
grain going into a container, which is more than the grain than 
the container would be. But that is because they are concerned 
about residues. I fully expect we will be asked to certify that 
we are delivering products that didn't have Round-Up in it, 
glyphosate in it, within a matter of days. Everybody supports 
science-based, but science doesn't speak with a single voice, 
and that confuses people. It is beyond my capability to know 
which scientific argument is right. So I prefer to make the 
distinction, if enough people have asked for it, and let them 
decide going to the Internet and gathering what information 
from whatever source and making their consumer decision.
    Ultimately, the market will decide. The market has decided 
right now to pay a farmer $3.80 in Illinois for conventional 
corn, about $4.20 for non-GMO, and about $12.50 for organic. So 
the market is speaking with its dollars and asking people to 
perform. I think labels help in the grocery store, and science 
is an excellent foundation, the only foundation, but just what 
does science say is confusing.
    Ms. Lidback. I would like to chime in. Congressman, I 
walked away from the Subcommittee hearing last year feeling 
like absolutely consumers have a right to know. No one here is 
contesting that statement. And in fact, since then, more and 
more resources have popped up just exactly the way you have 
described them, websites with good information, including one 
from my alma mater, Cornell University has a great website, the 
Alliance for Science, that explains a bit more in detail some 
of these growing processes and what the details are that lead 
to farmers making the choices to use the biotechnology that 
they do in their everyday practices.
    Dr. Fedoroff. Maybe I would just like to make a point that 
addresses Mr. Clarkson's comment about how do we decide. In 
science we have a concept called the weight of the evidence. If 
you have two studies and one says something is dangerous and 
one says it is not, you don't know what to decide. If ten 
studies say it is not dangerous and one study says it does, you 
have a pretty good chance of believing that one. If 100 studies 
or 1,000 studies say it is not dangerous and one still keeps 
saying it is dangerous, you are very comfortable going with the 
weight of the evidence, which is on safety.
    Now, in this particular area of GMO, one study often gets 
disproportionate attention. There is a famous study by a man by 
the name of Seralini who claimed that glyphosate caused tumors 
in rats. The study was retracted. The data were terrible, but 
that dominates people's thinking. Should we bow to that or 
should we go with the weight of the evidence?
    Mr. Gibson. I know my time is expired, Mr. Chairman. I want 
to make one final comment and that is that arming people with 
the information is really what we are talking about here. My 
family----
    The Chairman. The gentleman's time has expired. Really, we 
have other folks, Chris.
    Mr. Gibson. You bet.
    The Chairman. So Mrs. Kirkpatrick for 5 minutes?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman, and I have for 
the record a report that I would like to enter from Cardinal 
Peter Turkson, President of the Pontifical Council for Justice 
and Peace.
    The Chairman. Without objection.
    [The document referred to is located on p. 79.]
    Mrs. Kirkpatrick. I want to read a portion of that, and 
then I will ask my question. He says, ``hunger in the world is 
a very serious injustice that shows fundamental disrespect for 
human dignity. Pope John Paul II called it the first and 
fundamental form of poverty. Persistent hunger, starvation, and 
malnutrition represent a global failure of humanity that, to 
our shame, has dragged on for decades. It is a plague and a 
long-term indicator of a system that does not function 
properly. Some point to the economic crisis of recent years as 
the reason why the world cannot do better, but that is just an 
excuse. Food insecurity has persisted for decades through 
prosperous times as well as more difficult times.''
    And the panel, I want to explain to you. I represent the 
Navajo Nation in Arizona where household food insecurity is 
above 75 percent. And so my question is, do you think it is 
possible to feed a world population of over nine billion people 
without the use of genetic engineering and the full use of 
agricultural technology? And I will just open that up to the 
panel, whoever wants to address that.
    Mr. Policinski. I would be glad to offer my perspective 
which is based on a few things, but I do agree that we have 
talked about this biotechnology and biotech traits in large 
part in farmer terms, yield per acre. We haven't done enough of 
a discussion around the benefits to the environment, less land, 
less water use, less crop inputs, more benign crop inputs.
    We haven't talked enough about it in terms of cost and the 
benefits to consumers, in terms of lower-cost foods, because we 
get a crop--just a couple of years ago we had the drought. We 
got a crop. The weather patterns were not that dissimilar from 
the late 1980s when we didn't get a crop. So we don't talk 
enough about the benefits beyond yield per acre.
    I think you raised another benefit and that is the ability 
to feed the soon-to-be nine to ten billion people on the planet 
in an increasingly productive and sustainable way and adapt to 
climate change along the way. I do not think we can feed that 
nine to ten billion people that are soon to be on the planet 
without chewing up a lot of natural resources without 
biotechnology.
    Mrs. Kirkpatrick. Anyone else on the panel want to comment?
    Ms. Lidback. I would, Congresswoman. I appreciate your 
sentiment. And just for example in our country alone, you must 
be aware, that less than two percent of our population lives on 
farms. So in my opinion, we are going to need every farmer that 
we can get, organic, non-GMO, conventional, whatever it takes, 
and certainly biotechnology offers a tremendous amount of tools 
beyond genetic engineering in order for us to do the best that 
we can.
    Mrs. Kirkpatrick. Anyone else?
    Dr. Fedoroff. Yes, I would like to address it. Today we 
produce enough calories to feed everyone in the world a 
reasonable number, and it is a matter of unequal distribution 
of resources. Today if you have the money, you can buy food. We 
are looking at a future where we do not know what the impact of 
climate change will be. It is already negatively impacting our 
productivity worldwide.
    There are still places in the world that productivity can 
be increased by conventional methods, but in the end, if we 
want to reduce the footprint of agriculture even further--and 
conventional breeding and mutagenic breeding has done a 
phenomenal job of reducing the required acreage to grow a 
certain amount of food. In the future, the real barrier is the 
ability of plants to collect sunlight and drive, to convert--it 
uses sunlight to convert air and water into foodstuffs. In the 
next breakthrough, the next big breakthrough has to be in the 
efficiency of photosynthesis. We can't do that by conventional 
techniques. We will have to understand, we will have to use all 
of the science tools that we have including genetic 
modification of plants to make the next big breakthrough that 
will allow us to reduce the footprint, make agriculture more 
sustainable, and yet continue to increase the food supply.
    Mrs. Kirkpatrick. Thank you very much. I appreciate the 
testimony that you are giving us today, and I yield back.
    The Chairman. I thank the gentlelady. Mr. Benishek, for 5 
minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Thanks to the panel 
for being here today. Dr. Federoff, are the changes that have 
been made in the lab, treatment of plants, changed their 
properties any different than the way we have been doing it for 
thousands of years?
    Dr. Fedoroff. Yes. They are very much more precise because 
in the last half-century, we have learned more about what genes 
are, what they do, what they do in a different context than we 
ever knew before. So in a way, we were stumbling blind. We used 
chemicals and radiation kind of as a shotgun. Now we can take 
just one gene, we know what it does, or half-a-dozen genes. It 
doesn't matter. But it is a small number of very well-defined 
genes that will confer new properties on plants and animals. 
This is something we never could do before.
    Now, does that mean that we will never create a plant or an 
animal that is substantially different from what was before? 
No. So regulation really needs to be based on the properties of 
the organism, the environment it is going into, and what is 
being added. And all of that, I have to--I can't resist 
pointing out that that is exactly what the National Academy of 
Sciences recommended in 1987.
    Mr. Benishek. Well, thank you. I appreciate that. Going 
back, you are exempt from the rules apparently in Vermont, is 
that correct?
    Ms. Lidback. Currently, yes.
    Mr. Benishek. So if you had to comply with those rules, 
would you be able to keep farming?
    Ms. Lidback. That is an interesting question. It sort of 
depends on what kind of a price we would then be able to 
receive. So for example, generally speaking, when you convert 
to the organic, you also are then able to collect an organic 
premium in the market. So probably initially no, but if the 
change were to happen overnight, the increasing costs I 
detailed in my earlier statement would put us right out of 
business.
    Mr. Benishek. I guess I don't understand. There is labeling 
requirements in the State of Vermont except that the Vermont 
producers don't have to--is there only certain producers don't 
have to comply or is it all Vermont producers?
    Ms. Lidback. It is by industry, and it is really about the 
food product itself. So the dairy and meat would be exempt as 
well as food sold in restaurants would be exempt from being 
labeled, whether it was produced using genetically engineered 
ingredients or not.
    Mr. Benishek. Let me ask a question, this time of the panel 
perhaps. Does anyone disagree that a voluntary labeling Federal 
rule, would that not give the consumers all the information 
they need to know? I don't understand any reasoning against 
that. Mr. Dempsey?
    Mr. Dempsey. We do think that is exactly the case. I mean, 
we have a template for that. The organic labeling has given the 
consumer who wants that product all the information they have 
needed. As somebody said earlier, we don't force companies to 
form labels that say non-organic. So that doesn't make much 
sense along that pattern that we would change anything 
different for GMO-free labeling.
    The information is there on a voluntary basis. If somebody 
wants it, they seek it out and purchase that product.
    Mr. Benishek. Right. Right. Anybody else have a different 
opinion?
    Dr. Fedoroff. My view is that if more information were 
provided, if the law stipulated that you had to put together a 
lot more information to offer the consumer, then it would 
depend on who was doing it, how it was done, how accurate it 
was, and so forth.
    Mr. Benishek. All right. Thank you.
    Mr. Policinski. No, I would agree, just something to add to 
Mr. Dempsey's statements, that I would agree. We support the 
Federal voluntary labeling program. I think it does allow us to 
provide consumers a choice, but importantly it allows us to 
continue to engage with consumers in a dialogue regarding where 
their food comes from, which is important. I just don't think 
the front of the label is where it should be. And as I said 
earlier, there are a number of efforts going on in the 
industry, in individual companies and within industry 
associations to further that desire to engage with consumers 
around where their food comes from in the modern business 
practices that give us this great lowest-cost, most-abundant, 
safest food supply that we have had in our history.
    Mr. Benishek. Thank you. I am out of time it seems.
    The Chairman. The gentleman's time has expired. Mr. 
Aguilar, for 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. Ms. Lidback, in your 
testimony you mentioned that the marketplace is already sorting 
out some of the non-GMO labeling without legislative mandates. 
I wanted to just get your feeling and your perception and that 
of your peers I suppose on the Whole Foods discussion, that in 
2018 they plan to have all their products in the United States 
and in Canada labeled.
    Can you give the Committee your views on these kind of 
private-sector driven initiatives?
    Ms. Lidback. Thanks for your question. Yes, it is a topic 
of--oftentimes we talk about it a lot, my peers and I. And one 
of the frustrations we have is sort of this clash between 
providing factual information and wanting to market a product. 
It was Mr. McGovern earlier that talked about transparency and 
consumers wanting transparency when there are a lot of 
different conflicting ideas and statements out there.
    For example, a great example is in chicken. I just learned 
you are not allowed to label chicken packages as antibiotic-
free. You can use the terms grown without the use of 
antibiotics, but you can't label it antibiotic-free. And there 
are various restaurants in the country that will have on their 
menus antibiotic-free chicken. So in my opinion, that is 
misleading. That is misleading the consumer. So the Whole Foods 
effort to sort of have a labeling initiative, I don't 
necessarily agree with it. They are listening to their 
customers, certainly, and they are trying to provide what they 
want, but at the same time, are they stigmatizing genetically 
engineered foods? And that is what the debate surrounds.
    Mr. Aguilar. Thank you. I appreciate the answer.
    Dr. Fedoroff. Let me just add to that that many of the 
products--since I know what GMOs are on the market and what are 
not, many of the products that they are attaching that label to 
today are not genetically engineered, never have been. Okay? So 
it is basically deceptive marketing.
    Mr. Aguilar. Thank you. Mr. Policinski and maybe Mr. 
Clarkson can also handle this next one. Sir, you mentioned 
earlier that there are some industry components. What I heard 
you say was there are some industry components within possible 
legislation that you could support, such as the definition of 
natural, you mentioned, in addition to the voluntary labeling 
that we have heard extensively. What are some other policy 
components that you feel industry can get behind showing 
consumers as you mentioned more about where their food comes 
from?
    Mr. Policinski. Well, I don't know if it is policy or not. 
I think policy that we have had in this country and our 
regulatory agencies have been very fact- and science-based, and 
that needs to be continued. We need to be very fact- and 
science-based in the policies that do come out and the 
regulations that do come out from our regulatory bodies. And I 
would say that needs to be continued, and in large part, that 
is what we are talking about today.
    Other engagement that is going on is voluntary and by 
individual companies, and what I am describing and to some 
degree even your question about Whole Foods is individual 
companies can choose to market how they choose to market, and 
consumers could choose to make their own decisions based on 
that. I do think that we are seeing very healthy outgrowth of 
this conversation and others. Consumers are more interested in 
where their food is coming from, and we will see more, I know 
we will see more, organizations on a voluntary basis provide 
that information on websites and through a variety of means.
    So I don't think that is a matter of policy. I think that 
is the individual companies trying to be very transparent with 
their consumers.
    Mr. Aguilar. Sure, but one of the panelists just said that 
it was deceptive. So you are saying that we might gravitate 
toward that, but one of the panelists just mentioned that those 
efforts were deceptive.
    Mr. Policinski. Yes. Well, let me be clear. I am not for 
deceptive marketing in any way.
    Mr. Aguilar. Right.
    Mr. Policinski. The record will reflect that, right. And 
nor am I accusing anybody of that. I think the notion is just 
increased transparency of where your food comes from. There are 
a lot of modern business practices that contribute to, as I 
have said before and we need to keep saying it, the safest, 
lowest-cost, most-abundant food supply in our history and 
arguably in the world.
    Biotechnology is just one of those modern business 
practices that yields that statement. There are other practices 
such as advanced breeding on dairy farms that lead to very 
efficient dairy cows that produce milk more--there are a lot of 
practices that we need to talk more about.
    Mr. Aguilar. Mr. Clarkson, do you want the last comment?
    Mr. Clarkson. Yes, Congressman Aguilar, one of the key 
policy issues is to define what we mean by the term. When we 
end up with multiple definitions, the market is in great 
confusion that causes trouble for all the players.
    So the other thing is in respecting the choice of one 
farmer to do something and farmers who are neighbors need to 
work together. And it would be nice to have some policies that 
would encourage that.
    Mr. Aguilar. Thank you so much. Thank you for your answers. 
Thank you, Mr. Chairman.
    The Chairman. Mr. Allen from Georgia.
    Mr. Allen. Thank you, Mr. Chairman, and once again, I 
appreciate the panel here and basically the comments that you 
have had about this particular issue. One of the things, Dr. 
Federoff, that I have been sitting here thinking about is as 
far as the testing of these products. Are there any risks for 
consumers to choose organic foods?
    Dr. Fedoroff. Are there risks?
    Mr. Allen. Yes.
    Dr. Fedoroff. To choose organic?
    Mr. Allen. Yes.
    Dr. Fedoroff. Indeed. We share our pathogens with animals, 
and the primary tenant of organic farming is a prohibition on 
synthetic nitrogen fertilizers. They use green manure or cow 
manure or other manures.
    Mr. Allen. Right. Okay.
    Dr. Fedoroff. Okay? And as I said, we share our pathogens 
with animals. And a number of the food poisoning incidents are 
coming out of organic farming. The outbreak that killed some 50 
people in Europe a couple of years ago was traced to organic 
beansprouts.
    Mr. Allen. Okay.
    Dr. Fedoroff. And this is something that people are just 
simply not aware of.
    Mr. Allen. And that is what----
    Dr. Fedoroff. Now, properly treated manure is safe, but 
there is always that probability because there is no uniformity 
to that treatment.
    Mr. Allen. Ms. Lidback, I grew up on a dairy farm, and the 
best decision that my dad made was to get out of that business. 
And here you are, first-generation. I applaud you. I chose to 
be the clean-up person because I got to sleep a little later. 
And speaking of cow manure, I am in trouble there because that 
is what I did, is clean that place up every morning, every 
night. But I can tell you this, if they get too tough on you 
there in Vermont, you are welcome to come to the State of 
Georgia and we will do everything we can to help you do 
business down there.
    Ms. Lidback. Thank you.
    Mr. Allen. Yes, I will take any other comments. What we 
want is a solution to this and what is the Federal Government's 
role in this. We have less than about 2\1/2\ minutes, and I 
would like to open it up. What do we need to do on this?
    Mr. Dempsey. Just one comment that Congressman Aguilar made 
that is important and is kind of overlooked in this Committee 
or even on the whole discussion and that is defining the term 
natural. Many of my member companies are in numerous litigation 
between the different perceptions of what is natural and what 
isn't natural, and the part of the bill, my understanding is, 
that it mandates a Federal definition of natural. And certainly 
that is something that we would advocate very strongly that has 
to done.
    Dr. Fedoroff. And of course, corn would be totally 
unnatural by any definition because we created it.
    Mr. Allen. Right.
    Mr. Policinski. Congressman, not to be redundant, but I 
want to come back to the Pompeo-Butterfield bill that was 
offered before that by establishing a national voluntary 
standard does clear up confusion. It does provide consumer 
choice in the same manner that organic, USDA-certified organic 
does, and it does preserve farmer choice. It allows the 
marketplace to determine then the size of those businesses and 
the size of the use of that technology. There is a simple 
solution.
    Mr. Allen. Okay.
    Mr. Schmidt. If I could also add, too, in terms of my 
testimony and my history, earlier in my career I worked for the 
USDA Food Safety and Inspection Service and worked with many 
talented regulators, with the career staff, also at the Food 
and Drug Administration, and we have had a lot of discussion 
about who knows? Who do we trust? I mean, these are the people 
that tax dollars go to determine what is important health, 
nutrition, and safety information? They, as many have 
testified, can regulate within the current needs, and there can 
be more legislation. But in the meantime, those are the folks 
who make those important decisions. Otherwise, there is chaos 
out there if we let everybody make those delineations.
    Mr. Allen. Well, that is why I asked the question about 
organic side. It seems like the GMO is kind of on everybody's 
radar. So let us let everybody know what is going on because 
the consumer does need to know and the consumer needs to have 
the ability to make that choice. Thank you very much, and I 
yield back the remainder of my time.
    The Chairman. The gentleman yields back. Mr. Scott, for 5 
minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. This 
has been a fascinating hearing. I think basically what this 
boils down is do we have--because all of the consumers need to 
know what is in the food. It is basically whether it is one 
national standard or state by state. But there is another issue 
here that purveys, that runs from the farmer, the producer, all 
the way up to the consumer, and that is economics. Mr. Dempsey, 
you hit two very important points that we need to pay a little 
attention to.
    You mentioned in your statement that, first, \1/2\ of your 
businesses in your association earn less than $\1/2\ million a 
year, or should I say it was $100 million gross. And second, 
which means they are basically small businesses. And the other 
point was that in some of these communities, that particular 
business is the primary source of employment.
    We ought to look at these two and how they basically 
impact. So tell us just how critical is the need for the 
Federal Government to intervene here with a national standard, 
rather than as it seems to be a state-by-state approach? What 
is that economic impact on the jobs and on small businesses?
    Mr. Dempsey. Thank you, Congressman. As I said, most of our 
businesses are smaller, family-owned businesses, second-, 
third-, fourth-generation. The snack industry is a very 
regional, localized business. So you have a lot of small 
manufacturers who are employing, the main employers, and the 
manufacturing process in their areas.
    To be able to basically navigate a list of state laws would 
take additional people, additional costs, or painful decisions 
to exit a certain market. And in many cases, those markets are 
the markets on the border that they would have a hard time 
complying with state-by-state laws, especially if those laws 
have different nuances and different regulations.
    So the hard decisions are you sell or you stop 
manufacturing and walk away.
    Mr. David Scott of Georgia. Okay. So the impact would be 
considerable?
    Mr. Dempsey. The impact would be considerable both in more 
warehouse space, more SKUs, more film, a greater distribution 
burden based upon more SKUs on a truck. It would be 
significant, yes.
    Mr. David Scott of Georgia. All right. And Mr. Policinski.
    Mr. Policinski. Yes.
    Mr. David Scott of Georgia. Policinski.
    Mr. Policinski. Perfect.
    Mr. David Scott of Georgia. Wonderful. Tell me, we haven't 
discussed much, but tell me about science-based? What exactly 
is science-based voluntary labeling and just how critical is a 
voluntary label to your business?
    Mr. Policinski. Yes. First, science-based: Dr. Federoff did 
a good job talking about science-based decisions and how they 
are made. I think that as it relates to this topic of 
biotechnology and biotech traits, clearly the weight of the 
sciences, that the technology is safe. And that has been 
reinforced by a variety of agencies over 20 years, thousands of 
studies. So that is the first point. And our company is very 
interested in that as is the entire food industry.
    Second, the voluntary national labeling standard in the 
Pompeo-Butterfield bill just makes order out of a potentially 
chaotic situation of state-by-state labeling. That is, as you 
have heard from Mr. Dempsey, a situation that is not just 
another label. It is often characterized as that. And we do 
have products on the marketplace that are modified at the end 
of the system, for a new flavor, for example. But this change 
would extend all the way back through the food supply chain, 
right to the farm, the seeds that are chosen, the inventory of 
the seeds that are carried, the segregation of the crop, the 
transportation and distribution of a separate crop, the storage 
of those raw materials that are factories in separate 
facilities or storage areas, and then the segregation of the 
manufacturing process where we would have to run one technology 
and then clean the lines and then run another technology. I 
haven't yet gotten to the forward segregation of the supply 
chain when we ship and distribute goods to the grocery store, 
which again, would require segregation.
    So the reason we are so supportive of a voluntary national 
labeling standard, the Pompeo-Butterfield bill that was offered 
last year, is it makes order out of that potential chaos or 
complexity and saves cost.
    Mr. David Scott of Georgia. Thank you, sir. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman yields back. Mr. Bost, for 5 
minutes.
    Mr. Bost. Thank you, Mr. Chairman. First off, we probably 
went down this earlier, but I have been bouncing in and out of 
the room. Mr. Policinski, I would like to know if I can what 
your company is already--because Vermont has already passed a 
law. Are you preparing already and whether those costs that you 
are seeing and everything for one state and how you are going 
to handle it. Because I know we have talked about three 
different options that could be available. And where are you 
going with that at this time?
    Mr. Policinski. Congressman, we did talk about this and the 
bottom line is we have not decided. There are no good choices. 
The three choices that are often mentioned are don't ship to 
that state. Well, let me remind you that it is Vermont right 
now, but there are 26 states with pending legislation
    Mr. Bost. That is pending, yes.
    Mr. Policinski. Second, labeling or segregation, the second 
and third choices, are difficult and costly as I just tried to 
explain. I also want to outline, and you may have been out of 
the room when we talked about this, that the idea of not 
shipping to a state like Vermont is really a non-starter in my 
opinion because of the legal liability. Let us say that was a 
choice we made, which I am not advocating that. We would still 
be held accountable for the fact that any of the products we 
might ship to neighboring states would show up in Vermont, and 
the penalty there is substantial. I believe the Vermont 
legislation has a penalty of $1,000 per day per SKU. That is a 
very substantial penalty. And by the way, that is enforced by 
the Vermont Attorney General's Office, not the usual regulatory 
bodies that we work with because it is a violation of their 
law.
    So this is a very onerous situation. In all these paths, 
there are no good decisions there. They are all higher-cost 
decisions.
    Mr. Bost. Mr. Dempsey, did you want to----
    Mr. Dempsey. Let me just add that supermarkets are national 
in scope as well. So the decision not to sell in Vermont is 
more complicated by how you bring your product to market, 
whether it is DSD, direct store delivery, or through warehouse 
distribution.
    If you are shipping product into an Ahold store in 
Massachusetts, the Stop and Shop, the chances of that product 
being sent erroneously to Vermont are magnified many times so 
that you have supermarkets that are operating in four or five 
or six different states but the burden, at least in Vermont's 
law, is on the manufacturer to make sure that your product is 
not on those shelves.
    It really becomes a liability to the manufacturer to even 
ship to a grocery store who is doing business in many states. 
So there are a whole bunch of repercussions that come out of 
that system.
    Mr. Bost. Just to continue and maybe even a statement as I 
am continuing questions, as we deal with GMOs, okay, in our own 
family, we have had to deal with gluten-free. My wife is 
gluten-free. Companies automatically, voluntarily, mark their 
products as gluten-free to encourage the sales of those to 
those who are. What would be the difference here in this, 
proposing that it would be voluntary?
    Mr. Dempsey. A broader statement is that companies make 
products to sell them, and whatever they can do to sell them, 
to entice the consumer to purchase them, they are going to do, 
whether it is to go for organic certification or whether it is 
to go for GMO-free or to manufacture products that are gluten-
free. That information for that segment of the market is 
available from a marketing perspective of those companies. I 
see no difference between that and labeling everything else 
that this does contain gluten which is already in the 
nutritional----
    Mr. Bost. That is right. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Thank you. The gentleman yields back. Mr. 
Walz, for 5 minutes?
    Mr. Walz. Thank you, Mr. Chairman, and thank you all for 
your testimony. I think it is appropriate we are here. 
Tomorrow, March 25, would have been the 101st birthday of 
Minnesota graduate and researcher, Norman Borlaug, so the 
discussion we are having falls directly into that. And I am 
appreciative of all of your time and effort.
    I would point out, and we are trying to get to the heart of 
this, our responsibility in Congress and our responsibility I 
would argue each of you is to define a problem, gather the 
information, and then make correct assumptions to that, and 
that is what we are trying to get at.
    January 2015 Pew Research Center study came out and showed 
that 89 percent of scientists believe that GMOs are safe, that 
37 percent of the public did. And I am going to come back to 
this. Yes, it is the 800 pound gorilla in the room, but the 
science and the preponderance of the evidence on this seems to 
warrant where we are headed. And we can get into this issue 
with Norman Borlaug's position, with 12 billion people on the 
horizon for 2100, with the idea of how we are going to feed 
these people, but the problem we have in this place is you 
can't be selective when the preponderance of the evidence shows 
something. And we do that. And there better be some soul 
searching on both sides of the aisle on this, as to let the 
science and the research drive us to come up with conclusions 
that work. And it is important, both for consumer safety and 
sense of fairness.
    The point was brought up, Mr. Clarkson's point about 
ratcheting down the rhetoric is exactly it. But while I would 
make the argument, and I respectfully say, that the Chairman 
will run his Committee as he wants to. The questions that Mr. 
McGovern brought up, there should be some dissenting voices 
here or we end up in the situation like the outlandish 
situation in Florida where state officials can't talk about 
climate change. Well, you give a perception that there is 
something you don't want people to talk about. The evidence is 
clearly here that this is a way to feed people. It always has 
been. It is as much about Mesopotamia as it is about Monsanto, 
and that is the discussion that we have to have and have fairly 
so that we can make good decisions.
    And I am just troubled that we will go down a road. And 
there are some interesting things. Dr. Federoff, you brought up 
a good point. This one has always gotten me a little bit. 
Orange juice, for example, the Florida citrus folks, and they 
want to sell them. They label no GMOs on there. There are no 
GMO oranges. But here is the thing. There may need to be soon 
with the greening, the citrus greening disease, that is coming. 
So they may regret that decision that we are going to end up 
with those eventually, because of this new entrance into the 
environment.
    So I applaud all of you for being here. I would ask my 
colleagues, this gives us an opportunity to reset on some of 
these things. You can't say, wow. The preponderance of the 
evidence and the scientific consensus is nearly whole on this 
issue and then walk to another committee room and have the 
exact same folks. Now, I get it. There is 11 percent of 
scientists here. I bet you they are not egronimous that are 
part of that. And to bring in someone else in an unrelated 
field and use that, that is the outlier that Dr. Federoff said, 
and we are going to base our decisions on that. Because I would 
make this argument here as feeding the world's population, 
continuing to advance, continuing to do. The things you do is 
feed, clothe, and power the world, is going to involve a 
simultaneous discussion on climate change as it deals also with 
GMOs. And I wish we would have the maturity, the ability to be 
able to do what you all have clearly laid out today.
    And Ms. Lidback, I apologize for those people who would 
question you because you have the audacity to talk about the 
science. Trust me, it happens on other issues, too, 
unfortunately. But your willingness to come here and speak 
about this and talk about it, and the powerful thing here, too, 
just hearing this, the organic folks can make three times more. 
Well, good for them if they are going to be able to. And that 
is where we are at. We are not trying to stop that.
    But it is an important point and an important discussion 
that we cannot drive policy, whether it is on labeling or how 
we go about things that is not based on the evidence, that is 
not based on research, because that will lead to bad outcomes 
all the way around.
    So I want to thank each of you for being here. I want to 
ask my colleagues to have the courage to discuss these things 
as they are and then to come up with good solutions. And that 
shouldn't be all that difficult. The good news here is that our 
producers continue to be the most productive in the world. Our 
researchers continue to be the most innovative, and we are able 
to provide the most abundant, safest, affordable food supply in 
the world, and we can do that around the world. So this is an 
important discussion. It is broad, it is important, and I 
applaud each of you for continuing to bring it to the forefront 
and hopefully we will get a good solution for you and for the 
consumers. Thank you.
    The Chairman. The gentleman yields back. Mr. Emmer, for 5 
minutes?
    Mr. Emmer. Thank you, Mr. Chairman. And first to the panel, 
thank you for being here. And I apologize. I had to step out 
and come back. This is quite an operation in this place. You 
have several meetings all at the same time in different 
buildings, and there must be a better way to run the train 
station.
    Be that as it may, I respect your time. Listening to my 
colleague from Minnesota talk about there should be dissenting 
voices in the room, most of us would agree that if the world 
would just agree with our position, it would be a much better 
place to live in. But that doesn't happen. And somebody can 
correct me, but it was Bobby Kennedy that said something to the 
effect that if you can get the American public, 80 percent of 
the American public to agree on anything, that should be 
considered unanimous. And in this case, when you have 90 
percent of the science out there agreeing, that is pretty close 
to being unanimous.
    I want to go at this very quickly from a different--again, 
forgive me if somebody has already done this. I wasn't here. So 
please be patient with me. I want to go at it from the specific 
costs and break it down by level.
    Mrs. Lidback, you are running a dairy operation. You have 
costs that are going to be added on for--you talked about the 
inputs when I was here earlier. You were talking about the cost 
of feed. Aren't there other costs in terms of having to manage 
and record, get inspections, certification. Have you talked 
about those already today?
    Ms. Lidback. No. So beyond the feed, I mean, to keep milk 
segregated from cows fed non-GMO feed versus feed with GM, you 
would have to put in a second bulk tank and you have to put in 
a second grain bin. And so you are talking about capital 
expenditures, and as you can imagine, on a 50 cow dairy, there 
is really not a whole lot of extra left to go around to sort of 
fulfill those needs so that kind of consideration might be a 
deal-breaker for us.
    Mr. Emmer. Wow, and I was just thinking, labor. You and 
your husband are going to have to have some more kids in order 
to do this thing.
    Mr. Dempsey and anybody else, I want to go to the next 
level because we have the processors, those that have to put 
these products out. You talked about two lines, but it is much 
greater than that, isn't it? Aren't you going to have to hire 
all kinds of new staff to keep track of all these things? And 
then there are storage costs?
    Mr. Dempsey. Yes. The answer is the two lines refer to just 
having one state that mandated the labeling and everybody else 
who didn't. So there is significant input, depending on the 
number of states who have different regulations. But yes, all 
up and down the line as we talked, our grain is kept in masa, 
it is kept in separate silos. You have to have separate silos 
for that. The distribution changes would be significant because 
you have to keep track of various different strains of products 
going to different states, the same product but labeled 
differently. So the multipliers in cost come up with how many 
different labels you have to keep and how many different 
infrastructure you need to build to hold those.
    Mr. Emmer. Very quickly because this just adds, it 
compounds, as you go each level. And it wouldn't be fair if I 
didn't go to the Minnesota guy with the time that I have left.
    Mr. Policinski, farmers are interested in operating a 
business, raising their families. They want to produce quality 
product that can be sold the world over. I imagine in the 
farmers that I know, they don't much care for the litigation 
system if they can stay away from it. What are the concerns and 
the costs that could be put into this at every level when you 
talk about the legal ramifications? Aren't those just as big?
    Mr. Policinski. Yes. First, farmers are pretty savvy 
businessmen, and they have adopted this technology at record 
pace. Of all the technologies over all the years, this has been 
the one that has been adopted by farmers the most quickly and 
it is because they see the benefits so clearly to their 
operations, to the environment, less land and water, and to 
cost, to consumers. I think farmers have voted.
    What we are trying to do here in the discussion is preserve 
their choice of how they want to farm as well as provide 
consumer choice. And again, the Pompeo-Butterfield legislation 
that was proposed clearly affords that opportunity through 
developing a national standard----
    Mr. Emmer. Right.
    Mr. Policinski.--and a voluntary national standard. I think 
your comment on legal costs would pass through the system to 
ownership, and in our instance, we are a farmer-owned company.
    Mr. Emmer. Right.
    Mr. Policinski. We did have a discussion a couple of times 
now on how onerous it is to have a state law or a series of 
state laws, and if you chose not to serve those areas, the 
implications of legal liability would be very onerous.
    Ms. Lidback. Can----
    Mr. Emmer. And at the end of the day, it all gets passed 
onto the consumer. I am sorry, Ms.--
    Ms. Lidback. No, it is okay. I just wanted to add, Mr. 
Emmer, when I was trying to locate a non-GMO source for grain, 
I first of course started my own grain company, and they simply 
don't have the capacity either. They are already satisfying an 
organic grain distribution system as well as conventional. So 
they don't have the capacity for a non-GMO option, either
    Mr. Emmer. And again. Thank you all. My time has expired. 
Mr. Chairman and to the Ranking Member, thank you for having 
this hearing because it seems like everybody here is interested 
in a win/win for everybody.
    The Chairman. Thank you. The gentleman's time has expired. 
Mr. Costa, 5 minutes?
    Mr. Costa. Thank you very much, Mr. Chairman. I think this 
is not only a critical issue here in our country but also as it 
relates to the labeling issues, a critical issue as we 
negotiate these trade agreements, both with the European allies 
and as well as in Asia.
    I, Mr. Schmidt, was interested in your comments earlier on 
in terms of the polling sampling that you have taken and 
undergone, and what it really made me think about--and Dr., is 
it----
    Dr. Fedoroff. Federoff.
    Mr. Costa. Dr. Federoff, is our lack of consumer education 
related to risk assessment or risk management? If it were not 
for all of the technology that we have employed post-World War 
II with regards to food and food safety, we would not have the 
longevity or the healthy lifestyle that we enjoy today. While 
we have problems with obesity and other things, it is more 
related to choices people make, as opposed to the quality of 
the food that we have.
    How can we do a better job in educating folks about the 
better level of quality and the technologies that have been 
employed to make foods healthier and safer today?
    Mr. Schmidt. Well, thank you. I think you have identified 
some of the things that have come forward today, that this is 
not a science debate or a safety debate. It has come down to a 
communications debate. And sometimes as you indicated, people 
are faced with fear and risk, and it has almost become a cult 
following among some to oppose this technology without any 
demonstration of actual harm or safety risks.
    And so there needs to be even more leadership, whether it 
is Congress and the Administration, the industry, or academia 
to speak up, to have the bravery like Ms. Lidback to be 
steadfast with the facts, and there is strength in numbers. So 
the more people----
    Mr. Costa. A lot of the food processors and other companies 
and agricultural associations have tried to do education. I 
don't think it has been well-coordinated. But we do see that on 
occasion.
    When you talked about 97 percent of the scientists, Dr. 
Federoff, were you talking about the safety of genetically 
modified foods? The general perception is obviously not at that 
level in terms of safety?
    Dr. Fedoroff. Indeed. This is the pith hole that needs to 
be addressed by scientists across the board. That includes 
physicists and psychologists and economists and so forth. If 
you polled the claims of biologists who have used these 
techniques, you will be closer to 100 percent.
    But that is not the issue. I think as Mr. Schmidt 
identified, it is more about communication. And the problem is 
that our current system which has very big regulatory costs to 
get a GM product to market prevents academic scientists, 
scientists in public research institutions, from getting 
genetically modified----
    Mr. Costa. This is a real challenge.
    Dr. Fedoroff.--for example. Right.
    Mr. Costa. Especially in Europe right now.
    Dr. Fedoroff. You bet.
    Mr. Costa. We have a process for it. We have only been able 
to register a limited amount, and it is a lengthy and 
cumbersome process.
    Dr. Fedoroff. Correct.
    Mr. Costa. Trying to get agreement on the best science is 
always a challenge, and in some cases, let us be frank, it is 
used for basically leverage purposes as it relates to trade.
    Dr. Fedoroff. Absolutely. But let us just talk about here 
in the United States. If we could manage to make the process 
less onerous based on the accumulation of almost 40 years of 
research now, it would be possible to vet genetically modified 
fruits and vegetables. So a colleague of mine in England has 
developed a beautiful wine red tomato which is better for you 
because it has the same kinds of compounds in it that you have 
in blackberries and blueberries which are good for you. When 
people----
    Mr. Costa. My time is almost up.
    Dr. Fedoroff. Okay. So familiarity, we don't have those----
    Mr. Costa. No, I know.
    Dr. Fedoroff.--products in the market.
    Mr. Costa. Ms. Lidback, as a person who grew up on a 
Portuguese dairy farm, I want to commend you for your efforts 
and encourage you to stay with it. I, too, know what to do 
with, the word manure. I grew up in that same setting as you 
and your family. I want to commend you and encourage you for 
your efforts and your courage to testify here today.
    The Chairman. The gentleman's time has expired. Mr. Yoho, 
for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman, and Mr. Costa, being a 
veterinarian, large animal practitioner that earned a living on 
the south end of a north-bound horse or cow, it wasn't manure. 
It was fertilizer until it hit the ground.
    I appreciate you all being here, and we as the people in 
government--because government is a non-entity. It is only as 
good as the people that are involved in it, in all branches of 
it, that we need to do a better job on educating both us and 
government and the public on educating people and in public 
venues to get the best, the current, and the correct 
information out to the public that is updated and is based on 
peer-reviewed science, and it is stemming from accurate 
research. And we also need to do a better job of making current 
the information and policies on a website of what a GMO is and 
what it is not and keep agendas or politics out of it and let 
the facts speak for themselves.
    Dr. Federoff, if you could take us briefly through the 
process of taking a genetically modified product from the 
beginning to the market in less than a minute, I would be 
really appreciative if you could. But just the research that 
goes behind that before it is approved.
    Dr. Fedoroff. Okay. Let me try to summarize it really 
quickly. So to begin with, you have to identify the gene that 
you want to introduce. You have to introduce it into the 
organism. This is not a trivial process for a plant such as 
corn. You make a lot of these, put them in the greenhouse, 
figure out which ones and you take bits of the plant and you 
analyze it genetically by DNA sequencing and so forth. But then 
you have to check everything from testing the product of the 
gene for toxicity and allergenicity to putting together all of 
the dossiers that are required by the various agencies that 
need to approve that product. In some cases it has to be the 
EPA, the FDA, and the USDA.
    Mr. Yoho. And the USDA.
    Dr. Fedoroff. Okay? And in the case of animals, genetically 
modified animals, like AquaBounty salmon, it is even more 
onerous because the FDA has decided to regulate them like 
drugs.
    Mr. Yoho. And what you have done is adequate because it is 
years of research, years of studies, years of feed studies, and 
then the tissue samples and all those things that come with 
that, and it costs millions if not billions of dollars, and it 
finally does get the approval of USDA, the FDA, the EPA. We 
have a variety in Florida of a papaya that they have been 
working on for 10 years for rig spot virus. The EPA signed off 
on it. But yet, it is still not to market because of this GMO 
scare around it, and it needs to be approved.
    With the studies, are you aware of any peer-reviewed real 
studies that you know of that have proven to be deleterious or 
detrimental effects on humans, animals, plants, or the 
environment----
    Dr. Fedoroff. None.
    Mr. Yoho.--of a product.
    Dr. Fedoroff. There are occasional----
    Mr. Yoho. What was that?
    Dr. Fedoroff. None.
    Mr. Yoho. I just wanted to hear it again so----
    Dr. Fedoroff. Yes.
    Mr. Yoho.--so everybody heard that. None.
    Dr. Fedoroff. None. There are occasional anecdotal reports.
    Mr. Yoho. Anecdotal.
    Dr. Fedoroff. Very often, the publication is retracted or 
never gets published but gets into the social media and 
Internet and stuff.
    Mr. Yoho. Let me ask you all this. Would a GMO that had any 
deleterious effects to humans, animal, plants, or the 
environment ever get approved by the USDA, FDA, or EPA? So 
there was really--the science is on our side on these 
labelings. It is a marketing thing. So if a GMO has been 
approved by the USDA, one should rest assured that that product 
is as safe as any non-GMO product or it wouldn't be out there.
    In addition, we have been doing GMOs for 20, 30, 40 years. 
Mother Nature has been doing it since the beginning of time. We 
would not have wheat had the plants not cross-pollinated to 
form the wheat we have today, and tomatoes, as we know, comes 
from a toxic source, so do potatoes, the Solana family. And 
they are toxic. They are related to nightshade.
    Dr. Fedoroff. You bet.
    Mr. Yoho. Yet through genetic modification of Mother 
Nature, they have healed themselves, and we have what we have. 
And if we didn't have the GMOs today, I would hate to think 
what the food security of this world would be. In my home State 
of Florida when I graduated from veterinary college, we 
produced about 75 bushels of corn. That was a great yield. 
Today we are doing 250 to 275 bushels of corn on poor soil, and 
therefore, the common sense of the sound science that leads to 
the approval of the GMOs should not be overshadowed by the 
environmental McCarthyism of the anti-GMO crowd. And I just 
want to thank you for being out there, for being in the fight, 
and for standing up, Ms. Lidback. Like last time when we talked 
about this, we got a lot of hate mail. Hang tough because you 
are on the right side of the science. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Adams?
    Ms. Adams. Thank you, Mr. Chairman, and thank you to our 
guests today. There has been a lot of confusion over what 
qualifies as a label for food that contains ingredients derived 
from a GMO. Consumers I believe deserve to know what is in 
their food, but it is also necessary that FDA implement 
regulations to ensure that the labeling of GMO products is fair 
and standardized and transparent. Market-driven labeling 
ensures that the information they demand about the food being 
sold is clear and accurate without the confusion of dozens of 
different labels.
    Mr. Clarkson, your testimony indicated that the best way to 
support consumers is through a national standard that includes 
a voluntary labeling program. So if the program is voluntary, 
how long would you expect for retailers and producers to begin 
participating in the program?
    Mr. Clarkson. Well, there are quite a few retailers and 
processors participating in private programs right now that 
would quickly switch to a national definition enforced by the 
USDA. So I would expect within a year you would see very 
significant movement toward the national standard usage.
    Ms. Adams. As a follow-up, GMO crops are often sprayed with 
high amounts of herbicide since they can survive being sprayed 
in Round-Up. This may wash into lakes and streams. Mother 
Nature eventually takes its course and weeds may become 
resistant to a chemical, thus requiring the use of more toxic 
herbicides.
    Here is my question: how can we work with farmers to 
improve crop rotation so that weeds don't become resistant to 
herbicides so quickly?
    Mr. Clarkson. That would involve using multiple approaches 
to weed control rather than a single approach. It would involve 
rotations of crops. It would involve use of cover crops, all of 
which are projects that are under way. And we are starting to 
see benefits from those.
    Ms. Adams. Thank you. Mr. Schmidt, last summer your group 
conducted a survey to engage Americans' views of foods 
containing bioengineered ingredients. How do consumers view the 
current FDA policy allowing voluntary labeling for food 
products through biotechnology?
    Mr. Schmidt. Thank you, Ms. Adams. Our survey found that 63 
percent of U.S. consumers support the current FDA policy that 
says that there should not be any special labeling of foods 
produced through biotechnology unless there is a change in the 
nutritional content, introduction of a safety issue such as an 
allergen, and even then, you would identify what that change 
was, not the process used to produce the product. And so 
Americans do--so it is a case of when you explain information 
and give consumers credit, they tend to understand it and 
support it.
    Ms. Adams. All right. Thank you very much, and Mr. 
Chairman, I yield back.
    Mr. Austin Scott of Georgia [presiding]. Thank you for 
being here, ladies and gentlemen, and I will try to be brief. 
One of my concerns is not only that this labeling stop at the 
state level but that you could actually see individual counties 
and municipalities trying to come up with their own labeling 
standards. And therefore, you have six, seven, eight different 
standards in any given state. That would obviously have a 
tremendous impact on business owners, the grocery retailers, on 
the one side of the county line or city limit sign versus those 
who were on the other side.
    I would typically steer toward states' rights on these 
issues. This is one where I do believe that without a uniform 
standard, we are going to see tremendous increases in the cost 
of groceries for the American citizen.
    I will also tell you that this is a perception issue, and 
the more times we use the initials GMO or genetically modified, 
the worse it is for us. The term biotechnology, is a more 
accurate description of what we are using to get across where 
we actually use less pesticides and less herbicides. We don't 
want to put those things on our land. They cost money to apply 
them, and we as farmers want a clean environment as well.
    It is interesting this past week as I listened--my wife and 
I were blessed to have a little girl, and I listened to the 
midwife as she was talking about groceries in making sure that 
they had no GMOs, and at the same time she turned around and 
recommended a tremendous number of things that were also 
products of biotechnology. And my wife suggested I shouldn't 
say anything to her because she might be delivering our 
daughter, but now that our daughter is here, I am free to say 
some of those things.
    But the misperception out there has to be addressed. 
Biotechnology has made our life better, whether it is through 
pharmaceuticals or whether it is through our crops. And if I go 
to the Land O' Lakes' website, I can look up Land O' Lakes 
butter, and I know exactly what is in the products that I am 
consuming. This isn't about what is in the products that we 
eat. It is about what is in the seed that is planted. And I 
wonder if the same advocates for the labeling of our food 
supply, why aren't they suggesting that it should be done in 
our pharmaceutical supply as well because those are the things 
that we ingest.
    So again, just reiterating, and Mr. Schmidt, I will go to 
you since we are down to 2 minutes. The use of biotechnology 
for our food and agriculture and pharmaceutical products have 
made our lives better. We are living longer than we ever have. 
Americans eat hundreds of millions of meals a day, literally. 
And my question is, how would it impact our ability to provide 
affordable and nutritious food to the American families, and 
would it not raise the cost of food, thereby hurting low-income 
Americans more than anybody, if we are not able to come up with 
a uniform labeling standard?
    Mr. Schmidt. I have to say we have not done the economic 
studies ourselves, but you have heard some very compelling 
testimony from the panel regarding the economics of this, I 
just think in general everyone wants to provide an informed 
choice for consumers, but that word informed is critical. And 
too often we are allowing misinformed choices out there by not 
standing up and correcting misinformation in the marketplace. 
So that is the opportunity to be transparent, to provide as 
much information as possible that meets consumer interest and 
demand, while also keeping the marketplace fair for accurate 
information on food and nutrition.
    Mr. Austin Scott of Georgia. Do you see any movement to 
label anything other than agricultural products with the same 
type of skull and crossbones, if you will?
    Mr. Schmidt. Yes. As a communications group we hear ideas 
about labeling lots of different things. We know other 
industries--there has been some discussion about the alcohol 
industry, some calling for labeling there as well. You can ask 
consumers in general, would you like X to be labeled, and if 
you make it sound scary enough, everyone is going to say yes. 
And that is the thing about technology. It is easy to make it 
sound scary. Maybe it is less interesting to say that it is 
safe and effective, but those are the facts.
    Mr. Austin Scott of Georgia. Well, the fact that Americans 
eat hundreds of millions of meals a day and we spend less for 
food than virtually any other industrialized nation out there 
is proof that what we have been doing is working, and if it 
wasn't, our life expectancy wouldn't be continuing to expand.
    So thank you very much for being here. With that, I will 
turn it back over to the big Chairman.
    The Chairman [presiding]. I want to thank the panel for 
being here today. Dr. Federoff, a couple of things.
    You were about to finish your comments about Round-Up and 
also from responding to Ms. Adams' comments--she had some 
question about Round-Up or glyphosate that you were going to 
answer. Did you have any comments about that one statement that 
came out Friday?
    Dr. Fedoroff. Only that the preponderance of studies shows 
it to be safe and not carcinogenic. The current ruling of the 
UN body, the cancer, IARC or something like that, is not based 
on any new information.
    The Chairman. Okay. The overall weight, just to be crystal 
clear, the overall weight, the preponderance of the evidence, 
is that--and I am going to get with Mr. Schmidt. I want to use 
your bioengineered, genetically engineered--the weight, Dr. 
Federoff, is that it is safe and that it is--I am just using in 
reference to Mr. Schmidt because he told me to use something 
other than GMO because that is fairly pejorative.
    Voice. He wants you to----
    The Chairman. Let us just stay with you, Dr. Federoff. The 
preponderance of the science is that bioengineered--
    Dr. Fedoroff. The food----
    The Chairman.--processing is safe.
    Dr. Fedoroff. The current biotechnologically altered food 
crops and potentially animals are as safe as their non-GM 
counterparts.
    The Chairman. All right.
    Dr. Fedoroff. I am afraid that GM label is going to stick. 
It is the fastest thing to call it.
    The Chairman. I got you. Well, again, we thank the panel 
for coming today and spending your time with us. Ms. Lidback, I 
hope it doesn't repeat your experience from last year, and if 
it does, well, it is a shame. It is unfortunate, because we 
could all have differences of opinion. Dr. Federoff, you said 
those opinions ought to be based in fact. We don't have any 
requirement for that, but it ought to be the case, and we hope 
that this hearing today sheds some light on a really important 
issue.
    Well, for those on the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a Member. This hearing 
of the Committee on Agriculture is adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   Submitted Articles by Hon. James P. McGovern, a Representative in 
                      Congress from Massachusetts
International Agency for Research on Cancer (IARC), World Health 
        Organization
IARC Monographs Volume 112: Evaluation of Five Organophosphate 
        Insecticides and Herbicides
20 March 2015

    Lyon, France, 20 March 2015--The International Agency for Research 
on Cancer (IARC), the specialized cancer agency of the World Health 
Organization, has assessed the carcinogenicity of five organophosphate 
pesticides. A summary of the final evaluations together with a short 
rationale have now been published online in The Lancet Oncology,* and 
the detailed assessments will be published as Volume 112 of the IARC 
Monographs.
---------------------------------------------------------------------------
    * Editor's note: the referenced summary is included as attachment.

---------------------------------------------------------------------------
    What were the results of the IARC evaluations?

    The herbicide glyphosate and the insecticides malathion and 
diazinon were classified as probably carcinogenic to humans (Group 2A).
    The insecticides tetrachlorvinphos and parathion were classified as 
possibly carcinogenic to humans (Group 2B).

    What was the scientific basis of the IARC evaluations?

    The pesticides tetrachlorvinphos and parathion were classified as 
possibly carcinogenic to humans (Group 2B) based on convincing evidence 
that these agents cause cancer in laboratory animals.
    For the insecticide malathion, there is limited evidence of 
carcinogenicity in humans for non-Hodgkin lymphoma and prostate cancer. 
The evidence in humans is from studies of exposures, mostly 
agricultural, in the USA, Canada, and Sweden published since 2001. 
Malathion also caused tumours in rodent studies. Malathion caused DNA 
and chromosomal damage and also disrupted hormone pathways.
    For the insecticide diazinon, there was limited evidence of 
carcinogenicity in humans for non-Hodgkin lymphoma and lung cancer. The 
evidence in humans is from studies of agricultural exposures in the USA 
and Canada published since 2001. The classification of diazinon in 
Group 2A was also based on strong evidence that diazinon induced DNA or 
chromosomal damage.
    For the herbicide glyphosate, there was limited evidence of 
carcinogenicity in humans for non-Hodgkin lymphoma. The evidence in 
humans is from studies of exposures, mostly agricultural, in the USA, 
Canada, and Sweden published since 2001. In addition, there is 
convincing evidence that glyphosate also can cause cancer in laboratory 
animals. On the basis of tumours in mice, the United States 
Environmental Protection Agency (http://www.epa.gov/opp00001/
chem_search/cleared_reviews/csr_PC-103601_30-Oct-91--265.pdf) (U.S. 
EPA) originally classified glyphosate as possibly carcinogenic to 
humans (Group C) in 1985. After a re-evaluation of that mouse study, 
the U.S. EPA changed its classification to evidence of non-
carcinogenicity in humans (Group E) in 1991. The U.S. EPA Scientific 
Advisory Panel noted that the re-evaluated glyphosate results were 
still significant using two statistical tests recommended in the IARC 
Preamble (http://monographs.iarc.fr/ENG/Preamble/index.php). The IARC 
Working Group that conducted the evaluation considered the significant 
findings from the U.S. EPA report and several more recent positive 
results in concluding that there is sufficient evidence of 
carcinogenicity in experimental animals. Glyphosate also caused DNA and 
chromosomal damage in human cells, although it gave negative results in 
tests using bacteria. One study in community residents reported 
increases in blood markers of chromosomal damage (micronuclei) after 
glyphosate formulations were sprayed nearby.

    How are people exposed to these pesticides?

    Tetrachlorvinphos is banned in the European Union. In the USA, it 
continues to be used on livestock and companion animals, including in 
pet flea collars. No information was available on use in other 
countries.
    Parathion use has been severely restricted since the 1980s. All 
authorized uses were cancelled in the European Union and the USA by 
2003.
    Malathion is currently used in agriculture, public health, and 
residential insect control. It continues to be produced in substantial 
volumes throughout the world. Workers may be exposed during the use and 
production of malathion. Exposure to the general population is low and 
occurs primarily through residence near sprayed areas, home use, and 
diet.
    Diazinon has been applied in agriculture and for control of home 
and garden insects. Production volumes have been relatively low and 
decreased further after 2006 due to restrictions in the USA and the 
European Union. Only limited information was available on the use of 
these pesticides in other countries.
    Glyphosate currently has the highest global production volume of 
all herbicides. The largest use worldwide is in agriculture. The 
agricultural use of glyphosate has increased sharply since the 
development of crops that have been genetically modified to make them 
resistant to glyphosate. Glyphosate is also used in forestry, urban, 
and home applications. Glyphosate has been detected in the air during 
spraying, in water, and in food. The general population is exposed 
primarily through residence near sprayed areas, home use, and diet, and 
the level that has been observed is generally low.

    What do Groups 2A and 2B mean?

    Group 2A means that the agent is probably carcinogenic to humans. 
This category is used when there is limited evidence of carcinogenicity 
in humans and sufficient evidence of carcinogenicity in experimental 
animals. Limited evidence means that a positive association has been 
observed between exposure to the agent and cancer but that other 
explanations for the observations (called chance, bias, or confounding) 
could not be ruled out. This category is also used when there is 
limited evidence of carcinogenicity in humans and strong data on how 
the agent causes cancer.
    Group 2B means that the agent is possibly carcinogenic to humans. A 
categorization in Group 2B often means that there is convincing 
evidence that the agent causes cancer in experimental animals but 
little or no information about whether it causes cancer in humans.

    Why did IARC evaluate these pesticides?

    The IARC Monographs Programme has evaluated numerous pesticides, 
some as recently as 2012 (anthraquinone, (http://monographs.iarc.fr/
ENG/Monographs/vol101/mono101-001.pdf) arsenic and arsenic compounds 
(http://monographs.iarc.fr/ENG/Monographs/vol100C/mono100C-6.pdf)). 
However, substantial new data are available on many pesticides that 
have widespread exposures. In 2014, an international Advisory Group 
(http://www.thelancet.com/journals/lanonc/article/PIIS1470-
2045%2814%2970168-8/fulltext) of senior scientists and government 
officials recommended dozens of pesticides for evaluation. Consistent 
with the advice of the Advisory Group, the recent IARC meeting provided 
new or updated evaluations on five organophosphate pesticides.

    How were the evaluations conducted?

    The established procedure for Monographs evaluations is described 
in the Programme's Preamble (http://monographs.iarc.fr/ENG/Preamble/
index.php). Evaluations are performed by panels of international 
experts, selected on the basis of their expertise and the absence of 
real or apparent conflicts of interest. For Volume 112, a Working Group 
of 17 experts from 11 countries met at IARC on 3-10 March 2015 to 
assess the carcinogenicity of tetrachlorvinphos, parathion, malathion, 
diazinon, and glyphosate. The in-person meeting followed nearly a year 
of review and preparation by the IARC secretariat and the Working 
Group, including a comprehensive review of the latest available 
scientific evidence. According to published procedures (http://
monographs.iarc.fr/ENG/Preamble/index.php), the Working Group 
considered ``reports that have been published or accepted for 
publication in the openly available scientific literature'' as well as 
``data from governmental reports that are publicly available''. The 
Working Group did not consider summary tables in online supplements to 
published articles, which did not provide enough detail for independent 
assessment.

    What are the implications of the IARC evaluations?

    The Monographs Programme provides scientific evaluations based on a 
comprehensive review of the scientific literature, but it remains the 
responsibility of individual governments and other international 
organizations to recommend regulations, legislation, or public health 
intervention.
    Media inquiries: please write to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b4b8ba97beb6a5b4f9b1a5f9">[email&#160;protected]</a> Thank you.
                               attachment
    www.thelancet.com/oncology Published online March 20, 2014 http://
dx.doi.org/10.1016/S1470-2045(15)70134-8
News
---------------------------------------------------------------------------
     Lancet Oncol. 2015 Published Online March 20, 2015 http://
dx.doi.org/10.1016/S1470-2045(15)70134-8.
      For more on the IARC Monographs see http://monographs.iarc.fr.

    Upcoming meetings

      June 2-9, 2015, Volume 113: Some organochlorine insecticides and 
some chlorphenoxy herbicides
      Oct. 6-13, 2015, Volume 114: Red meat and processed meat 
Monograph Working Group

    Members

      A. Blair (USA)--Meeting Chair; L. Fritschi (Australia); J. 
McLaughlin; C.M. Sergi (Canada); G.M. Calaf (Chile); F. Le Curieux 
(Finland); I. Baldi (France); F. Forastiere (Italy); H. Kromhout 
(Netherlands); A.`t Mannetje (New Zealand); T. Rodriguez [unable to 
attend] (Nicaragua); P. Egeghy [unable to attend], G.D. Jahnke; C.W. 
Jameson; M.T. Martin; M.K. Ross; I. Rusyn; L. Zeise (USA)

    Invited Specialists

      C. Portier (Switzerland)

    Representatives

      M.E. Gouze, for the French Agency for Food, Environment and 
Occupational Health and Safety (France); J. Rowland, for the U.S. 
Environmental Protection Agency (USA)

    Observers

      M.K. Boye Jensen, for Cheminova (Denmark); B. Fervers, for the 
Leon Berard Centre (France); E. Giroux, for University Jean-Moulin Lyon 
3 (France); T. Sorahan, for Monsanto Company (USA); C. Strupp, for the 
European Crop Protection Association (Belgium); P. Sutton, for the 
University of California, San Francisco (USA)

    IARC/WHO Secretariat

      L. Benbrahim-Tallaa; R. Carel; F. El Ghissassi; Sonia El-Zaemey; 
Y. Grosse; N. Guha; K.Z. Guyton; C. Le Cornet; M. Leon; D. Loomis; H. 
Mattock; C. Scoccianti; A. Shapiro; K. Straif; J. Zavadil

    For the Preamble to the IARC Monographs see http://
monographs.iarc.fr/ENG/Preamble/index.php.
    For declarations of interests see http://monographs.iarc.fr/ENG/
Meetings/vol112-participants.pdf.
---------------------------------------------------------------------------
Carcinogenicity of tetrachlorvinphos, parathion, malathion, diazinon, 
        and glyphosate
    In March, 2015, 17 experts from 11 countries met at the 
International Agency for Research on Cancer (IARC; Lyon, France) to 
assess the carcinogenicity of the organophosphate pesticides 
tetrachlorvinphos, parathion, malathion, diazinon, and glyphosate 
(table). These assessments will be published as volume 112 of the IARC 
Monographs.\1\
    The insecticides tetrachlorvinphos and parathion were classified as 
``possibly carcinogenic to humans'' (Group 2B). The evidence from human 
studies was scarce and considered inadequate. Tetrachlorvinphos induced 
hepatocellular tumours (benign or malignant) in mice, renal tubule 
tumours (benign or malignant) in male mice,\2\ and spleen haemangioma 
in male rats. Tetrachlorvinphos is a reactive oxon with affinity for 
esterases. In experimental animals, tetrachlorvinphos is systemically 
distributed, metabolised, and eliminated in urine. Although bacterial 
mutagenesis tests were negative, tetrachlorvinphos induced genotoxicity 
in some assays (chromosomal damage in rats and in vitro) and increased 
cell proliferation (hyperplasia in rodents). Tetrachlorvinphos is 
banned in the European Union. In the USA, it continues to be used on 
animals, including in pet flea collars.
    For parathion, associations with cancers in several tissues were 
observed in occupational studies, but the evidence in humans remains 
sparse. In mice, parathion increased bronchioloalveolar adenoma and/or 
carcinoma in males, and lymphoma in females. In rats, parathion induced 
adrenal cortical adenoma or carcinoma (combined),\3\ malignant 
pancreatic tumours, and thyroid follicular cell adenoma in males, and 
mammary gland adenocarcinoma (after subcutaneous injection in 
females).\4\ Parathion is rapidly absorbed and distributed. Parathion 
metabolism to the bioactive metabolite, paraoxon, is similar across 
species. Although bacterial mutagenesis tests were negative, parathion 
induced DNA and chromosomal damage in human cells in vitro. Parathion 
markedly increased rat mammary gland terminal end bud density.\4\ 
Parathion use has been severely restricted since the 1980s.
    The insecticides malathion and diazinon were classified as 
``probably carcinogenic to humans'' (Group 2A). Malathion is used in 
agriculture, public health, and residential insect control. It 
continues to be produced in substantial volumes throughout the world. 
There is limited evidence in humans for the carcinogenicity of 
malathion. Case-control analyses of occupational exposures reported 
positive associations with non-Hodgkin lymphoma in the USA,\5\ 
Canada,\6\ and Sweden,\7\ although no increased risk of non-Hodgkin 
lymphoma was observed in the large Agricultural Health Study cohort 
(AHS). Occupational use was associated with an increased risk of 
prostate cancer in a Canadian case-control study \8\ and in the AHS, 
which reported a significant trend for aggressive cancers after 
adjustment for other pesticides.\9\ In mice, malathion increased 
hepatocellular adenoma or carcinoma (combined).\10\ In rats, it 
increased thyroid carcinoma in males, hepatocellular adenoma or 
carcinoma (combined) in females, and mammary gland adenocarcinoma after 
subcutaneous injection in females.\4\ Malathion is rapidly absorbed and 
distributed. Metabolism to the bioactive metabolite, malaoxon, is 
similar across species. Malaoxon strongly inhibits esterases; atropine 
reduced carcinogenesis-related effects in one study.\4\ Malathion 
induced DNA and chromosomal damage in humans, corroborated by studies 
in animals and in vitro. Bacterial mutagenesis tests were negative. 
Compelling evidence supported disruption of hormone pathways. Hormonal 
effects probably mediate rodent thyroid and mammary gland 
proliferation.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                 Activity (current status)             Evidence in humans (cancer sites)       Evidence in animals              Mechanistic evidence            Classification *
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Tetrachlorvinphos        Insecticide (restricted in the EU and     Inadequate                                Sufficient                                                                     2B
                          for most uses in the USA)
Parathion                Insecticide (restricted in the USA and    Inadequate                                Sufficient                                                                     2B
                          EU)
Malathion                Insecticide (currently used; high         Limited (non-Hodgkin lymphoma, prostate)  Sufficient               Genotoxicity, oxidative stress,                        2A
                          production volume chemical)                                                                                  inflammation, receptor-mediated
                                                                                                                                       effects, and cell proliferation or
                                                                                                                                       death
Diazinon                 Insecticide (restricted in the USA and    Limited (non-Hodgkin lymphoma,            Limited                  Genotoxicity and oxidative stress                      2A
                          EU)                                       leukaemia, lung)
Glyphosate               Herbicide (currently used; highest        Limited (non-Hodgkin lymphoma)            Sufficient               Genotoxicity and oxidative stress                      2A
                          global production volume herbicide)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
EU=European Union. * See the International Agency for Research on Cancer (IARC) preamble for explanation of classification system (amended January, 2006).  The 2A classification of diazinon
  was based on limited evidence of carcinogenicity in humans and experimental animals, and strong mechanistic evidence; for malathion and glyphosate, the mechanistic evidence provided
  independent support of the 2A classification based on evidence of carcinogenicity in humans and experimental animals.
Table: IARC classification of some organophosphate pesticides

    Diazinon has been applied in agriculture and for control of home 
and garden insects. There was limited evidence for diazinon 
carcinogenicity in humans. Positive associations for non-Hodgkin 
lymphoma, with indications of exposure-response trends, were reported 
by two large multicentre case-control studies of occupational 
exposures.\5\<SUP>, </SUP>\6\ The AHS reported positive associations 
with specific subtypes, which persisted after adjustment for other 
pesticides, but no overall increased risk of non-Hodgkin lymphoma.\11\ 
Support for an increased risk of leukaemia in the AHS was strengthened 
by a monotonic increase in risk with cumulative diazinon exposure after 
adjustment for other pesticides. Multiple updates from the AHS 
consistently showed an increased risk of lung cancer with an exposure-
response association that was not explained by confounding by other 
pesticides, smoking, or other established lung cancer risk factors.\12\ 
Nonetheless, this finding was not replicated in other populations. In 
rodents, diazinon increased hepatocellular carcinoma in mice and 
leukaemia or lymphoma (combined) in rats, but only in males receiving 
the low dose in each study. Diazinon induced DNA or chromosomal damage 
in rodents and in human and mammalian cells in vitro. Some additional 
support for human relevance was provided by a positive study of a small 
number of volunteers exposed to a diazinon formulation.\13\
    Glyphosate is a broad-spectrum herbicide, currently with the 
highest production volumes of all herbicides. It is used in more than 
750 different products for agriculture, forestry, urban, and home 
applications. Its use has increased sharply with the development of 
genetically modified glyphosate-resistant crop varieties. Glyphosate 
has been detected in air during spraying, in water, and in food. There 
was limited evidence in humans for the carcinogenicity of glyphosate. 
Case-control studies of occupational exposure in the USA,\14\ 
Canada,\6\ and Sweden \7\ reported increased risks for non-Hodgkin 
lymphoma that persisted after adjustment for other pesticides. The AHS 
cohort did not show a significantly increased risk of non-Hodgkin 
lymphoma. In male CD-1 mice, glyphosate induced a positive trend in the 
incidence of a rare tumour, renal tubule carcinoma. A second study 
reported a positive trend for haemangiosarcoma in male mice.\15\ 
Glyphosate increased pancreatic islet-cell adenoma in male rats in two 
studies. A glyphosate formulation promoted skin tumours in an 
initiation-promotion study in mice.
    Glyphosate has been detected in the blood and urine of agricultural 
workers, indicating absorption. Soil microbes degrade glyphosate to 
aminomethylphosphoric acid (AMPA). Blood AMPA detection after 
poisonings suggests intestinal microbial metabolism in humans. 
Glyphosate and glyphosate formulations induced DNA and chromosomal 
damage in mammals, and in human and animal cells in vitro. One study 
reported increases in blood markers of chromosomal damage (micronuclei) 
in residents of several communities after spraying of glyphosate 
formulations.\16\ Bacterial mutagenesis tests were negative. 
Glyphosate, glyphosate formulations, and AMPA induced oxidative stress 
in rodents and in vitro. The Working Group classified glyphosate as 
``probably carcinogenic to humans'' (Group 2A).
    We declare no competing interests.

    Kathryn Z Guyton, Dana Loomis, Yann Grosse, Fatiha El Ghissassi, 
Lamia Benbrahim-Tallaa, Neela Guha, Chiara Scoccianti, Heidi Mattock, 
Kurt Straif, on behalf of the International Agency for Research on 
Cancer Monograph Working Group, IARC, Lyon, France International Agency 
for Research on Cancer, Lyon, France
Endnotes
    \1\ International Agency for Research on Cancer Volume 112: Some 
organophosphate insecticides and herbicides: tetrachlorvinphos, 
parathion, malathion, diazinon and glyphosate. IARC Working Group. 
Lyon; 3-10 March 2015. IARC Monogr. Eval. Carcinog. Risk Chem. Hum. (in 
press).
    \2\ Parker C.M., Van Gelder G.A., Chai E.Y., et al. Oncogenic 
evaluation of tetrachlorvinphos in the B6C3F1 mouse. Fundam. Appl. 
Toxicol. 1985; 5: 840-54.
    \3\ National Toxicology Program. Bioassay of parathion for possible 
carcinogenicity. Natl. Cancer. Inst. Carcinog. Tech. Rep. Ser. 1979; 
70: 1-123.
    \4\ Cabello G., Valenzuela M., Vilaxa A., et al. A rat mammary 
tumor model induced by the organophosphorous pesticides parathion and 
malathion, possibly through acetylcholinesterase inhibition. Environ. 
Health Perspect. 2001; 109: 471-79.
    \5\ Waddell B.L., Zahm S.H., Baris D., et al. Agricultural use of 
organophosphate pesticides and the risk of non-Hodgkin's lymphoma among 
male farmers (United States). Cancer Causes Control 2001; 12: 509-17.
    \6\ McDuffie H.H., Pahwa P., McLaughlin J.R., et al. Non-Hodgkin's 
lymphoma and specific pesticide exposures in men: cross-Canada study of 
pesticides and health. Cancer Epidemiol. Biomarkers Prev. 2001; 10: 
1155-63.
    \7\ Eriksson M, Hardell L, Carlberg M, Akerman M. Pesticide 
exposure as risk factor for non-Hodgkin lymphoma including 
histopathological subgroup analysis. Int. J. Cancer 2008; 123: 1657-63.
    \8\ Band P.R., Abanto Z., Bert J., et al. Prostate cancer risk and 
exposure to pesticides in British Columbia farmers. Prostate 2011; 71: 
168-83.
    \9\ Koutros S., Beane, Freeman L.E., et al. Risk of total and 
aggressive prostate cancer and pesticide use in the Agricultural Health 
Study. Am. J. Epidemiol. 2013; 177: 59-74.
    \10\ U.S. Environmental Protection Agency. Peer review of 
malathion: 18-month carcinogenicity study in mice. http://www.epa.gov/
opp00001/chem_search/cleared_reviews/csr_PC-057701_undated_004.pdf 
(accessed March 6, 2015).
    \11\ Alavanja M.C., Hofmann J.N., Lynch C.F., et al. Non-Hodgkin 
lymphoma risk and insecticide, fungicide and fumigant use in the 
agricultural health study. PLoS ONE 2014; 9: e109332.
    \12\ Jones R.R., Barone-Adesi F., Koutros S., et al. Incidence of 
solid tumors among pesticide applicators exposed to the organophosphate 
insecticide diazinon in the Agricultural Health Study: an updated 
analysis. Occup. Environ. Med. 2015 (in press).
    \13\ Hatjian B.A., Mutch E., Williams F.M., Blain P.G., Edwards 
J.W. Cytogenetic response without changes in peripheral cholinesterase 
enzymes following exposure to a sheep dip containing diazinon in vivo 
and in vitro. Mutat. Res. 2000; 472: 85-92.
    \14\ De Roos A.J., Zahm S.H., Cantor K.P., et al. Integrative 
assessment of multiple pesticides as risk factors for non-Hodgkin's 
lymphoma among men. Occup. Environ. Med. 2003; 60: E11.
    \15\ WHO/FAO. Glyphosate. Pesticides residues in food 2004 Joint 
FAO/WHO Meeting on Pesticides Residues. Part II Toxicological. IPCS/WHO 
2004; 95-162. http://www.who.int/foodsafety/areas--work/chemical-risks/
jmpr/en/ (accessed March 6, 2015).
    \16\ Bolognesi C., Carrasquilla G., Volpi S., Solomon K.R., 
Marshall E.J. Biomonitoring of genotoxic risk in agricultural workers 
from fi ve Colombian regions: association to occupational exposure to 
glyphosate. J. Toxicol. Environ. Health A. 2009; 72: 986-97.
                                 ______
                                 
   Submitted Article by Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
Bundesinstitut fur Risikobewertung
Does glyphosate cause cancer?
www.bfr.bund.de
BfR Communication No 007/2015, 23 March 2015

    In its recent evaluation from March 2015, the International Agency 
for Cancer Research (IARC), as the specialized cancer agency of the 
World Health Organization (WHO), came to the conclusion that glyphosate 
should now be classified as a carcinogenic substance in Group 2A 
(probably carcinogenic to humans), based on ``limited evidence'' in 
human-experiments and ``sufficient evidence'' in animal-experiments. 
This classification was published in a short report in the ``Lancet'' 
journal on 20 March 2015.
    As the ``Rapporteur Member State'' for the active substance 
glyphosate within the framework of EU re-evaluation, the Federal 
Institute for Risk Assessment (BfR) was responsible for the human 
health risk assessment and has assessed glyphosate as non-carcinogenic. 
This was supported by competent national, European and other 
international institutions for health assessment including the WHO/FAO 
Joint Meeting on Pesticide Residues (JMPR). BfR is therefore issuing 
its comments on this classification by IARC based on the published 
short report.
    The International Agency for Research on Cancer (IARC) is the 
specialized cancer agency of the World Health Organization. The main 
objective of the IARC is to promote international collaboration in 
cancer research. The evaluations of carcinogenic risk are made by 
international working groups of independent scientists and are 
qualitative in nature. No recommendation is given for regulation or 
legislation. For this reason, 17 experts from 11 countries met at the 
International Agency for Research on Cancer (IARC; Lyon, France) in 
March 2015 in order to assess the carcinogenic or potentially 
carcinogenic effects of four organophosphates and glyphosate. The 
working group classified glyphosate as ``probably carcinogenic to 
humans''. This assessment will be published as volume 112 of the IARC 
Monographs.
    In the opinion of BfR, the classification of glyphosate as 
``carcinogenic in Group 2A'' (probably carcinogenic to humans) as 
published in the 20 March 2015 issue of the ``Lancet'' journal comes as 
a surprise, since other evaluations performed by supranational bodies 
such as the WHO-Panel of the Joint Meeting of Pesticide residues (JMPR, 
2004), and also by national regulatory agencies such as the U.S. EPA 
had concluded the contrary, i.e., that glyphosate was not carcinogenic. 
Unfortunately, the database on which the IARC evaluation is based is 
not known, since a background monograph that is usually produced by 
IARC following the evaluation meetings has not yet been released. 
Therefore, a comprehensive and scientifically sound consideration of 
the data and arguments that led to the IARC- conclusion is simply not 
possible at the moment.
    In addition, Germany is the ``Rapporteur Member State'' in the 
ongoing reevaluation process of glyphosate in the EU. For this purpose, 
an extensive ``Renewal Assessment Report'' (RAR) was provided in 2013 
and has been revised in 2014 and again in 2015. The 2013 report was 
circulated by EFSA to the EU Member States and was made available for 
public consultation in 2014. Revisions were made to take into account 
the several hundred comments and remarks. The toxicological and residue 
chapters of the report have been prepared by the Federal Institute for 
Risk Assessment (BfR). For this purpose, BfR has compiled the most 
comprehensive toxicological database, presumably worldwide, for 
glyphosate. This database comprises hundreds of studies that were 
performed by or on behalf of the many manufacturers of glyphosate and 
thousands of references from the open literature. This huge amount of 
data makes glyphosate nearly unique among the active substances in 
plant protection products. BfR thinks that the entire database must be 
taken into account for toxicological evaluation and risk assessment of 
a substance and not merely a more or less arbitrary selection of 
studies.
    In the absence of more reliable information from IARC, BfR has 
tried to allocate the findings that are mentioned in the brief 
``Lancet'' publication to certain studies in our database and, by doing 
that, to put them into perspective.
    The new IARC classification for glyphosate as a carcinogenic 
substance is based firstly on ``limited evidence'' in humans. This risk 
is derived from three epidemiological studies in the USA, Canada and 
Sweden based on a statistical correlation between exposure to 
glyphosate and an increased risk of non-Hodgkin lymphoma. However, this 
assessment was not confirmed in a very large cohort of the also cited 
``Agricultural Health Study'' or in other studies. A recent publication 
from 2012 has reviewed the epidemiologic literature to evaluate whether 
exposure to glyphosate is associated causally with cancer risk in 
humans and the relevant methodological and biomonitoring studies of 
glyphosate. The review found non-consistent patterns of positive 
associations indicating a causal relationship between total cancer or 
any site-specific cancer and exposure to glyphosate. The current report 
of BfR to the EU based on the evaluation of over 30 epidemiological 
studies came to the overall assessment that there is no validated or 
significant relationship between exposure to glyphosate and an 
increased risk of non-Hodgkin lymphoma or other types of cancer.
    Secondly, IARC points to findings of studies based on animal 
experiments submitted by the producers of glyphosate as evidence for 
the carcinogenic effect of glyphosate. All these findings were also 
considered in the glyphosate assessments of BfR, which did support the 
conclusion of the Joint Meeting on Pesticide Residues (JMPR) of the 
FAO/WHO responsible for the assessment of active substances in 
pesticides: ``In view of the absence of a carcinogenic potential in 
animals and the lack of genotoxicity in standard tests, the Meeting 
concluded that glyphosate is unlikely to pose a carcinogenic risk to 
humans''. BfR does not have any information as to how many of the 11 
long-term studies on rats and mice that were assessed as valid were 
available to IARC.
    Moreover, IARC concluded that a glyphosate formulation promoted 
skin tumours. In general, testing of formulations should not be used 
for toxicological evaluation of active substances because co-formulants 
may alter the outcome to a large extent. Therefore, the claim, based on 
this two-stage cancer model in mice, that a highly concentrated, skin-
irritating formulation containing the active substance promotes skin 
tumours is not considered by the institutions in the EU to be evidence 
for the carcinogenic properties of glyphosate.
    It is not possible to fully examine the indications for the 
genotoxic potential of glyphosate based on the short report published 
by IARC, in particular due to the fact that the assessment included 
studies using formulations that are not specified in any detail.
    The fact that different bodies assess issues differently due to 
differing information and assessments of experimental data is part and 
parcel of the risk assessment process. BfR will therefore perform a 
thorough review of the classification issued by IARC once the monograph 
becomes available.
                                 ______
                                 
Submitted Letter by Hon. Ann Kirkpatrick, a Representative in Congress 
                              from Arizona
Pontificium Consilium de Iustitia et Pace
The World Food Prize
Borlaug Dialogue International Symposium
17 October 2013

    On behalf of the Pontifical Council for Justice and Peace, I thank 
you warmly for your very kind invitation to participate in the World 
Food Prize event of this year, and for your warm welcome.
    As you may know, about 50 years ago, the Second Vatican Council 
carefully reviewed the mission of the Catholic Church in the modern 
world. The Council found it urgent that the Church, with all her 
resources, accompany humanity in its walk through history. She made her 
own ``the joys and the hopes, the griefs and the anxieties of the 
[people] of this age, especially those who are poor or in any way 
afflicted.''\1\ Recently Pope Francis put it straightforwardly to a 
meeting of the Food and Agriculture Organization of the United Nations 
(FAO): ``the Catholic Church, with all her structures and institutions, 
is at your side,'' \2\ that is, at the side of everyone who seeks in 
good faith to meet the challenges of world hunger.
---------------------------------------------------------------------------
    \1\ Vatican II, Gaudium et Spes,  1.
    \2\ Pope Francis, Address, 38th Conference of the Food and 
Agriculture Organization of the United Nations, 20 June 2013.
---------------------------------------------------------------------------
    The Vatican Department that was mandated to study and to promote 
the Church's accompaniment of humanity is the Pontifical Council for 
Justice and Peace, which I preside over. And the spirit of our work--
and of my presence--is beautifully expressed by Vatican II with these 
words: ``Giving witness and voice to the faith of the whole people of 
God gathered together by Christ, this Council can provide no more 
eloquent proof of its solidarity with, as well as its respect and love 
for the entire human family, than by engaging with it in conversation 
about these various problems.'' \3\
---------------------------------------------------------------------------
    \3\ Vatican II, Gaudium et Spes,  3.
---------------------------------------------------------------------------
    To engage in conversation about the problems of hunger that afflict 
our world: that is why I join you at this International Symposium. When 
we share a common commitment to conversation, we should be in a good 
position to exchange views about concerns we have and positions we 
take, even when they are at variance.
    And yet because the stakes are high, tempers tend to run short, and 
sharply divergent views make the conversation shrill. When that 
happens, as Vatican II foresaw, we must courageously go even further 
and deeper than conversation, into dialogue: ``The Church sincerely 
professes that all [people], believers and unbelievers alike, ought to 
work for the rightful betterment of this world in which all alike live; 
such an ideal cannot be realized, however, apart from sincere and 
prudent dialogue.'' \4\
---------------------------------------------------------------------------
    \4\ Gaudium et Spes,  21; cf.  40.
---------------------------------------------------------------------------
    And when you juxtapose the World Food Prize and the Occupy World 
Food Prize, at first glance the divergence can appear and sound like 
polar opposition. The urgency of world hunger and food insecurity 
certainly cries out for ``rightful betterment'', and therefore calls 
for dialogue. And for that I have come, too: to call for conversation 
and to promote dialogue. The Church promotes listening, dialogue, 
patience, respect for the other, sincerity and even willingness to 
review one's own opinion. The Church encourages, orients and enriches 
discussion and debate.\5\ It strives to indicate directions for the 
work of those who are technically and politically responsible for 
dealing with concrete problems.
---------------------------------------------------------------------------
    \5\ Cf. Pope Francis, Audience for Pontifical Council for Justice 
and Peace Conference on Pacem in Terris, 3.10.2013.
---------------------------------------------------------------------------
The Church Converses with the World Food Prize
    Let me, then, begin the conversation: The earth, as Scriptures tell 
us, was created as the home of the human family. The earth is 
beautiful, good and perfect in serving its purpose of giving sustenance 
to human life. Later, however, the Prophet Isaiah tells us that ``the 
earth languishes and suffers'' \6\ from the sins of its human 
inhabitants. In view of this pitiful situation, Saint Paul will 
announce the hope of the earth's redemption, with man who was given 
custody of it, through Christ.\7\
---------------------------------------------------------------------------
    \6\ Cf. Is, 24, 1-13.
    \7\ Cf. Rm, 8, 21.
---------------------------------------------------------------------------
    Entrusted with the custody of the earth, the human family has a 
mission to love God's creation, to accompany it towards its ultimate 
perfection, and to make it fruitful: a fruitful creation that is to be 
enjoyed by the present and future generations, and that satisfies all 
the needs of humanity. That is why Pope Leo XIII says: ``that which is 
required for the preservation of life, and for life's well-being, is 
produced in great abundance from the soil, but not until [people have] 
brought it into cultivation and expended upon it [their] solicitude and 
skill.'' \8\ Similarly, the Compendium of the Social Teaching of the 
Church observes: ``The Christian vision of creation makes a positive 
judgment on the acceptability of human intervention in nature, which 
also includes other living beings, and at the same time makes a strong 
appeal for responsibility''.\9\
---------------------------------------------------------------------------
    \8\ Leo XIII, Rerum Novarum, n. 9.
    \9\ Pontifical Council for Justice and Peace, Compendium of the 
Social Doctrine of the Church, Libreria Editrice Vaticana, Citta del 
Vaticano 2004,  473.
---------------------------------------------------------------------------
    In Catholic thought, then, ``nature'' is neither sacred nor divine, 
neither to be feared nor to be revered and left untouched. Rather, it 
is a gift offered by the Creator to the human community to be lived in 
and used, entrusted to the intelligence and moral responsibility of men 
and women. Therefore it is legitimate for humans with the correct 
attitude to intervene in nature and make modifications. In the words of 
the Compendium as applied to biotechnology: ``For this reason the human 
person does not commit an illicit act when, out of respect for the 
order, beauty and usefulness of individual living beings and their 
function in the ecosystem, he intervenes by modifying some of their 
characteristics or properties.'' \10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
``Intervening By Modifying'': The Church, Catholic Social Doctrine and 
        Biotechnological Research
    There are no a priori limits on the notion of ``intervening by 
modifying''. It does not even preclude actions taken on what may be 
considered as the most intimate part of living organisms: the genome.
    Blessed John Paul II, for example, in a speech to the members of 
the Pontifical Academy of Sciences, expressed support for genetic 
research, saying: ``It is also to be hoped, with reference to your 
activities, that the new techniques of modification of the genetic 
code, in particular cases of genetic or chromosomic diseases, will be a 
motive of hope for the great number of people affected by those 
maladies''.
    He continued in a similar way about food production, saying: 
``Finally, I wish to recall, along with the few cases which I have 
cited that benefit from biological experimentation, the important 
advantages that come from the increase of food products and from the 
formation of new vegetal species for the benefit of all, especially 
people most in need.'' \11\
---------------------------------------------------------------------------
    \11\ John Paul II, Address to the Members of the Pontifical Academy 
of Sciences, 23.10.1982,  5-6.
---------------------------------------------------------------------------
    Again, addressing the 24th General Assembly of the FAO, where he 
observed how hostile climate affects food production in poor countries, 
he said: ``The findings of science must be put to use in order to 
ensure a high productivity of land in such a way that the local 
population can secure food and sustenance without destroying nature.'' 
\12\
---------------------------------------------------------------------------
    \12\ John Paul II, Address to the Participants in the XIV General 
Assembly of the FAO, 13.11.1987,  5.
---------------------------------------------------------------------------
    Finally, at a study week of the Pontifical Academy of Sciences and 
the Swedish Academy of Sciences on Tropical Forest and the Conservation 
of Species, John Paul II referred to how ``other plants possess value 
as sources of food or as a means of genetically improving strains of 
edible plants.'' \13\
---------------------------------------------------------------------------
    \13\ John Paul II, Address to the Participants of the Study Week 
organized by the Pontifical Academy of Sciences, 18.05.1990,  2.
---------------------------------------------------------------------------
    At this point in the conversation, and in the light of the above, 
we should rejoice in the memory and achievements of Dr. Norman Borlaug: 
He was awarded the Nobel Prize in 1970 in recognition of his lifetime 
of work to feed the hungry of the world. He struggled endlessly to 
integrate research and viable technologies into wheat production in 
Mexico. His work extended from research stations to farmers' fields. In 
the words of Pope Francis, Dr. Borlaug had `the smell of the sheep', or 
in Iowan farmers' language: ``He had manure on his boots''. The result 
was called the Green Revolution: the production of seeds with broad and 
stable disease resistance, adapted to varying growing conditions and 
with high yield potential; and he conceived and set up the World Food 
Prize to encourage continued work towards food security and to meet the 
zero hunger challenge.
    This is also why we have reason today to congratulate our three 
World Food Prize winners this year: Dr. Marc Van Montagu of Belgium 
(http://www.worldfoodprize.org/en/laureates/2013_laureates/
#Dr._Marc_Van_),\14\ and Dr. Mary-Dell Chilton (http://
www.worldfoodprize.org/en/laureates/2013_laureates/#Dr._Mary-Dell_) 
\15\ and Dr. Robert T. Fraley (http://www.worldfoodprize.org/en/
laureates/2013_laureates/#Dr._Robert_T._Fraley) \16\ of the United 
States, and to commend them for carrying on the legacy of Dr. Borlaug, 
putting biotechnology and research towards improving food production.
---------------------------------------------------------------------------
    \14\ Founder and Chairman of the Institute of Plant Biotechnology 
Outreach at Ghent University in Belgium.
    \15\ Founder and Distinguished Fellow of Syngenta Biotechnology.
    \16\ Executive Vice President and Chief Technology Officer of 
Monsanto.
---------------------------------------------------------------------------
    But times have also changed: Dr. Borlaug's achievements were 
greeted with great enthusiasm, and the Green Revolution with great 
optimism. Why then is there so much displeasure and distrust today, so 
much skepticism and strong opposition? Never before, having accepted an 
invitation, have I received so much mail, some of it urging me to 
withdraw, a bit of it affirming the value of GMOs, much of it 
recounting destruction and suffering in relationship with globalized 
industrial agriculture promoting GMO crops. What can be going wrong, 
seeing that Pope John Paul spoke positively about such research?
    Let me now go back to Pope John Paul II to continue the 
conversation. For when he encouraged genetic research to enhance food 
production, he also clearly stated the parameters within which such 
research may be carried out. ``In terminating these reflections of 
mine,'' he said to the Pontifical Academy of Sciences, ``which show how 
much I approve and support your worthy researches, I reaffirm that they 
must all be subject to moral principles and values, which respect and 
realize in its fullness the dignity of man.'' \17\
---------------------------------------------------------------------------
    \17\ John Paul II, Address to the Members of the Pontifical Academy 
of Sciences, 23.10.1982,  6.
---------------------------------------------------------------------------
    It is clear, then, that in the mind of John Paul II, the various 
operations that can be called ``genetic manipulation'' must be the 
object of a true moral discernment. ``To speak the truth,'' he said on 
another occasion, ``the expression genetic manipulation is ambiguous.'' 
While it is characterized by beneficial applications in the area of 
animal and plant biology, very useful for food production, it can also 
yield to adventurism.\18\ In the latter case, it can be arbitrary and 
unjust, especially when it loses sight of the total well-being of the 
human person. This is why, for John Paul II, it is absolutely necessary 
to overcome the separation between science and ethics, and to discover 
their radical unity.\19\
---------------------------------------------------------------------------
    \18\ Cf. John Paul II, Address to the XXXV General Assembly of the 
World Medical Association, 29.10.1983,  6.
    \19\ Idem.
---------------------------------------------------------------------------
    Accordingly, the desired dialogue will have to go very deep. It 
will need to include the motivation and vision which guide biological 
and genetic research and biotechnology--in other words, not only so-
called ``pure'' research but also the vision and motivation that guide 
its translation into policies, commerce, agriculture and trade in many 
different situations around the world. And for the dialogue to progress 
in good faith, all the stakeholders must genuinely be represented and 
meaningfully take part.
The Problem of Food Insecurity
    Hunger in the world is a very serious injustice that shows 
fundamental disrespect for human dignity. Pope John Paul II called it 
``the first and fundamental form of poverty''.\20\ Persistent hunger, 
starvation and malnutrition represent a global failure of humanity 
that, to our shame, has dragged on for decades. It is a plague, and a 
long-term indicator of a system that does not function properly. Some 
point to the economic crisis of recent years as the reason why the 
world cannot do better; but that is just an excuse--food insecurity has 
persisted for decades, through prosperous times as well as more 
difficult ones.
---------------------------------------------------------------------------
    \20\ John Paul II, Message, World Food Day 2001, 16.10.2001.
---------------------------------------------------------------------------
    But the problem is not, of course, an overall scarcity of food.
    Today the world produces more than enough food to feed its seven 
billion inhabitants, but the world has one billion hungry people (about 
one in seven), the United States 50 million (about one in six). But 
much is lost after harvesting or just thrown away: in a very recent 
document, ``FAO estimates that each year, approximately \1/3\ of all 
food produced for human consumption in the world is lost or 
wasted''.\21\ Some estimates are even higher than \1/3\.
---------------------------------------------------------------------------
    \21\ FAO, Food wastage footprint, Impacts on natural resources. 
Summary report, 2013, p. 6.
---------------------------------------------------------------------------
    Since the 1980s, the Popes, supported by FAO statistics, have 
pointed out that the supply of food per capita on the planet is 
steadily increasing. So it is clear that, in large part, hunger is a 
problem of distribution of food or access to it. It does not reach some 
people, or they cannot buy it. To others, however, it comes in 
abundance, even from afar--abundant enough that they can waste it.\22\ 
In other cases, finally, the systems for storage of harvests or the 
supply chains are deficient.
---------------------------------------------------------------------------
    \22\ Cf. FAO, Food wastage footprint, pp. 11-13.
---------------------------------------------------------------------------
    Let me suggest a little parable. A man is anxious to improve the 
strength of his arms. A surgeon offers to transplant muscles from his 
legs into his arms: ``This will quickly make your arms big and 
strong''. ``What will happen to my legs?'' the man asks. ``They will 
become much weaker,'' replies the surgeon, ``and may have to be 
amputated.'' The man is horrified and rejects the surgeon's solution.
    In some circumstances, the promise of food security merely through 
higher agricultural productivity is similar. New technologies are 
promoted with the claim of making more food available for everyone. But 
that is not the whole picture. In reality, the innovations are so 
designed or implemented as to benefit relatively few interests that are 
already well-off.
    Along the way, many small producers will inevitably be excluded 
and/or moved off their land. They will be amputated from their 
traditional occupations and way of life. The uprooting of individuals, 
families and communities is not only a painful separation from land; it 
extends to their entire existential and spiritual environment, 
threatening and at times shattering their few certainties in life.
    It should not surprise us if some populations reject certain 
innovations, not because they are faulty or perceived as such, but 
because the manner of their delivery entails unbearable costs to those 
who are supposed to benefit from them. It is not they who are missing 
the point. Rather, like the surgeon who thinks only of a set of arms, 
not the whole person, whoever refuses to look at the whole food 
insecurity picture--people and their dignity and their lives as well as 
food production and distribution--will miss the point.
    How does the Church ``know'' about world hunger, sustainable 
agriculture or GMOs? First of all, the Church is in touch with the 
direct experience of her people. Another important way that we know 
about these topics is through members of the Church who are scientists 
or professionals working in a wide variety of positions in 
universities, government and industry. And a third way would be in the 
work of different departments of the Roman Curia: the Pontifical 
Academy for Life, the Pontifical Academy of Science, the Pontifical 
Academy of Social Science, the Congregation for the Doctrine of the 
Faith, the Holy See Missions to the World Food Organization and to 
other international bodies, the Secretariat of State and our own 
Pontifical Council for Justice and Peace.
    In 2004 our Pontifical Council produced a Compendium of the Social 
Doctrine of the Church. Nine of its 583 paragraphs are devoted to 
biotechnology: not to the science or the industry, but to the ethical 
criteria that people of good will should apply to the development and 
use of these technologies. I warmly recommend this text to everyone 
involved in working on GMOs.\23\
---------------------------------------------------------------------------
    \23\ Compendium of the Social Doctrine of the Church,  472-480.
---------------------------------------------------------------------------
Broad Directions
    Here is what I can offer to whoever tries to fight hunger, 
especially in the field of biotechnologies applied to the agricultural 
sector. I implore you, your colleagues, and others whom you influence 
such as your students, to always proceed along an ethical path of 
discernment.
    It is common to find some scientists and advocates who strongly 
hold one position and others who hold its opposite. They attack and 
even ridicule the opposed views--perhaps not in scientific meetings and 
journals, but certainly in the media. And all this attack, defense and 
counter-attack leave the public deeply confused.
    There is a different approach, which takes its stand in dialogue, 
in the patient exchange of positions and objections. When there is 
something as important to humanity as hunger, and something as 
controversial as GMOs, let us encourage research under solid (not 
flimsy) ethical guidelines, and then, sharing the results, let us do so 
in a climate of listening and dialogue.
    We know since Gaudium et Spes in the mid-1960s that the Church 
accompanies science. This is because science cannot proceed without 
ethics. Ratio goes along with fides, as Benedict XVI taught so clearly. 
Bios, which means life, must be handled ethically and respectfully, and 
maybe this is especially true with respect to biotechnology. It is 
hazardous--and ultimately absurd, indeed sinful--to employ 
biotechnology without the guidance of a deeply responsible ethics. For 
instance, nearly 50 years ago, Pope Paul VI called for prudence, 
responsibility and unselfishness in this domain:

          By dint of intelligent thought and hard work, man gradually 
        uncovers the hidden laws of nature and learns to make better 
        use of natural resources. As he takes control over his way of 
        life, he is stimulated to undertake new investigations and 
        fresh discoveries, to take prudent risks and launch new 
        ventures, to act responsibly and give of himself 
        unselfishly.\24\
---------------------------------------------------------------------------
    \24\ Paul VI, Populorum Progressio  25.

    Blessed Pope John Paul II was supportive of research in 
biotechnology to feed the world. Moreover, when he visited Des Moines 
in 1979, standing in a corn-bedecked fields, he challenged agriculture 
in America and around the world to ``foster sustainability of the land 
and water and plants, and to use the harvest to feed the hungry in the 
world.'' \25\
---------------------------------------------------------------------------
    \25\ John Paul II, Address to the Rural Community of Saint Patrick, 
Des Moines, 4.10.1979.
---------------------------------------------------------------------------
    The study-document preparing for the II Synod for Africa in 2009 
identified the true problems of agriculture in Africa: ``the lack of 
cultivatable land, water, energy, access to credit, agricultural 
training, local markets, road infrastructures, etc.'' These true 
problems should not be overlooked or side-stepped by those who promote 
the planting of genetically-modified seeding as the definitive 
solution.\26\
---------------------------------------------------------------------------
    \26\ Instrumentum Laboris of Synod for Africa, 19.03.2009,  58.
---------------------------------------------------------------------------
    In his important encyclical Caritas in Veritate of 2009, Pope 
Benedict XVI counted food security among the urgent global issues which 
require ``a greater degree of international ordering''. He asserted 
that the problem of food insecurity ``needs to be addressed within a 
long-term perspective, eliminating the structural causes that give rise 
to it and promoting the agricultural development of poorer countries. 
This can be done by investing in rural infrastructures, irrigation 
systems, transport, organization of markets, and in the development and 
dissemination of agricultural technology that can make the best use of 
the human, natural and socioeconomic resources that are more readily 
available at the local level, while guaranteeing their sustainability 
over the long term as well. All this needs to be accomplished with the 
involvement of local communities in choices and decisions that affect 
the use of agricultural land.'' Having enumerated the many conditions 
that cry out for improvement, Pope Benedict went on to welcome ``the 
new possibilities that are opening up through proper use of traditional 
as well as innovative farming techniques, always assuming that these 
have been judged, after sufficient testing, to be appropriate, 
respectful of the environment and attentive to the needs of the most 
deprived peoples''.\27\
---------------------------------------------------------------------------
    \27\ Benedict XVI, Caritas in Veritate,  67.
---------------------------------------------------------------------------
    For Pope Benedict, it is clear that ever-increasing production as 
the primary path--let alone the sole option--to reducing world hunger 
is too narrow a vision and can lead to false solutions, which may 
actually undermine food security in the long term.
Guidelines
    I have quoted the recent Popes Paul VI, John Paul II, Benedict XVI 
and now Pope Francis. Having considered the general directions they 
laid out, let me now spell out more specific ethical orientations that 
need to accompany work in science and technology, including 
biotechnology, as well as international trade and commerce. This is 
still not a Church position on GMOs as such, but rather, the assistance 
of the Church in the form of guidance based on her Social Doctrine.

  A.  Spirit of courage: Face up to the reality of hunger decisively 
            and with genuine charity and openness of heart. In the 
            words of Pope Francis: ``Something more can and must be 
            done in order to provide a new stimulus to international 
            activity on behalf of the poor, inspired by something more 
            than mere goodwill or, worse, promises which all too often 
            have not been kept . . . There is a need to move beyond 
            indifference and a tendency to look the other way, and 
            urgently to attend to immediate needs, confident that the 
            fruits of today's work will mature in the future. We cannot 
            devise programs which are bureaucratic and antiseptic, 
            which do not work today.'' Keep on studying the causes of 
            world hunger as broadly and deeply as possible, seeking the 
            greatest variety of possible solutions, since we need ``a 
            complete knowledge of particular situations, suitable 
            preparation, and ideas which take into account every 
            individual and every community.'' \28\
---------------------------------------------------------------------------
    \28\ Pope Francis, Address to the 38th Conference of the Food and 
Agriculture Organization of the United Nations in Rome, 10.06.2013,  
2, 3, 4. For a comprehensive presentation of the principles here 
mentioned, consult the Compendium, especially  472-80.

  B.  Ethics of all human endeavors: Some would claim that research is 
            ethically neutral, and only its application or 
            implementation may be good or bad. But any activity which 
            deserves the name ``human'' requires ethical guidance if it 
            is to serve the common good. Therefore, a researcher always 
            should work ``to satisfy the demands of justice, fairness 
            and respect for every human being''; \29\ not merely for 
            the sake of profit. The same criteria apply to those who 
            are responsible, in later phases of the process, for 
            industrial production, international trade, commercial 
            distribution, and so forth. There should be no ``washing of 
            the hands'' at any step along the way.
---------------------------------------------------------------------------
    \29\ Pope Francis, FAO,  1.

  C.  Prudence: The full costs and consequences of introducing 
            genetically modified organisms may emerge only with time, 
            in the long-term. Therefore let us apply the principle of 
            precaution or prudence by taking every reasonable measure 
            of caution beforehand, to avoid the risk of damaging human 
            health or the environment. Such prudence, I might add, is a 
            necessary element of any effort to advance the common good 
---------------------------------------------------------------------------
            through public, that is governmental, action.

  D.  Transparency: Adopt the highest standards of communication with 
            the public, as well as rules of labeling in order to 
            guarantee producers' and consumers' right to information. 
            This is necessary for everyone to have a true choice. This 
            is the principle of transparency.

  E.  Access: Patents and intellectual property rights are legitimate, 
            but they need to be monitored and regulated. Fair ways must 
            be found to share the fruits of research and ensure that 
            developing countries have access both to natural resources 
            and to innovations. Otherwise whole populations can be 
            discriminated against, exploited and deprived of what they 
            rightly should have a share in.\30\
---------------------------------------------------------------------------
    \30\ Cf. Statement of the Holy See at the World Trade Organization 
Council on Trade-Related Aspects of Intellectual Property Rights, 
Geneva, 8 June 2010,  5-7.

  F.  Biodiversity: Bio-diversity is humanity's patrimony. It needs to 
            be protected, indeed privileged. The development of new 
            types should not require, or lead to, the disappearance of 
---------------------------------------------------------------------------
            traditional species.

  G.  Subsidiarity: A very healthy principle of Catholic Social 
            Teaching is subsidiarity, which favors the exercise of 
            responsibility at every level and resists ``top-down'' 
            approaches where inappropriate. It is often better to 
            support local efforts than to provide or even impose 
            solutions from elsewhere. And given the complexities of 
            globalization, effective coordination of efforts at all 
            levels is also increasingly required.

  H.  Commerce: Analyze, condemn and fight ``financial speculation, 
            which presently affects the price of food, treating it like 
            any other merchandise and overlooking its primary 
            function.'' Abandon any form of ``short-sighted economic 
            interests and the mentality of power of a relative few who 
            exclude the majority of the world's peoples, generating 
            poverty and marginalization and causing a breakdown in 
            society.'' \31\ And educate our youth to do the same. . . . 
            with criteria of justice and solidarity governing the 
            commercial and economic conditions, avoiding any 
            commercial-economic monopoly
---------------------------------------------------------------------------
    \31\ Pope Francis, FAO,  2.

  I.  Finally, conversation and dialogue. Sharp differences of opinion 
            (e.g., between WFP and ``Occupy'') about agriculture and 
            biotechnology show how important are these issues. Their 
            importance does not justify harshness (polemic) or 
            manipulation (bullying). At every level from the global to 
            the local, one might ask, what should be people's input 
            into research, agricultural and trade policies, development 
            policies, funding priorities, and so forth. ``Every 
            proposal must involve everyone,'' Pope Francis insists. 
            ``To move forward constructively and fruitfully in the 
            different functions and responsibilities involves the 
            ability to analyze, understand, and engage, leaving behind 
            the temptations of power, wealth or self-interest and 
            instead serving the human family, especially the needy and 
            those suffering from hunger and malnutrition.'' \32\
---------------------------------------------------------------------------
    \32\ Pope Francis, FAO,  3.

    I will stop here. There may be other desirable or even essential 
criteria for serious, realistic, honest and courageous dialogue on this 
topic. If so, let them be put on the table. For the diverse parties to 
participate in good faith, they must hold themselves as well as others 
to such criteria. The world needs everyone, the heirs of Bishop Maurice 
Dingman and the heirs of Dr. Norman Borlaug, to stay at the table and 
solve these issues, rather than abandon the dialogue and leave the 
world's poor at an empty table.
Conclusion
    The world's food security challenges are not to be overcome with a 
referendum on science. Scientific research is good. It is right to 
celebrate the achievements of our three World Food Prize Laureates. The 
Church is not anti-science.\33\ Nor do we wish to promote a referendum 
on technology or biotechnology. Nor even a referendum on business--the 
Church is not against business or the market. In fact, while we have 
critiqued some aspects of the world financial system--inattention to 
the common good, disrespect for the rights of weaker members, tolerance 
for monopolies and cartels--my Council has sponsored a major 
publication that encourages the vocation of business leaders in 
carrying out God's plan for humanity.\34\
---------------------------------------------------------------------------
    \33\ Far from it--where would genetics be without the contribution 
of the Augustinian friar Gregor Mendel, where would pharmaceutical 
knowledge be without the herbalists in countless monastery gardens!
    \34\ Pontifical Council for Justice and Peace, Vocation of the 
Business Leader: A Reflection. First published in 2011 and now 
available in about a dozen languages, the handbook can be downloaded at 
http://www.iustitiaetpax.va/content/giustiziaepace/it/archivio/
pubblicazioni/vocation-of-the-business-leader--a-reflection-.html.
---------------------------------------------------------------------------
    The Church sees the GMO debate as a complex choice among various 
means--the means offered by advances in biotechnology and by 
innovations in agriculture, as well as the human, natural and 
socioeconomic means which can be developed locally and regionally. 
Among the goals we embrace are food security for all, quality of life 
of land-based populations, biodiversity and long-term sustainability. 
We see many sides to the coin of ``world food''.
    So we wish to promote meaningful dialogue amongst the stakeholders, 
whether in the United States or in other parts of the world. All sides 
of the controversy are using many of the same key phrases such as 
``overcoming hunger'' and ``sustainable agriculture'', thus it will 
only be by mutual and respectful listening, by a genuine desire to 
learn from the other, indeed from all the stakeholders, that the better 
and truly enduring, sustainable solutions will be found. May I cite my 
own African experience of ``palaver''? Palaver is the extremely patient 
and thorough exploration of a whole problem until one reaches 
consensus. It means to talk and to talk, to listen and listen, 
thoroughly to explore every facet of a complex issue, with mutual 
respect and without hostility. Sooner or later, a truly consensual 
conclusion will arise. But in order to find the best way forward, ALL 
the stakeholders must be represented around the palaver circle--a 
circle characterized by humble and respectful listening, honest 
speaking, reconciliation of deep differences--a circle of true 
collaboration.
    Thank you for allowing me, in the name of the Church as convener 
and teacher, to offer to facilitate some of the needed dialogue.

Cardinal Peter K.A. Turkson,
President, Pontifical Council for Justice and Peace.
                                 ______
                                 
  Supplementary Material Submitted by Nina V. Fedoroff, Ph.D., Olsson 
                  Frank Weeda Terman Matz PC (OFW Law)
Hon. K. Michael Conaway,
Chairman,
House Committee on Agriculture,
Washington, D.C.;

Hon. Collin C. Peterson,
Ranking Minority Member,
House Committee on Agriculture,
Washington, D.C.

    Dear Chairman Conaway and Mr. Peterson:

    Thank you, again, for the opportunity to testify on the importance 
of biotechnology the potentially detrimental impacts of mandatory GMO 
labeling. I really appreciated your questions and the interaction with 
the Members. As several questions pertained to the recent glyphosate 
study conducted by the International Agency for Research on Cancer 
(IARC), please allow me to provide some materials for the record and 
supplement my response. Glyphosate is the world's most widely produced 
herbicide. Hence, the great interest in this chemical.
    The IARC concluded that glyphosate is a probable carcinogen to 
humans, yet noted there is limited evidence of such a link and, as I 
mentioned at the hearing, the study does not contain any new research. 
Moreover, the report contradicts the overwhelming consensus by the 
world's most respected regulatory authorities and scientific 
organizations, and the preponderance of all evidence where glyphosate 
has been found not to present a carcinogenic risk to humans.

  <bullet> First, and foremost, the IARC results contradict conclusions 
        reached by the Joint Meeting on Pesticide Residues (the 
        Meeting), which is an internationally recognized expert body 
        administered jointly by the United Nations Food and Agriculture 
        Organization and IARC's parent body, the World Health 
        Organization (WHO). ``In view of the absence of a carcinogenic 
        potential in animals and the lack of genotoxicity in standard 
        tests, the Meeting concluded that glyphosate is unlikely to 
        pose a carcinogenic risk to humans.'' Joint Meeting of the FAO 
        Panel of Experts on Pesticides Residues in Food and the 
        Environment and the WHO Core Assessment Group, Rome, Italy 20-
        29 September 2004.

  <bullet> In 2013, the U.S. Environmental Protection Agency (EPA) 
        ``concluded that glyphosate does not pose a cancer risk to 
        humans'' and ``Therefore, a dietary exposure assessment for the 
        purpose of assessing cancer risk is unnecessary.'' 2013 Federal 
        Register Notice (FR 25396, Vol. 78, No. 84, May 1, 2013). The 
        EPA is also conducting a comprehensive re-review, which all 
        chemicals go through every fifteen years, and will consider all 
        new information that is scientifically based.

  <bullet> Germany's Federal Institute for Risk Assessment (BfR), 
        acting as Rapporteur Member State for the European Union's 
        renewal of approval for glyphosate, found that ``In 
        epidemiological studies in humans, there was no evidence of 
        carcinogenicity and there were no effects on fertility, 
        reproduction and development of neurotoxicity that might be 
        attributed to glyphosate.'' Glyphosate Renewal Assessment 
        Report, Germany as Rapporteur Member State for the European 
        Renewal of Approval for Glyphosate (2015) IARC's 
        classification, therefore, came as a ``surprise'' to BfR given 
        Germany's findings were based on ``the most comprehensive 
        toxicological database, presumably worldwide, for glyphosate. 
        This database comprises hundreds of studies that were performed 
        by or on behalf of the many manufacturers of glyphosate and 
        thousands of references from the open literature. This huge 
        amount of data makes glyphosate nearly unique among the active 
        substances in plant protection product. BfR thinks that the 
        entire database must be taken into account for toxicological 
        evaluation and risk assessment of a substance and not merely a 
        more or less arbitrary selection of studies.'' Germany Federal 
        Institute for Risk Assessment's Response to the IARC, BfR 
        Communication No 007/2015, 23 March 2015.

  <bullet> According to the Australian Pesticides and Veterinary 
        Medicines Authority, ``The APVMA currently has no data before 
        it suggesting that glyphosate products registered in Australia 
        and used according to label instructions present any 
        unacceptable risks to human health, the environment and trade . 
        . . The weight and strength of evidence shows that glyphosate 
        is not genotoxic, carcinogenic or neurotoxic.'' Australian 
        Government, Australian Pesticides and Veterinary Medicines 
        Authority (2013).

  <bullet> The Argentine Interdisciplinary Scientific Council found 
        that ``The epidemiological studies reviewed showed no 
        correlation between exposure to glyphosate and cancer 
        incidence, nor adverse effects on reproduction, or Hyperactive-
        Attention Deficit Disorder in children. It is estimated that no 
        significant risks would exist for human health regarding 
        adverse effects on the genetic material. Under responsible use 
        conditions for this herbicide, the intake of food and water 
        would not imply risks for human health.'' ``Evaluacion De La 
        Informacion Cientifica Vinculada Al Glifosato En Su Incidencia 
        Sobre La Alud Humana Y El Ambiente,'' (``Assessment of 
        scientific information related to glyphosate and its incidence 
        on human health and the environment'') (2009).

  <bullet> The Canadian Pest Management Regulatory Agency reported that 
        ``Health and Welfare Canada has reviewed the glyphosate 
        toxicology database, which is considered to be complete . . . 
        The submitted studies contain no evidence that glyphosate 
        causes mutations, birth defects or cancer.'' Doliner L.H. 
        (1991) Pre-Harvest use of glyphosate herbicide [Preharvest 
        application of glyphosate (Roundup) herbicide]. Discussion 
        Document D91-01. 98 pp. Pesticide Information Division, Plant 
        Industry Directorate, Agriculture Canada.

    On reviewing all of the available data, both published and 
unpublished, regulatory authorities have consistently concluded that 
glyphosate does not cause cancer in either animals or humans.
    In short, Mr. Chairman and Mr. Peterson, while I respect the WHO-
IARC, its report needs to be put in context. The IARC looks at whether 
a substance has the potential to cause cancer, rather than the 
probability it will considering the way it's used in the real world. 
Furthermore, the IARC's recent conclusions appear to be the result of 
an incomplete data review that has omitted key evidence, and so needs 
to be treated with a significant degree of caution, particularly in 
light of the wealth of independent evidence demonstrating the safety of 
glyphosate.
    Thank you, again, for this opportunity, and I remain available to 
the Committee at any time.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Dr. Nina Fedoroff.
                                 ______
                                 
   Submitted Letter by Scott McGinty, President, Aurora Organic Dairy
March 24, 2015

  Hon. K. Michael Conaway,
  Chairman,
  House Committee on Agriculture,
  Washington, D.C.

    Dear Chairman Conaway,

    Aurora Organic Dairy is a leading supplier of USDA certified 
organic milk to retailers nationwide. We operate farms in Colorado and 
Texas, including a 3,000 acre farm in Erath County near Dublin, TX. 
Established only 10 years ago, we employ over 500 people and market 
milk from 25,000 cows thanks to strong demand for our products. These 
herds consume roughly 70,000 acres worth of organic crops, giving rural 
families the opportunity to participate in a growing sector of American 
agriculture.
    Consumers buy our products at leading mainstream grocers across 
America, including Kroger, Costco, Walmart, BJs, Safeway, Giant and 
many others. They buy organic milk because of the rigorous production 
and monitoring practices required by the National Organic Program (NOP) 
and they trust the USDA organic seal as a symbol of its certification. 
This law strictly prohibits the use of synthetics such as antibiotics, 
pesticides, herbicides, unapproved synthetics and genetically modified 
organisms (GMOs) in the production of certified organic food. In 
organic milk, this prohibition explicitly applies to the production of 
the feed. In fact, for milk to be certified organic, each feed 
ingredient in the animal's ration requires its own organic certificate 
to verify production under these standards. Furthermore, each of these 
USDA organic requirements adds significantly to the cost of our 
company's milk production.
    In turn, organic milk is frequently labeled with the specific 
attributes of the USDA NOP rule to convey that the product is certified 
organic. Common claims found on USDA organic milk are ``produced 
without the use of GMOs'', ``produced without GMO ingredients'', and 
``produced without synthetic pesticides or growth hormones.'' Consumers 
buy this milk because they trust that these are not used anywhere in 
the production of the product--not on the farm, not in the feed, and 
not in the cow.
    As stated above, the law requires organic producers to make very 
large investments during conversion from conventional farms to organic 
farms. Then, organic producers spend a great deal more to produce 
organic food. Because certified organic feed costs so much and because 
being organic means lower yields from organic farms and cows, the cost 
of organic production per gallon of milk can be twice as much as 
conventionally produced milk. In Aurora Organic Dairy's business, this 
amounts to more than $50 million spent each year to comply with the law 
on top of the estimated $80 million in one-time organic conversion 
costs. The organic industry as a whole spends billions in incremental 
production costs to comply with the USDA NOP in order to deliver 
certified organic food to American families.
    Given your consideration of biotechnology and GMO labeling 
legislation, we ask the Committee to recognize that any requirements 
for non GMO production under the NOP be extended to any new non GMO 
definitions. Non-GMO production has been defined in the consumer 
marketplace in accordance with the USDA's organic program and the term 
should have the identical meaning under any new program. Any non-GMO 
labeling claim on milk should mean a complete prohibition of GMO feed 
use for consistency with NOP requirements. American families would 
expect nothing less.
    With the consumer in mind, we must avoid the confusion of 
inconsistent non-GMO meanings on labels. Given consumer sentiment for 
food transparency today, a conflicting non-GMO milk definition allowing 
GMO feed or other inputs would result in harsh consumer criticism and 
represent a large step backwards.
    For farmers, it is equally important that any non GMO requirements 
under one USDA program are the same as non GMO requirements under any 
other under the USDA or the Food and Drug Administration (FDA). To 
allow otherwise, would create a double standard and enable conventional 
milk producers using GMO feed to ride on the coattails and pocketbooks 
of certified organic farmers. A large class of producers would suffer 
severe economic loss as a result.
    We also believe that the introduction of a second USDA label for 
non-GMO food would result in consumer confusion with the existing USDA 
organic program and be a waste of scarce taxpayer dollars. As the 
recent farm bill process clearly showed, there is hardly enough funding 
for existing agriculture programs without creating new ones that 
duplicate efforts.
    To be clear, we do not oppose the use of biotechnology in food or 
the effort by Congress to create national labeling standards. It is 
very important labeling laws avoid unnecessary barriers to interstate 
commerce. We believe in creating choices for consumers and agricultural 
producers and applaud your support of USDA programs that stimulate such 
choices and expand the economic opportunities for the American farmer. 
For these programs to be trusted by their participants and American 
families, the definition of non-GMO and its associated labeling claims 
should remain free of any inconsistency.
    To put this idea into a real context, imagine a young mother at the 
grocery store. She is pushing a stroller, buying groceries for her 
family at home and the toddler who is looking up at her from below. 
With a glance at her shopping list, she says to herself ``frozen pizza, 
diapers, and a gallon of milk:'' Smiling at her baby, she remembers how 
she had avoided the pizza before she stopped nursing. She reaches the 
milk section and comes across two brands; one of them is the organic 
item she normally buys. The prices are quite a bit different so she 
looks closer and sees that ``non-GMO'' is printed on both labels. She 
thinks to herself, ``I'd love to save a couple dollars. Since they're 
both made without GMOs, I think I will.''
    Now ask yourself, would she know that the two GMO claims have 
different definitions? Would she feel deceived to learn that the milk 
she bought was produced using GMO feed? Our law-making decisions must 
eliminate the potential for this sort of consumer deception.
    For these reasons, we submit that H.R. 4432, as introduced in 2014, 
would in fact create a double standard for the labeling of milk, 
undermine existing organic law and mislead consumers. Its provisions 
under section 103 clearly allow milk products produced with GMO feed to 
be labeled ``non-GMO.'' This definition of such a claim under any 
legislation would directly conflict with the definition of the term 
under the existing organic program. We strongly urge the Committee to 
consider this consequence and amend the language to preserve 
consistency with current law.
    We are grateful for the opportunity to submit this letter to the 
hearing record and thank you for considering our comments. We look 
forward to working with you and the Committee over the coming months 
during this review of mandatory biotechnology laws in agricultural 
production.
            Sincerely,

Aurora Organic Dairy
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Scott McGinty,
President.
                                 ______
                                 
                          Submitted Questions
Response from Nina V. Fedoroff, Ph.D., Senior Science Advisor, Olsson 
        Frank Weeda Terman Matz PC (OFW Law)
Question Submitted by Hon. David Rouzer, a Representative in Congress 
        from North Carolina
    Question. Dr. Nina Fedoroff, thank you for the information you 
presented. Biotechnology is such a useful tool in the daily lives of 
the public, even if they don't realize it. Genetic engineering helps to 
diagnose, treat, and prevent diseases, such as cancer, arthritis, 
diabetes, cystic fibrosis, sickle cell anemia, multiple sclerosis, 
cardiovascular disease, Hepatitis B, meningitis, and whooping cough.
    With that said, we hear from opponents to biotechnology that the 
science is making natural plants unsafe. I would like to ask you about 
poisonous, unsafe plants found in nature that science has been able to 
modify into useful, safe tools that benefit people's health. I can 
think of a few examples: chemicals found in the Rosy periwinkle have 
been isolated and used in chemotherapy treatments; chemicals in the 
black henbanehas have been isolated and used in prescription drugs 
targeting muscle spasms and symptoms of Parkinson's disease; and 
foxglove's chemicals are used in medicines for people with congestive 
heart failure.
    Can you please speak to any further examples you have of 
biotechnology helping in this way? Also, can you please speak to how 
this public shaming of biotechnology is putting these advancements of 
science in danger?
Questions Submitted by Hon. Dan Newhouse, a Representative in Congress 
        from Washington
    Question 1. Can you briefly explain what benefits we could 
experience from a nutrition, food safety, and efficiency standpoint by 
using biotechnology? Also, do you believe publicly shaming or 
generating a culture of fear around these products jeopardizes their 
possible benefits?
    Question 2. Dr. Federoff, given the nature of the targeted, 
specific modifications that this technology uses, do you believe we 
actually know significantly more about the final, modified product in 
these instances than we might know with conventional breeding?
    Question 3. Dr. Federoff, in your experience, are plants that have 
been genetically modified using modern biotechnology materially 
different from their non-genetically modified counterparts?
    Question 4. So based on that assessment, should the FDA distinguish 
and regulate crops or livestock based on the method of modification or 
the material composition and why? Also, if you had to speculate, how 
difficult would it be for a farmer in the field to distinguish between 
a modified seed and a non-modified seed? Would a worker in a grocery 
store be able to tell the difference between a non-modified ear of corn 
and a modified one?
    Answers.*
---------------------------------------------------------------------------
    * Editor's note: the witness did not differentiate the submitted 
responses; therefore they are printed as received.
---------------------------------------------------------------------------
Medical Benefits
    There are more than a hundred compounds originally derived from 
plants that are currently used as drugs in one or more countries. The 
following website has an excellent table that lists the chemicals, 
their clinical uses and their plant sources: http://www.rain-tree.com/
plantdrugs.htm.
    However, today's new drugs are increasingly proteins produced 
through GM technology (also known as ``recombinant DNA'' technology). 
That is, our knowledge of genes and proteins has advanced to the point 
that we can make human proteins in large amounts in either cultured 
cells or in lower organisms, such as yeast and bacteria. The classic 
example is human insulin. Before GM technology, insulin was largely 
derived from pigs and often had adverse effects in humans. Today's 
insulin is human insulin produced in microorganisms through GM 
technology. Other widely used human proteins produced in microorganisms 
are human growth hormone, clotting factors for treatment of hemophilia, 
and proteins used in vaccines.
Nutrition, Food Safety, Agricultural Efficiency
    Many of the plants we use for food have a long history of genetic 
modification to make them more suitable as food plants by making them 
less toxic (potatoes, for example, contain toxic glycoalkaloids), 
easier to grow and harvest (bigger, softer grains that stick to the 
plant until harvest), and more appealing to eat (bigger, redder, 
sweeter fruits and vegetables). This is called domestication and much 
of it happened before we understood genes and genetics. But in the 20th 
century, growing knowledge of genetics was put to work in plant 
breeding by employing such scattershot methods of accelerating genetic 
change as chemical and radiation mutagenesis. About half of the crops 
on the market today have such a mutagenesis step in their history. 
Genetic modification by modern molecular methods, what we now call GM 
or GE, is just starting to be used to make nutritional improvements, 
although the Bt corn that is now grown very widely makes corn safer by 
decreasing contamination by fungal toxins (fungi get into the corn 
through holes bored by insects. No holes, no fungi, no toxins).
    GM foods in the pipeline that will offer advantages through 
improved nutrition or decreased waste include oils with omega-3 fatty 
acids, apples that don't turn brown when cut, potatoes that have lower 
levels of a natural amino acid that turns into the toxic compound 
acrylamide when the potatoes are fried in hot oil, and non-allergenic 
peanuts.
    However, perhaps the most important accomplishments of GM 
technology have been, and will continue to be, in making it possible to 
continue increasing the productivity of our (and our animals') primary 
calorie sources (corn, soybeans, wheat, rice, canola) while decreasing 
the environmental footprint of agriculture and making it more 
sustainable by decreasing the use of toxic chemicals to control pests. 
In this regard, the 18 year history of current GM crops has been 
exemplary. As I reported in my initial testimony, a recent meta-
analysis revealed that GM crop adoption has increased yields by 22% and 
farmers' profits by 68%, while reducing pesticide use by 37%. GM crops 
have also been a major factor in decreasing topsoil loss by 
facilitating no-till farming.
Safety of GM Techniques
    The current, highly conservative regulatory process was developed 
when little was known about the health and environmental impacts of 
GMOs. Today, we have more than a quarter century's research on GM 
biosafety, all of which shows that modification of organisms by GM 
techniques is as safe as modification by older techniques and arguably 
safer. Indeed, a number of recent studies have revealed that there is 
much less genetic and epigenetic disturbance when plants are modified 
by adding a gene than when they are modified through older techniques 
such as genetic crosses (aka cross-breeding) or through either chemical 
or radiation mutagenesis. This is because the older techniques either 
bring together thousands of genes for the first time or cause damage 
that can reverberate through the genome, while GM technology can 
introduce just one or a small number of genes without disturbing the 
genome in general.
What We Know About Today's GMOs
    In addition to the fact that GM techniques cause less genetic 
disturbance than older techniques, the GM crops currently on the market 
are the most extensively studied crops ever to have entered our food 
chain. This is in part because analytical techniques have improved with 
the widespread development and use of techniques that allow monitoring 
of all genes, gene expression levels, proteins and metabolites. It is 
also because the current regulatory requirements are focused only on 
crops modified by GM technology and require that the developer 
demonstrate that the plant is substantially equivalent to the parent 
plant and that the substance to be expressed in the GM plant be neither 
toxic nor allergenic. That has never been required for a crop developed 
using any previous genetic modification technique, including radiation 
and chemical mutagenesis. Thus the answer to the question about whether 
a crop modified by modern biotechnology is materially different from 
its non-genetically modified counterpart is simply: no. They must be 
shown to differ just in the added component and that added component 
must be shown to be safe. That said, it must be kept in mind that 
biological organisms are constantly changing genetically, people 
included. So substantial equivalence does not mean genetic identity.
Should Regulation By FDA (and USDA and EPA) Be Process-Based?
    More than 3 decades of biosafety research have failed to identify a 
hazard unique to the use of modern GM techniques. Indeed, there is 
growing evidence that modification of organisms by modern GM techniques 
is less disruptive of genomic structure and function than older 
methods. This means that regulation of organisms based on the 
modification method is simply unwarranted. Genetically modified 
organisms should be regulated based on their properties, not on the 
method of modification.
    The GM crops on the market today look identical to and are 
nutritionally equivalent to their non-GM counterparts. Thus neither a 
farmer nor a grocery store clerk could distinguish any of today's GM 
crops from their non-GM equivalents by their appearance. Certain 
identification requires a still-costly molecular test.
GMO Shaming
    The issue of GMO shaming, which is better described as 
vilification, is already serious and potentially calamitous. It is now 
standing firmly in the way of easing the regulatory burden on plants 
and animals improved through GM techniques, as the anti-GMO clamor 
tends to slow down decision-making in the regulatory agencies, in part 
out of fear of litigation. To give just one example of the slow and 
cumbersome regulatory process, the GM Aquabounty salmon, genetically 
identical to its wild progenitor except that it grows faster (and no, 
it is not a threat to wild salmon as it will be produced as sterile 
females only) has been in the regulatory approval process for more than 
a decade. The company has complied with all of the FDA's requirements, 
but the agency has simply failed to issue a decision, well past its own 
decision timeline. Developers have experienced similar prolonged 
decision-making stretching to years in the other agencies, the USDA and 
the EPA, that regulate GMOs.
    Why is the shaming/vilification of GMOs potentially calamitous? In 
the larger scheme of the world's food supply, our population growth 
rate is now clearly exceeding the rate at which agricultural 
productivity is increasing. The extraordinary agricultural advances of 
the 20th century have put humanity in a position to supply the entire 
world's population with an adequate diet today, despite the rapid 
growth of the human population over the previous century. Today's 
hunger is the result of poverty, not an inadequate global food supply. 
But productivity increases are lagging, the population continues to 
grow, and climate warming is beginning to have a negative impact on 
agriculture globally. Without the innovations, amongst which the 
continued improvement of crop plants is arguably the most important, we 
face a future of increased food-based strife.
    Today there is a small, but extremely vocal and influential anti-
GMO lobby in the U.S., comprising individuals such as the self-
proclaimed expert Jeffrey Smith, organizations such as Greenpeace and 
the organic food industry's marketers. These use any and all available 
scare tactics to vilify GMOs (and conventional agriculture in general) 
in order to maintain their revenue streams and, in the case of the 
organic food industry, to increase their market share. The 
preponderance of companies and public sector researchers developing GM 
crops are U.S.-based today. The objectives of the anti-GMO 
organizations and the organic food industry are to drive all GM foods 
off the market and convert U.S. agriculture to ``organic.'' Success in 
this endeavor could drive the major biotech industry players out of 
crop improvement using GM techniques and is already creating an almost 
complete impediment to public sector crop improvement using these 
techniques because of the high cost of complying with the complex 
regulatory requirements. This would compromise--and could even 
terminally cripple--the world's efforts to achieve food security and 
make agriculture sustainable. Hungry people bring down governments, as 
we've already seen in recent food price spikes.
Response from Joanna S. Lidback, Owner, The Farm at Wheeler Mountain, 
        Westmore, VT; on behalf of Agri-Mark; National Council of 
        Farmer Cooperatives; National Milk Producers Federation
Question Submitted by Hon. Dan Newhouse, a Representative in Congress 
        from Washington
    Question. Ms. Lidback, I'm a farmer myself and my state nearly 
adopted a similar law to what Vermont is preparing to impose, so I can 
deeply appreciate where you're coming from. How do you believe it might 
impact your business if neighboring states like New Hampshire, or New 
York, or varying municipalities throughout the Northeast adopt 
mandatory, though inconsistent, labeling laws from each other?
    Answer. Thanks for your question, Representative Newhouse. We often 
work closely with folks in neighboring states. New England is a 
relatively small area and it's very easy to cross state borders for 
everyday tasks. In fact, we choose to have our Jersey beef processed at 
a USDA facility versus state-certified so that we can bring our meat to 
other states to sell it, should the opportunity arise. A state-
certified facility would only allow us to sell within Vermont. If each 
state had its own law that was different than the others, it would pile 
on regulations thereby increasing regulatory burden--burden we already 
face in other areas where quite frankly, it is more warranted such as 
water quality, food safety and labor management. We know currently if 
the Vermont law is put into place, dairy products and meat would be 
exempt from a label but we are not guaranteed that same consideration 
in other states' laws. I believe it is important for farmers and others 
to share their hands on experience with genetically engineered crops 
with the general public so as to diffuse the stigma that has been 
placed upon them from a very vocal minority. Increased costs associated 
with a patchwork of biotech labeling laws would be felt most by those 
who can least afford it. The potential unintended consequences of these 
laws would be numerous.
Response from Lynn Clarkson, President and Founder, Clarkson Grain 
        Company, Inc.
Question Submitted by Hon. Dan Newhouse, a Representative in Congress 
        from Washington
    Question. Mr. Clarkson, from your testimony it appears you support 
a voluntary, standardized labeling regime, and your support for this 
policy stems from your experience with the emergence of foods being 
labeled as ``organic'' by producers. Can you tell me a bit more about 
your experience with the ``organic'' label, and how that has influenced 
your perspective regarding the need for a labeling standard?
    Answer. Clarkson Grain began merchandising certified organic 
products in 1994 at the request of a few organic farmers in Illinois 
seeking better market access. At that time, there was no one national 
standard for organic certification. Instead there were several private 
groups and some states each certifying producers, handlers, and 
processors to their own standard. Each state and each group claimed 
that their standard was better than the others. That left buyers, 
handlers and farmers all confused about which certifier to use. 
Certifiers began competing with each other for business, some loosening 
standards to attract farmers and handlers, others tightening standards 
to attract more consumers. The grand challenge was to select the right 
certification to match successful marketing passage through the entire 
supply chain to the consumer. There were continual meetings as 
certifiers tried to respond to pressure to harmonize their standard. 
Since each wished to be unique, such efforts to standardize the 
standards never seemed to work. Some certifiers failed due to internal 
dissension or competitive pressure, throwing those who had chosen that 
certifier into disarray and exclusion from markets. Finally, the 
pressure to develop a national standard finally bore fruit thanks to 
the lead of the USDA. Contrary to the fears of those long championing 
organic production, the standards proposed and amended by the USDA 
satisfied almost everyone--farmers, handlers, processors, retailers and 
consumers. The openness of the regulations to citizen inputs allowed 
for an evolution in the rules. Finally, one national standard managed 
and enforced by the USDA helped organize supply chains that had the 
confidence of the consumer. Once that national standard came into place 
symbolized by the USDA's organic label, the organic market soared, even 
growing during the recession. It continues to grow with all associated 
players knowing in significant detail what the rules require.
    Clarkson Grain has also been supplying non-GMO corn and soy to 
buyers since 1994. Initial demand came from clients in Japan. 
Unfortunately there is no clear GMO standard. The same confusion that 
troubled organic markets before our national community defined 
``organic'' now plagues non-GMO markets--domestic and international. 
Some of our international clients have abandoned the U.S. as a supplier 
of non-GMO corn and soy because there has been no government effort to 
standardize the meaning of non-GMO or support labeling, either 
voluntary or mandatory. There are already at least two private 
certifiers of non-GMO with a host of states considering standards, 
standards that vary by certifier. The largest private certifier lacks 
the resources to handle national and international demand and suffers 
internal conflicts as to its own standards. These markets would be 
significantly rationalized and improved if there were a single national 
standard managed by the USDA. Such a standard would support a label in 
which buyers and suppliers could have confidence.
    Should the label be mandatory or voluntary? Clearly some advocate 
mandatory labeling of any food containing GMOs. If the underlying 
consumer interest to be protected is the opportunity to choose non-GMO 
products, then voluntary labeling of non-GMO products to a known 
standard would certainly respect that choice. Targeted voluntary 
labeling would also be much less intrusive than mandatory labeling of 
almost every product in the grocery store. Since those currently 
offering non-GMO as well as those wanting to offer non-GMO products 
intend to label for market advantage, there would be no unnecessary 
labeling costs. In my opinion, a national standard linked to voluntary 
labeling would meet consumer needs and facilitate markets without any 
unnecessary costs. A labeling program backed by the USDA with tolerance 
levels openly established to meet consumer values would inspire more 
confidence throughout the supply chain and among consumes than 
competing labels offered by various private groups and government 
entities.
Response from Thomas W. Dempsey, Jr., President and Chief Executive 
        Officer, Snack Food Association
Question Submitted by Hon. Dan Newhouse, a Representative in Congress 
        from Washington
    Question. My home State of Washington narrowly defeated a mandatory 
labeling ballot initiative in 2013. However, many other states and 
municipalities have since passed initiatives, all of course with 
different definitions, standards, and labeling requirements from each 
other. Mr. Dempsey and Mr. Policinski--can you both briefly describe 
what your companies or member companies would experience if this trend 
continues? How would producers comply with a conflicting patchwork of 
state and local labeling and production requirements?
    Answer. First, I would like to again thank the House Agriculture 
Committee for providing a forum for a balanced review of one of the 
most critical issues facing the food industry today, the labeling of 
genetically modified organisms (GMOs). The Snack Food Association 
represents more than 400 companies who produce a wide variety of snacks 
ranging from potato chips, to meat snacks, to crackers, to dried fruit 
and nut mixtures. SFA members range from billion-dollar multi-category 
companies such as Frito Lay and ConAgra Foods which have manufacturing 
facilities in Washington, to small family owned and operated 
businesses. More than half of SFA members have less than $100M/year in 
sales and many are the primary employer in their community.
    SFA is concerned both with the burden state-level GMO labeling 
would put on interstate commerce as well as the increased costs that 
could drive food companies out of business or increase food prices for 
consumers while potentially limiting their options in the marketplace.
    Over the last several years there have been a number of state 
ballot initiatives calling for mandatory GMO labeling. While voters 
have rejected ballot initiatives calling for mandatory GMO labeling in 
four states including Washington, the Vermont state legislature 
approved the nation's first mandatory GMO labeling law, Act 120, last 
year. In addition, since January 2015, more than 20 states have 
introduced nearly 70 different pieces of legislation calling for some 
type of mandatory GMO labeling. If enacted, these rules would impact 
nearly every aspect of SFA members' business, upping costs by requiring 
increased product inventory, added complexity for packaging and 
distribution processes, and extensive new regulatory and training 
requirements.
    As I mentioned during my testimony, the hardest hit by these new 
burdens would be the small, family-owned companies with just one plant 
with just a single line of production. Quite frankly, these costs could 
put some companies out of business and thereby increase consolidation 
in the industry. SFA does not have a single member company that 
manufactures, distributes, and sells in just one state, which adds 
additional layers of complexity if differing laws were enacted in 
multiple states.
    In order to avoid the need for duplicate labels, it is sometimes 
assumed that companies could simply remove the GMO ingredients from 
their products altogether. This is unrealistic because the availability 
of non-GMO crops is very limited. One SFA member indicated that they 
could not increase contracts for non-GMO corn for a minimum of 2 years. 
Transitioning to GMO-free production could not happen overnight, or 
even by 2016, as is specified in Vermont's Act 120.
    Some food manufacturers may be forced to end the distribution of 
their products in states that require mandatory GMO labeling. This 
would have a ripple effect across the distribution chain, impacting 
drivers, warehouse personnel, account executives, and field management. 
And while consumers in some states, such as Vermont, may have the 
option to cross state lines to shop for goods if products were pulled 
from grocery shelves, however that is simply not feasible for everyone. 
Additionally, if product made its way onto the store shelves, despite a 
manufactures desire to cease distribution, the manufacturer, in the 
case of the Vermont law would be held liable, not the retailer.
    We agree with you that a national standard for GMO labeling--rather 
than a state-by-state patchwork of arbitrary rules--is the best 
approach. Absent a Federal GMO solution, manufacturers will have 
essentially three options in order to comply with a patchwork of state 
labeling laws. Those choices would be to order new packaging for 
products, reformulate products so no labeling is required, or halt 
sales to that state. As I have outlined, each option is difficult, 
costly, time-intensive, and at worst, could eliminate jobs and consumer 
choice in the marketplace.
    For all of these reasons, I would also like to thank you Rep. 
Newhouse for your leadership in supporting critical bipartisan 
legislation, the Safe and Accurate Food Labeling Act of 2015 (H.R. 
1599) which represents a dramatic step in the right direction to 
address the problems associated with mandatory GMO labeling. SFA's 
members appreciate that H.R.1599 balances the desire of some consumers 
for an additional label with the recognition that mandatory labels 
should be reserved for safety and nutrition concerns. Experts agree 
that the safety of GMO products is not a concern. The safety of GMOs is 
backed by FDA, USDA, EPA and 20 years of experience in the field.
    Again, thank you for your consideration of our views. We hope this 
lays the groundwork for a Federal solution to the threat of a costly 
and confusing patchwork of state labeling rules. SFA would be happy to 
be a resource should you have any additional questions.
            Sincerely, 
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Tom Dempsey,
President and CEO,
Snack Food Association.
Response from Chris Policinski, President and Chief Executive Officer, 
        Land O' Lakes, Inc.
Question Submitted by Hon. Dan Newhouse, a Representative in Congress 
        from Washington
    Question. My home State of Washington narrowly defeated a mandatory 
labeling ballot initiative in 2013. However, many other states and 
municipalities have since passed initiatives, all of course with 
different definitions, standards, and labeling requirements from each 
other. Mr. Dempsey and Mr. Policinski--can you both briefly describe 
what your companies or member companies would experience if this trend 
continues? How would producers comply with a conflicting patchwork of 
state and local labeling and production requirements?
    Answer. Our farmers have embraced biotechnology faster than any 
technology in history. They've done that because of the benefits to 
their economics on farm, the environment, less land and water use, and 
less crop protection products used. Simply put, they are safe, and 
beneficial. Stigmatizing GMO foods through a patchwork of state 
labeling mandates, or even mandatory federal labeling, jeopardizes 
innovation and threatens the future development and use of technology 
in agriculture and the availability of these tools to our growers. The 
challenges from a food industry perspective are no less significant 
than those faced on the farm. Each state where mandatory labeling 
legislation is pending has a different labeling requirement. For 
example, in Washington State the ballot initiative would have required 
products that contain any ingredients grown from biotech seeds as 
``partially produced with genetic engineering'' or ``may be partially 
produced with genetic engineering.'' Meanwhile, proposed legislation in 
other states would require labels to say ``contains genetically 
engineered ingredients.'' Additionally, the state regulatory body 
charged with drafting and enforcing these standards also varies 
depending on the state legislature, as does the scope of food products 
covered or exempted and the penalties imposed. The three choices we see 
under a state-by-state regulatory scheme are: (1) to stop selling in 
the state, (2) to relabel our products at considerable expense, and (3) 
to re-engineer our supply chain and reformulate our products at even 
greater expense. None of those are good choices. All of those choices 
would result in either denying consumer's access to products or raise 
consumer costs. According to a Cornell University study, families may 
pay up to an average of $500 per year more per year in food costs due 
to mandatory labeling. That's why we strongly support a voluntary 
national labeling standard, as proposed by the Safe and Accurate Food 
Labeling Act.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
